<html>
<title> - INTERNATIONAL BANKING & FINANCE: AN AMERICAN PERSPECTIVE</title>
<body><pre>[Senate Hearing 105-628]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 105-628


 
                    INTERNATIONAL BANKING & FINANCE:


                        AN AMERICAN PERSPECTIVE

=======================================================================

                             FIELD HEARING

                               before the

                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

ASSESSING THE YEAR 2000 PREPAREDNESS OF FOREIGN COUNTRIES AND DETERMINE 
         JUST WHERE AND HOW THE UNITED STATES MAY BE VULNERABLE

                               __________

                              JULY 6, 1998

                              NEW YORK, NY

                               __________

                  Printed for the use of the Committee


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


50-137 cc            U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1998

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
                          Washington, DC 20402





                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM

         [Created by S. Res. 208, 105th Cong., 2d Sess. (1998)]

                   ROBERT F. BENNETT, Utah, Chairman
JON KYL, Arizona                     CHRISTOPHER J. DODD, Connecticut,
GORDON SMITH, Oregon                   Vice Chairman
SUSAN M. COLLINS, Maine              JEFF BINGAMAN, New Mexico
TED STEVENS, Alaska, Ex Officio      DANIEL PATRICK MOYNIHAN, New York
                                     ROBERT C. BYRD, West Virginia, Ex 
                                         Officio
                    Robert Cresanti, Staff Director
            Andrew Lowenthal, Acting Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                 ------                                

                 OPENING STATEMENT BY COMMITTEE MEMBERS

Hon. Robert F. Bennett, a U.S. Senator from Utah, Chairman, 
  Special Committee on the Year 2000 Technology Problem..........     1
Hon. Daniel Patrick Moynihan, a U.S. Senator from New York.......     2

                    CHRONOLOGICAL ORDER OF WITNESSES

John Westergaard, editor and publisher, Westergaard Online 
  Services, Inc..................................................     3
Ernest T. Patrikis, first vice president, Federal Reserve Bank of 
  New York.......................................................     8
Richard R. Lindsey, director of division of market regulation, 
  U.S. Securities and Exchange Commission........................    12
William A. Bautz, senior vice president and chief technology 
  officer, New York Stock Exchange...............................    22
Peter A. Miller, chief information officer, J.P. Morgan..........    24
Tanya Styblo Beder, principal, Capital Market Risk Advisors, Inc.    30
Howard Rubin, chief executive officer, Rubin Systems, Inc. and 
  chair, Department of Computer Science, Hunter College..........    33

                                APPENDIX
              Alphabetical Listing and Material Submitted

Bautz, William A.:
    Statement....................................................    22
    Prepared statement...........................................    43
Beder, Tanya Styblo:
    Statement....................................................    30
    Prepared statement...........................................    47
Bennett, Hon. Robert F.:
    Opening statement............................................     1
    Prepared statement...........................................    50
Lindsey, Richard R.:
    Statement....................................................    12
    Prepared statement...........................................    50
Miller, Peter A.:
    Statement....................................................    24
    Prepared statement...........................................    60
Moynihan, Hon. Daniel Patrick: Opening statement.................     2
Patrikis, Ernest T.:
    Statement....................................................     8
    Prepared statement...........................................    63
Rubin, Howard A.:
    Statement....................................................    33
    Prepared statement...........................................    80
Westergaard, John:
    Statement....................................................     3
    Prepared statement...........................................    84

              Additional Material Submitted for the Record

Statement of Treasury Deputy Secretary Larry Summers.............    90


        INTERNATIONAL BANKING & FINANCE: AN AMERICAN PERSPECTIVE

                              ----------                              


                          MONDAY, JULY 6, 1998

                               U.S. Senate,
                 Special Committee On the Year 2000
                                        Technology Problem,
                                                      New York, NY.
    The committee met, pursuant to notice, at 10:10 a.m., in 
the Ceremonial Chamber, U.S. Courthouse, 500 Pearl Street, New 
York, NY, Hon. Robert F. Bennett (chairman of the committee), 
presiding.
    Present: Senators Bennett and Moynihan.

  OPENING STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR 
    FROM UTAH, CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Chairman Bennett. Good morning. Welcome to the second 
hearing of the Senate Special Committee on the Year 2000 
Technology Problem. I want to express particular thanks to 
Senator Moynihan for inviting us to this hearing in this lovely 
city on a lovely summer day, and these magnificent 
surroundings. I appreciate Senator Moynihan's hospitality and 
his leadership in putting together today's panel of witnesses. 
As we have divided up the committee assignments, Senator 
Moynihan has taken on the assignment of working on the 
financial services industry, and we are very glad to have 
someone with his background and expertise handling this 
particular area.
    As I flew here from Salt Lake City yesterday, I shared a 
seat in the airplane with the head of one of Utah's principal 
financial institutions. He was on his way to Istanbul where 
they were looking at a joint venture activity, and in the 
course of the conversation, the Year 2000 came up, it always 
comes up in every conversation I have these days, it seems. He 
said the obvious, but I think it's the theme for today's 
hearing. He said, ``We know a great deal about the problem, and 
what scares me to death is what we don't know about the problem 
and where it can rise up to bite us.'' He said, ``We will be 
ready in all the ways that we can, and we're still very much 
concerned about having problems.''
    I got involved in this issue about a year ago as chairman 
of the Subcommittee on Financial Services and Technology in the 
Senate Banking Committee, held the first hearing to talk about 
the readiness of the banking community for the Year 2000 and 
when I got through with the hearings, Senator Dodd, who had 
stayed through the whole proceeding said to me, ``Mr. Chairman, 
we need another hearing,'' and of course he was absolutely 
right. We not only had other hearings, but we have a committee 
created by the Senate to go beyond the jurisdiction of the 
Banking Committee.
    Out of that series of hearings in the Banking Committee, I 
have come to the conclusion that financial services in the 
United States are probably in pretty good shape, and that we 
are looking at getting most of our problems under control. I 
have also come to the conclusion that when you go beyond our 
shores and talk about what might happen worldwide, it's time to 
get very, very nervous, and so the witnesses that we have this 
morning are going to tell us either that we're right in our 
assumption that everything is OK, or will be OK in the United 
States, or that we still have much to do, but I'm looking 
forward to having them give us their assessment of what things 
are going to be overseas and the interaction between the United 
States and financial services abroad.
    We have a panel of expert witnesses to help us consider 
this issue, and we're grateful, as I say, to Senator Moynihan 
for putting this panel together. Senator, thank you so much, 
and we're glad to hear whatever comments you might have.

 OPENING STATEMENT OF DANIEL PATRICK MOYNIHAN, A U.S. SENATOR 
                         FROM NEW YORK

    Senator Moynihan. I'm glad to welcome you to New York, to 
our new Federal Courthouse here in Foley Square. It is an 
attractive room and it has light, which is what we're going to 
shed on this subject.
    To say, sir, that my understanding of the matter is very 
much yours, that our institutions domestically are going to be 
probably all right, but their associated activities overseas 
could bring them real problems. I know that Chairman Levitt of 
the Securities and Exchange Commission feels that and of course 
we're going to have Dr. Lindsey talking about that this 
morning.
    Just a quick background for me. I'm very pleased that our 
first witness will be John Westergaard, who is an old and dear 
friend, and who brought this to my attention and to the 
attention of people who subscribe to his on-line services. I 
had legislation in the last Congress and this year I have S. 
22, legislation posing a National Commission on Y2K. We have a 
National Commission finally in your person.
    My question is, however, time is running very fast. We 
don't have until the Year 2000. We have until sometime early 
next year, because companies need to start testing soon. Our 
witnesses can give us some sense of that moment in 1999, 
because I think that would help us.
    With that said, we'll get on with our hearing.
    Chairman Bennett. Thank you. I will say that in that first 
hearing to which I referred, we were told that if the banking 
system did not have the Year 2000 conceptually solved and all 
of the factions ready to go by September of 1998, it would be 
too late. I asked why that's so, and they said because we're 
going to have to have the ensuing year for testing purposes, 
and we can really only test on weekends when we can shut the 
system down and put the new software on the computer and that 
gives us about 60 days worth of weekends, and 60 days is a 
pretty scary, short period of time. So I say that in advance, 
just in case there's any witness listening who is prepared to 
contradict that or reaffirm that.
    Senator Moynihan. Good benchmark.
    Chairman Bennett. OK, thank you. Mr. Westergaard, if you 
would come, please, we would be delighted to hear you, sir.

     STATEMENT OF JOHN WESTERGAARD, EDITOR AND PUBLISHER, 
               WESTERGAARD ONLINE SERVICES, INC.

    Mr. Westergaard. Thank you. Good morning. Can everybody 
hear all right?
    Chairman Bennett. Yes indeed. These speaking machines, as 
Senator Thurmond refers to them, are much better than they are 
at the Senate.
    Mr. Westergaard. Thank you for inviting me here today. My 
name is John Westergaard, I am founder, editor, and publisher 
of Westergaard On Line Systems, a publisher of Internet 
webzines, which is cybertalk for magazines on the Internet. We 
also conduct investment conferences and have so for 21 years.
    We publish Westergaard Year 2000, a daily webzine providing 
information and analysis of the Year 2000 millennium bug, which 
I will refer to here as simply Y2K. Westergaard Year 2000 
publishes several dozen expert columnists who regularly 
contribute commentary covering virtually all aspects of the Y2K 
problem.
    Westergaard Year 2000 is published as a not for profit 
public service under the editorship of Adam Kaplan, who is 
here, and his assistant editor, John Yellig, who is also here. 
Its Internet address is www.y2ktimebomb.com. It receives 
thousands of visitors daily from some 80 countries and is 
recommended as a Y2K resource by the World Bank and Federal 
Reserve, among others.
    I understand of course that the focus of this hearing is to 
be the international financial and economic aspects of the Y2K 
problem. I'll get to that. But first allow me to state some 
views with respect to the handling of Y2K compliance by the 
Federal Government from a perspective of having observed the 
issue develop at close hand for the past 2\1/2\ years.
    I do so because the main point I hope to impress upon this 
committee is the need for the President, the Department of 
Defense, our United Nations representatives, and the Secretary 
of the Treasury, among others, to exert leadership in alerting 
the world to the Y2K problem and to provide technological 
assistance in achieving date compliance. And I have to say the 
evidence to date is not encouraging in that respect.
    I fear historians will not treat the Clinton administration 
well for its management of a crisis which promises to be the 
defining event of the second term. Congress will fare better 
thanks in main to Senators Bennett and Moynihan of this Special 
Committee who have played early leadership roles in sponsoring 
Y2K awareness, and to Congresspersons Steve Horn and Carolyn 
Maloney for the excellent hearings of their Committee on 
Government Reform and Oversight.
    On the executive side, and again we follow this very 
closely on a day-to-day basis, the agencies testifying 
immediately following me here today, the Federal Reserve, and 
the SEC, have been well ahead of the curve on this issue. The 
General Accounting Office, GAO, has done outstanding work.
    The Office of Management and Budget, on the other hand, 
appears to have focused on papering the problem over and has 
hampered Y2K remediation programs at the State level by 
projecting absurdly low Federal estimates of remediation costs. 
This has caused supplemental budget requests of State officials 
to appear high in contrast, invoking thus the skepticism of 
State legislators.
    The most egregious Y2K compliance offender, considering the 
strategic importance of its mission and the vast resources and 
planning abilities available to it, has been the Department of 
Defense. As recently as last week, the GAO issued a report 
sharply critical of the Navy's compliance status. The Army and 
the Air Force are also in serious trouble over Y2K. As for the 
media, with the exception of the Washington Post, USA Today, 
and the Financial Times of London, the general press here and 
abroad has failed miserably in addressing the crisis. As 
recently as November, for example, the Los Angeles Times was 
calling Y2K basically a hoax, ironically at the very time, this 
was the lead front page, right-hand column story, ironically at 
the very same time that their internal operations people were 
struggling over allocating resources to meet compliance 
deadlines.
    The Wall Street Journal's coverage has been abysmal. I was 
told last year by a Journal reporter that his editors weren't 
interested in the Y2K story because it had already been told. 
That's the equivalent of reporting the attack on Pearl Harbor 
on Monday morning, December 8, 1941 and then advising readers 
the next day, oh, that story? We told you yesterday there's a 
war on.
    Y2K may not be a war, but neither is it a one-day story. It 
is an event that will encompass 6 years, by my count, from 1996 
through 2002, and of course earlier, there will become cleanup 
I'm sure later. Think of it as a plague, an electronic bubonic, 
what I call it.
    However extreme my comments may appear, let me assure the 
committee that my view of the Y2K is not apocalyptic. There 
will be a worldwide Y2K recession, but there have been 
recessions in times past. The world has survived them and often 
been the better for the experience. I am in fact a congenital 
optimist and have great confidence as to the ability of the 
U.S. Government, the business community and the financial 
community to eventually work their way through Y2K.
    I foresee a period encompassing the first 6 months of 2000 
as being equivalent to the first half of 1942, Pearl Harbor to 
the Battle of Midway, during which the U.S. mobilized for war. 
Enormous positive energy and creativity was unleashed then and 
I expect the same to happen this time.
    I come here today not as a computer expert by any means, 
but as an investment strategist who has a history of spotting 
financial and economic trends early. That's not because I'm 
smart. It's because I have published investment research on 
emerging small companies for 40 years run by entrepreneurs 
typically engaged in promoting new business opportunities. I 
have thus tended to have an early look at new trends. It was 
just such an entrepreneur seeking new research sponsorship and 
capital, Bob Gruder of Alydaar Corporation, who introduced me 
to Y2K in December, 1995. I immediately took the matter to my 
friend of 40 years, Senator Pat Moynihan, who was incredulous 
as was everyone then and as many still are, but in keeping with 
his academic discipline, the Senator requested that a study be 
prepared by the Congressional Research Service.
    CRS reported back within a few months substantiating in 
full the issues I had raised. As an aside, is it not curious 
that the two legislators who were first to recognize and take 
action on Y2K are former college professors; Senator Moynihan 
and Congressman Horn? Perhaps we should be electing more 
college professors to public office. Isn't it also curious that 
others in Washington who have quickly grasped the Y2K issue 
have backgrounds in business, to wit, Senator Bennett and SEC 
Chairman Arthur Levitt? Perhaps we should be electing more 
business people as well.
    Senator Moynihan advised the President of Y2K by letter in 
July, 1996 and recommended appointment of a Manhattan Project-
style Y2K Czar to direct Federal compliance. A perfunctory 
response, at least I call it that, was received in November, 
not directly from the President, but from Frank Raines at OMB. 
The Senator then arranged a meeting with Secretary of the 
Treasury Bob Rubin and Assistant Secretary Larry Summers on 
December 14, 1996 in which I participated. Rubin and Summers 
were generally aware of the problem. We learned that Treasury 
was then budgeting circa $75 million for Y2K, I don't recall 
the exact number. According to a recent report, the figure in 
just 15 months has blossomed to $800 million. And that doesn't 
include the agencies for which it is responsible.
    The first public----
    Chairman Bennett. If I can interrupt you, sir, I had dinner 
with Secretary Rubin 2 months ago and he told me the number at 
Treasury, not including the IRS, was $1.4 billion.
    Mr. Westergaard. Not including IRS?
    Chairman Bennett. Not including IRS, so it has gone up, as 
you've indicated, very rapidly. Excuse me.
    Mr. Westergaard. The first public acknowledgement of Y2K, 
to my knowledge, by the White House occurred on August 15, 
1997, a full year after the Moynihan letter, when the President 
stated at a press conference that Americans need not worry 
about the computer clock problem. The appointment of John 
Koskinen as Federal Y2K Czar in February of this year was the 
first sign that the White House is taking the Y2K matter 
seriously, as far as I know.
    Senator Moynihan and I met with Mr. Koskinen at the end of 
March and I am pleased to say that he left me and I believe the 
Senator with a comforting sense that an adult has been placed 
in charge. I believe Mr. Koskinen occupies the fourth most 
important position in America today after the President, Fed 
Chairman Greenspan and Treasury Secretary Rubin.
    So what should the Senate be looking at and thinking about 
in respect to the Y2K problem as it relates to international 
economic and financial considerations? I will make a few 
predictions employing inferential analysis to create three 
``what if'' scenarios. Given the speculative nature of 
Westergaard scenarios, they are as often wrong as they are 
right, but you can be sure they are never in doubt.
    Scenario No. 1: Does Y2K reflect God's will? At year 1000, 
Europe was engulfed with random violence and fear that the 
world would end. Out of this chaos emerged a new social order 
as Christianity spread through Northern Europe. Russia 
converted in 988, followed by Poland, Norway, Iceland and 
Greenland in 999-1000. By way of background, I refer the 
committee to James Reston, Jr.'s recently published ``The Last 
Apocalypse: Europe at the year 1000 A.D.''
    Saddam Hussein will interpret Y2K as retribution from an 
Almighty aimed at punishing technological infidels. He will 
interpret it as a call to attack Kuwait and Saudi Arabia. He 
will assume, with good reason, that Y2K will leave the U.S. 
military incapable of mounting a large scale military response.
    The financial and economic impact of a move south by Saddam 
in the beginning of the Year 2000 will be chaos in the world 
petroleum market, sharply higher oil prices, inflationary 
pressures and consequent strains on international banking and 
industrial systems of unpredictable magnitude.
    My recommendation: The Department of Defense should be 
directed to prioritize Y2K compliance to mission critical 
systems needed to meet another Saddam challenge. It will be 
prudent to move troops into the region in late 1999 to counter 
the risk of continuing Y2K complications following the 
millennium turn would render impossible a timely response to 
Saddam.
    Scenario No. 2: World recession 2000. To understand 
business cycles, consider traffic backing up 20 miles on the 
New York State Thruway as drivers rubberneck even the most 
minor accidents. That is analogous to what will happen to the 
world economy in 2000. It will back up as transactions of every 
type, shipments of goods, travel, communications, payments, you 
name it, will slow down, even if only fractionally. It is 
improbable that a worldwide recession can be avoided under such 
circumstances. The question isn't will there be a recession, it 
is how bad will it be?
    Recommendation: For example, a slowdown in health care 
reimbursement systems worldwide will leave hospitals and other 
caregivers short of cash to pay employees, of which there are 
some 10 million in the United States alone. Emergency funding 
will be required to provide systemic liquidity. Appropriate 
legislation needs to be prepared now for introduction in 1999 
in the United States and worldwide to provide emergency 
liquidity to the health care system. The United States with the 
world's most advanced and respected health care systems should 
exercise leadership in alerting health care officials worldwide 
to the risk of slow payments and to potential Y2K-related risks 
in the application of medical devices. Certain devices will be 
non-functional due to non-compliant software and non-functional 
chips.
    Upcoming confirmation hearings of Richard Holbrook to the 
post of U.N. ambassador will provide the Senate with a forum 
for recommending that an active role be taken by the U.S. 
delegation and alerting member states, the World Health 
Organization and other U.N. agencies to the Y2K issues. I have 
no idea how active and how knowledgeable or not the United 
Nations organization is on this issue, but I think some focus 
in that area is appropriate.
    Chairman Bennett. I'm just pointing out the red light is 
on.
    Mr. Westergaard. Am I running too long?
    Chairman Bennett. If you're ready to sum up.
    Mr. Westergaard. One more page.
    Scenario No. 3: Brownouts and blackouts. There will be spot 
shortages of worldwide electrical power. Nuclear generating 
plants will be shut down to allay public fears of meltdowns. 
The French economy with its proportionately large 40 percent 
reliance on nuclear power will be hard hit.
    Recommendations: Conventional power generating plants are 
less computerized than one might suspect, but there will be 
minimum brownouts in the United States and worldwide in 2000. 
The nuclear issue will be resolved by shutting down nuclear 
plants over millennium weekend and bringing them back on stream 
one by one to assure the public that plants are safe. The 
Department of Energy needs to take a leadership role in 
promoting Y2K awareness of energy related Y2K issues 
domestically and abroad.
    Just in closing, these scenarios represent no more than a 
passing insight into the Y2K problem. I have not touched on 
Japan, the second largest economy, which remains in abject 
denial over Y2K, nor China with the largest population. China, 
on the one hand, benefits from a proportionately low level of 
computer dependency, but suffers from employing large amounts 
of pirated software, leaving it without access to vendor 
assistance for remediating code.
    I could go on for the rest of the morning. More than a 
thousand pages of information, research, analysis and 
commentary covering every aspect of the Y2K problem can be 
found at our webzine, Westergaard Year 2000 
www.y2ktimebomb.com. I trust the committee and its staff will 
employ this resource, register for our free daily E-mail alert 
service and feel free to contact me and the editors via E-mail 
or phone any hour, any day, anywhere.
    [The prepared statement of Mr. Westergaard can be found in 
the appendix.]
    Chairman Bennett. Thank you very much. I assure you, we are 
in touch with your web site. The staff checks there on a daily 
basis.
    I have one comment on your very excellent presentation. I 
have visited two nuclear plants here in the United States, 
because I have the same concern that you do, and I've come to 
the conclusion that conventional wisdom to the contrary, the 
nuclear plants probably present less of a Y2K problem than the 
other plants. The reason being, No. 1, they are the most 
heavily regulated of all of the power producing plants in the 
United States, and therefore felt the pressure from not the 
Department of Energy, but from the Federal Regulatory 
Commission and the Nuclear Regulatory Commission, who have 
inspectors in their plants all the time. So in that sense 
they're a little bit analogous to the banks that are under 
pressure from the Fed and the FDIC, and they have perhaps a 
better handle on the Y2K issue than some of the other 
utilities.
    Second, perhaps because of their sense of perceived or real 
persecution in the energy-generating business, they formed 
something of a club. The nukes talk to each other, and share 
information. They recognize they have a public perception 
problem, everyone is concerned the nuclear energy system is 
going to melt down to China, and so they work harder at 
redundancy and safety, and they talk to each other for that 
public relations purpose and as a result there's been a better 
exchange of information between nuclear power generators in 
this country than there has been from some of the others. So I 
came away from that experience saying the nuclear power plants 
are in better shape than I thought they were, and that the 
problem of brownouts and blackouts, which I think is a very 
real possibility, will come in large part, from other sources 
on the power grid.
    Mr. Westergaard. I agree with everything you're saying. I'm 
just suggesting that the public, there will be a public clamor 
to shut down nuclear energy for some period of time, that there 
will be enough scare stories out there that the nuclear power 
plants will probably be wise to shut down.
    Chairman Bennett. OK, I get that distinction. Senator 
Moynihan?
    Senator Moynihan. No, that's interesting and reassuring. 
It's not the worst thing to have some reassuring news. Thank 
you, Mr. Westergaard, thank you, John.
    Chairman Bennett. Thank you very much, sir. We appreciate 
it.
    All right, we are now at 10:30. We have three additional 
panels. Senator Moynihan suggests, and I concur, that we allow 
each of the additional panels a half hour. We have two 
witnesses per panel, so that would mean perhaps 10 minutes, 12 
minutes for opening statements and then some time for questions 
and discussion afterwards.
    So first, we have Ernest Patrikis, first vice president of 
the Federal Reserve Bank of New York and Dr. Richard Lindsey, 
director of the Division of Market Regulation at the U.S. 
Securities and Exchange Commission. Gentlemen, we are grateful 
to have you both here and appreciate your willingness to give 
us your insights. Mr. Patrikis, we'll go with you first.

STATEMENT OF ERNEST T. PATRIKIS, FIRST VICE PRESIDENT, FEDERAL 
                    RESERVE BANK OF NEW YORK

    Mr. Patrikis. Thank you. Good morning, I'm pleased to be 
here before the committee today to discuss the progress of 
foreign financial markets in addressing the Year 2000 
technology problem. I'm appearing in my capacity as chairman of 
the Joint Year 2000 Council, which is sponsored jointly by the 
Basle Committee on Banking Supervision, the G-10 Central Bank 
Governors' Committee on Payment and Settlement Systems, the 
International Association of Insurance Supervisors and the 
International Organization of Securities Commissions, which I 
will refer to as the sponsoring organizations.
    This morning I'll summarize the information provided in my 
submission to the committee.
    Who is at risk from the Year 2000 bug? All organizations 
that are dependent on computer software or embedded computer 
chips are at risk. I believe this definition encompasses all 
significant financial institutions and markets worldwide. All 
countries of the world, therefore, have a Year 2000 problem. 
That must be the starting point for any discussion of the 
global scope of the problem. No countries have the same Year 
2000 problem. For example, the United States is one of the 
world's biggest and long-standing users of computers. Our Year 
2000 problem is, therefore, larger than almost anyone else's. 
It is a very positive development that so much good work is 
being done in the United States, especially within the banking 
and financial sectors. Should we be concerned, however, about 
the readiness of other foreign financial markets?
    Could a lack of preparations of foreign jurisdictions have 
an impact on the financial institutions of the United States? 
Inevitably, the answer is yes, although the extent of that 
impact is difficult to assess at this time with any degree of 
confidence. To provide a context for understanding these 
issues, I'd like to briefly discuss some key linkages that 
exist within the systems that are used by financial market 
participants to undertake their transactions. As an example, 
consider the daily financial market activities of a 
hypothetical U.S. based mutual fund holding stocks and bonds in 
a number of foreign jurisdictions. Such a mutual fund would 
likely execute trades in relationship with a set of securities 
dealers, who themselves might make use of other securities 
programs, including some inside the United States. In addition, 
securities trading in most countries is reliant on the proper 
functioning of the respective exchanges, trading systems and 
financial information systems, as well as the national 
telecommunications infrastructure on which these systems 
depend.
    For record keeping and settlement purposes, our 
hypothetical mutual fund would also likely maintain 
relationships with one or more global custodians who themselves 
typically maintain relationships with a network of 
subcustodians located in various domestic markets around the 
world. Actual settlement of securities transactions would 
typically occur over the books of a domestic securities 
depository. Payment for foreign exchange transactions on behalf 
of the mutual fund would involve use of correspondent banks for 
both the U.S. dollar and other currencies.
    These transactions would typically settle over the books of 
domestic wholesale systems, such as the Clearing House 
Interbank Payments System, CHIPS, or Fedwire in the United 
States and the new TARGET system for the euro. Correspondent 
banks also heavily depend on the use of cross-border payments 
messaging through the network maintained by the Society for 
Worldwide Interbank Financial Telecommunications, SWIFT, to 
advise and confirm payments.
    To provide some sense of the magnitudes involved here, 
consider that the Fedwire and CHIPS systems process a combined 
$3 trillion in funds on an average day, split roughly in half 
between the two systems. While SWIFT itself does not transfer 
funds, its messaging network carries over 3 million messages 
per day relating to financial transactions worldwide.
    I would not like to debate Senator Bennett on this issue, 
but rather embellish it. In Fedwire, depository institutions 
can test the Year 2000 issue with us every day. There's a 
separate computer set aside for us, and weekends are designated 
test dates which can also be coordinated test dates. We're 
trying for a worldwide coordinated test using SWIFT, Fedwire, 
CHIPS, DTC, so I would differentiate today between a specific 
day set aside for specific testing, and generally available 
testing every day of the week, which we encourage institutions 
to do sooner rather than later.
    The many interconnections of the global financial 
infrastructure imply that financial market participants in the 
United States could be affected by Year 2000 disruptions in 
other financial markets. In assessing the scope of any such 
potential problems we should be realistic in accepting that 
some disruptions are inevitable. The problem simply affects too 
many organizations and too many systems to expect 100 percent 
readiness will be achieved throughout the world. Today it would 
be impossible to predict the precise nature of these 
disruptions. However, we do know that financial markets have in 
the past survived many other serious disruptions, including 
blackouts, snowstorms, ice storms, and floods.
    Can financial markets supervisors and regulators help? Yes, 
but there are limits on what we can accomplish either 
individually or collectively. Only firms themselves have the 
ability to address the Year 2000 problems that exist within 
their own organizations. Only firms working together can assure 
that local markets will function normally. Supervisors and 
regulators cannot guarantee that disruptions will not occur.
    What can supervisors do? At the international level, each 
of the major financial supervisory organizations developed 
action plans during 1997 for their respective areas of 
interest; banking, payments and settlements, securities, 
insurance. Yet when these organizations co-sponsored a Global 
Conference on the Year 2000 Problem this April in Basle, they 
realized it made sense to combine forces and coordinate their 
activities to ensure their messages were getting through loud 
and clear throughout the world. It was at this point that the 
Joint Year 2000 Council was formed. The Council consists of 
senior members of the four sponsoring organizations. Every 
continent is represented by at least one member of the Council. 
The Secretariat of the Council is employed by the Bank for 
International Settlements.
    The mission of the Joint Year 2000 Council has four parts: 
First, to insure high level attention to the Year 2000 computer 
challenge within the global financial supervisory field. 
Second, to share information on regulatory and supervisory 
strategies and approaches. Third, to discuss possible 
contingency measures, and fourth, to serve as a point of 
contact with national, international, and private sector 
initiatives.
    The G-7 finance ministers have recently called on the Joint 
Council and its sponsoring organizations to monitor the Year 
2000 related work in the financial industry worldwide, and to 
take all possible steps to encourage readiness. The Council has 
met twice since being formed in early April and plans to meet 
frequently, almost monthly, between now and January 2000.
    We have also formed and met with a consultative committee 
intended to enhance the degree of Year 2000 information sharing 
between the public and private sectors. While the Joint Year 
2000 Council will not be in a position to ensure Year 2000 
readiness in every financial market worldwide, I believe we 
will play a positive role in three areas: Raising awareness, 
improving preparedness, and contingency planning. To help raise 
awareness of the Year 2000 efforts underway globally, we will 
maintain an extensive worldwide web site, including a web page 
for each country in the world where Year 2000 activities and 
contacts for that country will be available. The presence of 
these country pages is intended to assert peer pressure on 
those countries where more vigorous action is needed.
    The Joint Council will be taking initiatives to improve 
preparedness, and providing support for the concept of a 
national level coordinating body for the Year 2000 problem. The 
Joint Council plans to issue a paper within the month aimed at 
improving supervision and readiness worldwide from a level of 
general awareness to a specific concrete program of action 
overseeing Year 2000 preparedness. We will develop a Y2K self 
assessment tool to be used broadly by the financial industry in 
every country.
    While there is still not enough information on the 
preparedness of financial institutions to be able to make 
confident statements about the state of global preparations in 
any detail, we hope to be able to use the Joint Council as a 
means of gathering a better picture of the state of local 
preparations and help to direct resources and attention to 
those regions where more efforts are needed. In these instances 
our first step would be to work through the relevant financial 
supervisors and regulators and to also involve multilateral 
institutions, such as the World Bank, to help increase national 
attention on the issue. I note that the government of the 
United Kingdom has given 10 million pounds to the World Bank to 
help fund these efforts.
    The Joint Council will also encourage all firms and 
institutions active in the financial markets to engage in 
internal and external Year 2000 testing. Testing is the most 
critical element of serious Year 2000 preparations. We will 
build on existing efforts to develop and publicize information 
regarding testing of major payment and settlement systems 
around the world. We will collect information regarding 
industry wide tests of all aspects of the trading and 
settlement infrastructure worldwide and we'll use this as an 
exercise in peer pressure. It will be clear which countries do 
not respond to our requests for information on their testing 
programs. The Joint Council will also develop a series of 
documents to help countries set up testing programs as rapidly 
as possible.
    The third major role of the Council will relate to 
contingency planning. We will develop a paper on this topic for 
the benefit of the global financial supervisory community. This 
paper will seek to address firm level contingencies as well as 
issues of market-wide contingencies. Contingency planning 
involves a series of elements, many of which must be put into 
place well before January, 2000. For example, we must consider 
the many possible sources of disruption and determine what 
approaches would be available to limit their impact. The sooner 
such thinking occurs, the more opportunity we have to plan 
around the possible disruptions. Of course, we will not be able 
to predict each source of disruption, but our work in this area 
should help us deal better with disruptions.
    Much more work is needed on contingency planning for the 
Year 2000, especially at the international level. Once we get 
beyond the early fall of this year, I believe these efforts 
will begin to receive much greater focus and attention, and 
will dominate our discussions of the Year 2000 in 1999.
    In closing, I would like to thank the committee for the 
opportunity to appear and submit a statement on this issue. I 
hope the efforts of the Joint Council will help make a 
difference in the state of Year 2000 preparations of the 
international financial community. Realistically, however, I 
believe that it is important to realize our concern must be 
with the system as a whole. At this point, I believe we are 
doing everything possible to limit the possibility that Year 
2000 disruptions will have systemic disruptions in our markets. 
But we must work cooperatively in the time that remains to 
insure that this threat does not become more concrete.
    And, Mr. Chairman, I would like to end my remarks by 
commending the committee for organizing these hearings on 
foreign international markets in addressing the Year 2000 
technology problem. Thank you very much.
    [The prepared statement of Mr. Patrikis can be found in the 
appendix.]
    Chairman Bennett. Thank you very much.
    Dr. Lindsey.

STATEMENT OF RICHARD R. LINDSEY, DIRECTOR OF DIVISION OF MARKET 
      REGULATION, U.S. SECURITIES AND EXCHANGE COMMISSION

    Mr. Lindsey. Good morning, Senator Bennett, Moynihan. I 
appreciate the opportunity to testify today on behalf of the 
Securities and Exchange Commission about the steps it has taken 
to ensure Year 2000 compliance in the securities industry and 
publicly held companies. The Commission has prepared a written 
statement and I ask that it be included in the record of these 
hearings.
    Chairman Bennett. Without objection.
    Mr. Lindsey. It has become clear that most of the world's 
computer systems need to be modified before January 1, 2000. In 
the U.S. securities industry, the scope of the Year 2000 
challenge is magnified by several factors: The industry is 
enormous. There are over 8,300 registered broker dealers, 1,100 
investment company complexes, 1,248 transfer agents and 24 
self-regulatory organizations, including the Exchanges, NASD, 
and clearing agencies.
    Second, the industry relies heavily on information 
processing technology and finally, industry participants are 
highly interconnected, both within the United States and 
globally.
    For these reasons, the commission views the Y2K problem as 
extremely serious and one that requires an industry-wide 
solution. If the securities industry fails to properly assess 
the extent of the Y2K problem, or fails to remediate systems 
that are not compliant, there is a potential to endanger the 
nation's capital markets and the safety of the assets of 
millions of investors. Nevertheless, based on the information 
we have received so far, the SEC believes that the securities 
industry is making substantial progress towards addressing 
systemic risks to the U.S. financial system as a result of the 
Y2K technology challenge.
    We've stressed to the securities industry how important it 
is to be compliant on time and that we will have zero tolerance 
for those entities that do not exert the necessary effort. In 
the securities industry, just like any other business, the 
compliance process has five phases; awareness, assessment, 
remediation, testing and contingency planning. Let me briefly 
mention the commission's efforts in each of these areas.
    Throughout 1996 and early 1997, we focused on raising the 
awareness of the Y2K problem in the securities industry and the 
need to fix it. Through our efforts, combined with those of the 
SRO's and the Securities Industry Association, extraordinary 
steps were taken to alert the securities industry to both the 
scope and the nature of the problem. During the past year, the 
commission shifted its focus from educating members of the 
industry to monitoring and encouraging their progress in 
solving the problem. We monitor their progress through direct 
oversight and examinations, as well as through collaboration 
with self-regulatory organizations and industry groups.
    The commission set 1997 as the target date for the 
remediation phase to be done. Testing is the next hurdle in the 
schedule and is to begin this month. The securities industry is 
based on an extraordinary interdependence of a great number of 
participants--broker dealers, exchanges, depositories, transfer 
agents, banks and suppliers of market information, among 
others, must all exchange, process, balance, confirm and settle 
millions of transactions every trading day. The interdependence 
among participants in the securities industry means that 
coordinated industry-wide testing is essential. In recognition 
of this, the SIA undertook to construct an unparalleled 
industry-wide testing program. Testing will not only tell us 
how well the industry is prepared for the Year 2000, but also 
help identify trouble spots for developing contingency plans.
    Finally, there is contingency planning. No matter how much 
progress the industry makes in addressing the Y2K issue, it is 
virtually certain that some problems will not be discovered or 
will not be remediated in time. Consequently it's imperative 
that well defined contingency plans be formed to minimize the 
disruptive effect of these failures. Industry-wide efforts for 
contingency planning are being coordinated through a 
Contingency Planning Working Group, which is jointly sponsored 
by the Federal Reserve Bank of New York, the SIA, and the New 
York Clearing House. The working group was formed to share 
information on the industry's Y2K compliance efforts and to 
address potential systemic implications.
    Let me now move to the current status of the various 
participants in the securities markets. Because they play a key 
role in both operating the nation's securities markets and in 
overseeing the companies and individuals who participate in 
those markets, the SRO's readiness for Year 2000 is 
particularly critical. The SRO's, which include the exchanges, 
clearing agencies, and the NASD have completed the awareness 
and assessment phases of the Y2K process. They are all far 
enough along in the remediation process to begin the first 
phase industry testing next week.
    Broker dealers are the primary intermediaries between 
investors and the securities markets. For that reason, we have 
made it very clear to broker dealers that Y2K failures will 
have severe consequences. Any broker dealer that cannot 
maintain accurate books and records or cannot determine its net 
capital requirements because of a Y2K failure, could be subject 
to closure and the transfer of its customer accounts to another 
broker dealer. Under the U.S. system of self-regulation, the 
primary oversight responsible for broker dealers resides with 
SRO's. To monitor broker dealer compliance efforts, the SEC has 
worked closely with the NASD, the NYSE and the SIA. Data 
obtained by the NASD and NYSE show that broker dealers have 
made significant but uneven progress. Current data suggests 
that slower progress has been made by some smaller firms. Going 
forward, the SEC and NASD staff will closely monitor the firms 
that appear to be lagging behind in their Y2K compliance 
efforts.
    The commission staff is also engaged in ongoing efforts to 
evaluate the Y2K readiness of investment advisers and mutual 
funds. These efforts include on-site Y2K examinations and 
coordination with industry groups, such as the Investment 
Company Institute. Similarly, commission staff has examined 
non-bank transfer agents for Y2K compliance. The commission 
believes investment advisers, investment companies, and 
transfer agents have made progress toward its Y2K goals, but 
significant work remains to be done.
    The adequacy of Y2K disclosure by public companies is 
another area of concern for the commission. Our regulatory 
framework requires public companies to disclose material 
information about themselves to the public. It is only through 
disclosure that investors are able to make informed investment 
decisions. Last year the commission staff issued a legal 
bulletin to remind public companies that the disclosure 
requirements under the Federal securities laws applies to the 
Y2K issue, and in January, the staff updated that bulletin to 
provide even more guidance. In addition, the commission has 
said that it intends to publish an interpretive release that 
sets forth its views regarding the application of SEC 
disclosure requirements to the Year 2000 issues. Chairman 
Levitt also plans to mail a letter to the chief executive 
officer of public companies reminding them of Y2K issues and of 
their disclosure obligations.
    The globalization of the securities industry underlies 
perhaps the most difficult Year 2000 challenge. International 
efforts are a significant area of concern for the SEC. The work 
that remains to be done in South America, Africa, Asia, the 
eastern block countries, and certain European countries is 
enormous. Nevertheless, the SEC is doing what it can. Our 
primary means of encouraging other countries and foreign 
regulators to deal with the Year 2000 problem is through the 
SEC's membership in the International Organization of 
Securities Commissions or IOSCO.
    Other international groups are also working on resolving 
the Y2K problem, including the BASLE Committee on Banking 
Supervision. In addition, internationally there is a forum, the 
Joint Year 2000 Council of which my co-panelist Ernest Patrikis 
is Chairman. The Joint Council has undertaken to serve as an 
information clearinghouse on Year 2000 issues, and to serve as 
a locus for international coordination of Year 2000 testing 
programs and contingency efforts. In addition, a number of 
banks and investment firms have formed The Global Year 2000 
Coordinating Group.
    Despite the efforts underway by global organizations, 
international Y2K efforts remain an area of significant 
concern. Risks from Y2K non-compliance abroad must be a major 
focus of contingency planning for U.S. firms.
    In closing, the commission, the SRO's, the industry 
organizations, and other market participants are devoting 
extraordinary time and resources to assessing and repairing our 
computer systems so they're prepared for the century date 
change. We are optimistic that if we continue emphasis on 
achieving domestic Y2K compliance and where we can help, 
international compliance, the securities markets will be 
prepared for the Year 2000.
    [The prepared statement of Mr. Lindsey can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. Mr. Patrikis, I 
would appreciate if you would comment on the impact of the euro 
on this issue. As a layman and a businessman, it's my 
understanding that the decisions are made separately by 
different bodies. Nonetheless, the decision to implement the 
euro in 1999 coming on the heels of the challenge of the Y2K 
problem in 1999 in the Year 2000 put an enormous, if not 
unbearable strain on the IT capacity of the various firms, 
particularly those involved in currency trading.
    If I were running a business and people had come to me and 
said, No. 1, we need to make a change as substantial as the 
euro change and No. 2, it's coming on the heels of pressure 
from outside the company, I would say let's postpone the euro 
change until the other one has been absorbed and when I made 
that suggestion, people above my pay grade, they said, oh, it's 
far too late, you can't possibly do that.
    Senator Moynihan. Mr. Chairman, may I ask a question?
    Chairman Bennett. Sure.
    Senator Moynihan. Who could possibly be above the pay grade 
of a U.S. Senator?
    Chairman Bennett. Well, in the international arena I'm sure 
there are some.
    I still have a great sense of foreboding that the 
preoccupation with getting everybody's computer changed to 
being able to do currency trading in euro futures, I understand 
the euro itself will not start circulating in 1999, but trading 
in euro futures in some cases has already begun, and certainly 
will be formally under way in January of 1999.
    Is this in fact a contributory problem, or as someone 
suggested to me, is it a serendipitous event, where people, as 
long as they're working on the computer, changing it to deal 
with the euro will while they're there deal with the Year 2000 
problem? What concerns should we have by virtue of the 
convergence of these two events?
    Mr. Patrikis. Let me see if it's possible to agree with 
everything you've said.
    Chairman Bennett. You're beginning to sound like you're 
running for the Senate yourself.
    Mr. Patrikis. Yes, I think there is some concern that there 
aren't enough people with the technical skills to do all the 
Year 2000 work period, today, even if there were no other 
changes, so I think what we're going to see in the United 
States, I know we're going to see it for Fedwire--we're making 
no major changes in 1999. I'm hoping that supervisors and 
regulators don't make rule changes in 1999, that we don't 
change reports that have to be submitted electronically. We 
want to take the burden off people to make changes in 1999.
    As to the euro, it's not just a European problem. Our 
investment banks, of which all the major players are in Europe, 
are also going through the process of changing for the euro. 
It's not that hard a change compared to the Year 2000 change, 
but a lot of systems have to change. There is a question of 
whether firms are able at the same time they're making changes 
in their systems for the euro to be able to make changes for 
the Year 2000. Some of that can be done, but overall the 
concern is that yes, many European firms would be better off if 
they didn't have the euro coming and they would be able to 
devote more resources to Year 2000.
    But we'll also have January 4, 1999 as a mini experiment to 
help us look forward to January 3, Year 2000 in terms of what 
problems will surface. How is the market able to cope with 
those problems, how well is the contingency plan being done for 
the euro if things don't work out right? So even if there's 
something a little negative there, we should be able to turn 
that into a positive.
    But I think overall the constraints of having enough 
qualified people is a worldwide problem. Speaking of Mr. 
Guzman, who is the Superintendent of Supervisory Institutions 
in Chile, his concern in Chile is do we have enough people with 
the skills to be able to make the changes. Are the firms in 
those countries competing for staff members? To be a youngster 
with the skills for systems to make these changes is to really 
write your own ticket, so that's the major problem, only 
exacerbated a bit by the euro.
    Chairman Bennett. I'm going to ask you an unfair question, 
but we get asked unfair questions all the time.
    My sense of things is that there are only five countries 
with a really high level of awareness and effort going on with 
respect to the Year 2000. I list them in no particular order. 
United States, Canada, United Kingdom--now with the involvement 
of Tony Blair--Australia, and the Netherlands.
    Here's the unfair question: Would you put Japan into a 
ranking somewhere? This is the key economy in Asia, this is the 
economy that's now in difficulty in Asia and we're all worried 
about the Asia flu generally, but if Japan catches the Asian 
flu, we are in real difficulty. If Japan has a major Y2K 
problem, the earlier witness said they're in denial on Y2K, I'd 
like you to comment on Japan.
    Mr. Patrikis. I can't answer the question in terms of 
giving you a precise statement as to the status of 
preparations. We do have a member of the Ministry of Finance on 
our Council. He's assured us that Japan is working on it, that 
the various official organizations are working on it. The 
Global 2000 Coordinating Group recently held a meeting in Hong 
Kong, with many there from Japan. I think I got, at least from 
the telephone conversation I had with people who attended that 
meeting, the view that they are working on it, perhaps not the 
same way we are. There's a question of whether their approach 
to resolving the problem is different than ours. The one thing 
I would totally discard is the thought that well, since we use 
a year system that's based by the year the Emperor has been in 
power, that we don't have the same problem as everyone else, 
that this is the X year of the Chrysanthemum dynasty. That's 
hogwash. They have the same problem we do. But the sense of the 
matter is they are working on it, but I couldn't say they're at 
a level that we are, but I can't say that anyone is at the 
level that we are.
    Chairman Bennett. Do you have any country you might 
nominate for the list I've just given you?
    Mr. Patrikis. Well, you know, just throwing something out 
offhand, one member of our Council is from Saudi Arabia. He's 
well aware of the problem, and what needs to be done. I said we 
were going to have web pages for each country, those web pages 
are going to have utilities, telecommunications. He said, well, 
what about desalinization? So I think there are some countries 
out there that have done an awful lot of work.
    As I said in my statement, we're not able to ferret that 
out now, but as we get people to submit information on our web 
page, people will go to www.bis.org and hit the Joint Council 
button. If there's no information on, say, an electric utility 
in that country, you can assume there's a problem. If they're 
not saying how they're doing the testing and the testing has 
been completed, that's how we thought we would ferret it out, 
make it available to everyone, put on some pressure.
    We did it on the payments and settlement systems by having 
each system put out on the page that we have at BIS how they're 
doing on their testing schedule. That really would show how 
well they're doing and if a major system were not on the page, 
then we would encourage people to go to the system and say 
you're not up on the page, you must be behind and put pressure 
on them.
    Chairman Bennett. One last question, then I'll turn to 
Senator Moynihan. One of the things I'm trying to do in this 
committee is to look horizontally, because virtually everybody 
with respect to Y2K stovepipes his or her own organization or 
country or industry. I would be concerned about the 
telecommunications systems in some of the countries you're 
looking at, and the dependence that your broker dealer would 
have or your clearing house or your regulatory body might have, 
if the phone system goes down, you could have all of the 
computers just on, and the markets still fail to function. In 
your attempt to get a handle on how stable the international 
financial community is, do any of these organizations that you 
have listed here, and it's a very impressive list, pay 
attention to whether or not the power grid is going to fail or 
the telecommunications. If you can't get a dial tone in 
Singapore, for example, has anyone with respect to Y2K 
challenges that you're aware of looked at those issues?
    Mr. Patrikis. Well, first is SWIFT, which is a 
communications system owned by commercial banks of the world 
and SWIFT has linkages to all countries. Therefore, it's 
dependent on the telecommunications of those countries. SWIFT 
will be one source of information on how well firms are doing.
    One of the problems has been--I'm an attorney--attorneys 
advising clients about not disclosing too much, so that people 
will not be able to come back and say, oh, you lied on your 
statements. Even here in the United States early on there were 
problems with the telecommunications carriers. They've become 
far more forthright on the status of their remediation efforts 
and testing, and we're seeing that now, but SWIFT will also 
provide this information. Also the International 
Telecommunications Union is a member of our Joint Council, and 
the representative who attended the meeting said that it was 
going to come out with a listing of how well its members are 
doing around the world in terms of their efforts on remediation 
and testing. So I think, yes, that that is the case and we all 
know. Electric utilities, again on our web pages, we would list 
telecommunications, electric utilities, because they are so 
important. That's the lifeline of the banking system.
    Chairman Bennett. Senator Moynihan.
    Senator Moynihan. Thank you, Mr. Chairman. Just a comment 
on your euro question. Tomorrow the Senate will take up the 
conference report on the Internal Revenue Service Reform bill 
and we'll be having about 4 hours of talks. The Finance 
Committee has been holding these hearings, and we came up with 
half dozen more things that we wanted to change in the IRS, and 
Mr. Rossoti, the new Commissioner, wrote us a seven-page letter 
saying, please, I'm happy to do any of those things, but I 
can't do them until after the Year 2000 is taken care of. I've 
got to do that first, and we sort of, we split the difference, 
but we did recognize the problem. I think the euro question is 
a real one, and I'm sure that Mr. Patrikis would not mind if we 
suggested that you go back and talk with your colleagues. I 
think there are some Europeans who would be happy to put it 
off.
    I'm impressed by the amount of organization you have, but 
I--you know, time is running so fast. The Securities and 
Exchange Commission sent letters saying if you mess up on this, 
we'll just take your license away, is that basically what you 
did?
    Mr. Lindsey. That's basically correct.
    Senator Moynihan. You can tell them, ``You're no longer a 
broker.'' How do you feel about the response you're getting?
    Mr. Lindsey. Well, I think the securities industry is 
working very hard on it. We've also just last week adopted a 
rule that we proposed earlier that requires reporting by broker 
dealers.
    Senator Moynihan. Requires reporting. Yes. I think the 
chairman has been interested in this. What do you require?
    Mr. Lindsey. It's a requirement for a management report 
that both outlines what the progress is in terms of Year 2000 
remediation, where they stand in terms of budgeting, where they 
stand in terms of remediating----
    Senator Moynihan. Is that to forearm, in effect?
    Mr. Lindsey. There are two facets. It depends on which size 
you are. If you have $100,000 in net capital, which is the way 
we look at firms, there's a two part form. For smaller firms, 
there's one form, where you go through and mark boxes that 
indicate where you are in different stages of progress, so this 
will be computerized.
    As I already said, there are a large number of entities 
that are involved in this. The second form requires a 
management discussion in terms of where they stand in their 
remediation, what they're doing.
    Senator Moynihan. So you're trying to get the awareness and 
one of the ways to get their attention on this is say, you 
know, we're the ones who keep you in business, we can put you 
out.
    I have to say, Mr. Chairman, that the Chairman Levitt has 
really been about the most proactive of our national officials 
in this matter. He's been writing letters from 1996, was that 
the first time?
    Mr. Lindsey. The first letter went out in 1997.
    Chairman Bennett. 1997. Well, that's a lot, that's ahead of 
just about everybody else. You should be pretty proud of 
yourselves. I hope you are, I hope it works out.
    Mr. Lindsey. We're still trying to make sure we're ready.
    Senator Moynihan. Can I just ask one last question? When do 
you have the point of no return? That's not quite the right 
image. When is it too late? If you haven't done it by then it's 
too late, you'll never get it done.
    Mr. Lindsey. Well, I think it depends on the type of broker 
dealer or type of entity you are. So we care primarily about 
are what are known as the clearing broker dealers. There are a 
little over 300 clearing broker dealers. Those are the ones 
that stand to clear and settle every transaction.
    Senator Moynihan. The ones down here.
    Mr. Lindsey. Many of the larger firms that you would know 
of are clearing broker dealers. Most of them are well along the 
remediation phase. What we would get from a report that we 
would have both this year and in April of next year is a better 
sense, a more precise sense of where they stand. If we are 
looking at a clearing broker dealer that would not be ready 
going into fourth quarter of 1999, then we would start to make 
preparations for the relocation of accounts. But I would not 
expect any broker dealer to be there.
    Senator Moynihan. I've been looking at these very nice 
tables that you have been showing us, the 100 percent complete 
and then zero, and there are not many people who have got this 
all done yet.
    Mr. Lindsey. That's correct.
    Senator Moynihan. And you think by the last quarter of 
1999.
    Mr. Lindsey. 1999. If you look at most of these entities, 
most of these entities are targeted to be completed towards the 
last quarter of 1998.
    Senator Moynihan. I said 1999. You said 1998.
    Mr. Lindsey. I said if they were not ready going into the 
last quarter of 1999, then we would start to look to relocate 
customer accounts.
    Senator Moynihan. So the last quarter of this year is when 
this has to be done or in your judgment those people that are 
not compliant shouldn't be----
    Mr. Lindsey. No, that's not what I'm saying.
    Senator Moynihan. Don't let me tell you what you're saying.
    Mr. Lindsey. What I'm saying is last quarter of 1998 is 
when those entities are targeted to be done. There will be 
testing going on through 1999. We fully expect, one of the 
basic reasons for the test is to find out where things go wrong 
and people will have to go back and do some additional 
remediation and testing.
    Senator Moynihan. But they'll have time and space to do it?
    Mr. Lindsey. That's correct. If we start to move into the 
last quarter of 1999 and if there are firms that are not ready, 
we will have been making plans to start to move those accounts 
outside.
    Senator Moynihan. One last question, if I can. Just help 
me. To move those accounts, tell a layman what you mean by 
that?
    Mr. Lindsey. We find a broker dealer that is Year 2000 
ready, that has the ability to handle the accounts, and we have 
the customer funds transferred to those firms.
    Senator Moynihan. Thank you. Very impressive.
    Chairman Bennett. Thank you. I agree with Senator 
Moynihan's comment about Chairman Levitt, but I'm afraid I am 
going to prod you a little in another area.
    I introduced legislation that would require any publicly 
held firm to disclose where it was with respect to Y2K, are you 
familiar with that? You made reference to it in your testimony. 
Chairman Levitt came to me early this year and asked me not to 
push my legislation, he said, frankly, it would take too long 
and he makes a very valid point. By the time legislation goes 
through the Congress and the appropriate commenting periods and 
so on, we would run out of time. He said we can take care of 
the regulation. You've referred to the efforts the SEC has 
made.
    We held a hearing in the subcommittee of the Banking 
Committee and found that the response to those efforts has been 
abysmal. We were then told that the SEC, as you referred to 
again in your testimony, was going to give an interpretive 
release that would raise the temperature a little and cause 
some more responsible reaction on the part of publicly owned 
companies. My question is where are we on that timetable? That 
was 5 weeks ago that we held those hearings and those promises 
were made. You've repeated the promises here today. Can you get 
a little more specific rather than assume?
    Mr. Lindsey. My understanding--well, I can never commit to 
a particular date from the commission, but my understanding was 
that Commissioner Unger testified that we could do it in 
approximately 2 months. I believe that that timeframe is still 
accurate.
    Chairman Bennett. What about Chairman Levitt's letter to 
the CEO's? That doesn't take 2 months to put together.
    Mr. Lindsey. No, I think they're drafting that letter 
today.
    Chairman Bennett. OK. What about multinational companies 
whose stocks are held by American pensioners? I focused on that 
legislation, too. People who put their money into a teachers 
pension union, think it's all going to be in AT&T and DuPont or 
General Motors, don't think in terms of the international 
impact on these multinational companies that still have the 
stereotype of a blue chip stock to retire in America. What kind 
of reporting will be required? We've talked about that, I'm 
giving you an opportunity to just further----
    Mr. Lindsey. I think there are probably three possibilities 
that we're talking about here. One is the U.S. company that 
does multinational business, and of course they would have the 
same reporting requirement as any other U.S. company, regarding 
their Y2K issues.
    Chairman Bennett. I'm thinking more in terms of holding 
foreign stocks, traded in foreign exchanges.
    Mr. Lindsey. The second category, which again is not what 
you're talking about, is the fact that there can be foreign 
companies that are trading in the United States. If those are 
registered companies, they would again have the same types of 
reporting requirements that U.S. companies do, so those 
requirements apply to anything that's registered, regardless of 
where it's domiciled.
    The third has to do with investments in foreign companies 
by either pension plans, mutual funds, et cetera. The mutual 
fund advisers of course have responsibility for being aware of 
investments and making disclosures associated with that in the 
prospectuses that the mutual funds put out.
    Chairman Bennett. Let me come back to one last question, 
then we will move on and thank the panel.
    I focused on Japan. Let me ask another country-specific 
question, Mr. Patrikis. Russia has serious problems. One of the 
senior nuclear scientists in the former Soviet Union said we 
will solve the Year 2000 problem by waiting until 2000 and then 
when the hits come, we will know where the remediation will be 
required. Is there any other country on your scope that has 
that kind of a view where there's a substantial American 
investment? I hope we can talk the Russians out of that 
particular notion, but is there any country that particularly 
concerns you, instead of playing guess what the teacher wants, 
and have me prompt you in one country or another, I give you 
carte blanche. Is there a country where there are American 
investments where you have a primary concern?
    Mr. Patrikis. Well, I was troubled by that quote when I 
read it, too, in the papers. All I would say is just imagine 
being a commercial banker or investment banker in Southeast 
Asia going through the financial crisis today. Regarding Year 
2000, you have top priority in view of the depreciation of the 
currency, do you have enough money to do what you need to do, 
to first even see what you need to do? I think the 
organizations, the IMF and the World Bank have a great role to 
play here. The Bank for International Settlements is also 
playing that role.
    The World Bank is developing a tool kit that can be used by 
organizations, both the supervisors and the official side, so 
firms will be able to come along. I would say in that part of 
the world they probably need all the help they can get and the 
financial assistance they can get from the international 
organizations to move it along. I mean, they're just worried 
day-to-day, how can we keep it together, keep our markets 
moving efficiently, so if there would be more help from that 
front coming from those organizations. And they are actively 
involved. I was impressed with the program the World Bank is 
developing. I think we'll find that very helpful.
    Chairman Bennett. Thank you very much.
    Senator Moynihan. Could I say something? I was impressed to 
learn that the British have given 10 million pounds to the 
World Bank. We haven't done anything like that.
    Mr. Patrikis. Correct.
    Senator Moynihan. We have not.
    Mr. Patrikis. No.
    Chairman Bennett. Well, thank you very much. We appreciate 
your presentation.
    Chairman Bennett. The next panel, William A. Bautz, senior 
vice president and the chief technology officer of the New York 
Stock Exchange and Peter Miller, chief information officer at 
J.P. Morgan. Gentlemen, we're grateful to have you here. Mr. 
Bautz, we'll start with you.

STATEMENT OF WILLIAM A. BAUTZ, SENIOR VICE PRESIDENT AND CHIEF 
          TECHNOLOGY OFFICER, NEW YORK STOCK EXCHANGE

    Mr. Bautz. Thank you, Senator. Senator Bennett, Senator 
Moynihan, and members of the committee, I'm honored to be here 
with you to discuss the impact of the Year 2000 problems. We 
view the dimensions of this problem as huge with potentially 
disastrous global consequences to both business and government 
if it's not fixed. As the world's foremost securities market 
the NYSE is taking a leading role in promoting awareness of the 
Year 2000 computer problems among our 3,700 listed companies, 
which includes 350 non-U.S. companies, the securities industry, 
and the other capital markets throughout the world. We've 
worked hard to assure that our own systems will be Y2K 
compliant far in advance of the turn of the century. However, 
as important as our market is, and it is only one 
interconnected component of a global market, you pointed that 
out, Senator, much remains to be done to insure that all of the 
international capital markets are prepared to move smoothly 
into the next millennium. Our goal is to insure the first 
business day of the Year 2000, Monday, January 3, will be just 
another trading day around the world.
    The NYSE would like to commend you, Mr. Chairman, for your 
leadership in calling this meeting and I would concur with the 
recent statements of Dr. Andy Grove that congressional 
oversight hearings helped play a critical role in the raising 
of the profile of this problem and give heightened urgency to 
remediation efforts.
    The potential impact of the problem on domestic and 
international markets are profound. With the world economy so 
dependent on computer technology, you cannot overestimate of 
the impact of the systems ceasing to operate on January 1, 
2000. The Securities Industry Association refers to solving the 
Year 2000 problem as the biggest business technology effort the 
world has ever experienced. Because of the interdependency of 
the world international markets, there is no concept of merely 
an isolated problem if a major market, financial setup or 
market participant is not prepared for the new century. Just as 
we cannot overestimate the ramifications of the Y2K problem, we 
can also not overestimate the costs of remediating the problem.
    Estimates have ranged from $500 to over $1,000 per affected 
computer program. Such a conversion process would cost a medium 
sized company over $4 million. Some estimates place the cost of 
the Y2K compliance in the United States at over $200 billion 
and worldwide as high as $600 billion. Such estimates are 
constantly being revised upwards.
    At NYSE we're addressing the Year 2000 issues on multiple 
levels, beginning with the direct impact on the NYSE itself, 
and extending to international capital markets, then 
coordinating efforts with our member firms, over whom we have 
oversight responsibility and our listed companies, which 
include a dominant share of the world's major corporations.
    After discussing our activities on each level, I will 
conclude by offering our perspective on the role of government 
in the Y2K issue.
    One: Over the last decade, the NYSE invested more than $1.5 
billion in new technology to provide for greater capacity and 
to install next generation hardware and software. As we 
implemented this new technology, we made many of the necessary 
Y2K changes. Most of the technology conversion is complete, 
tested and in operation. As to our other background systems, 
our non-trading related systems, we have a comprehensive plan 
to fix, repair or retire non-compliant systems. We're currently 
on schedule to have the NYSE mission critical systems in 
production by December 31, 1998.
    We estimate that our costs to achieve Year 2000 compliance 
will be approximately $20 million, and I might add that our 
systems are not necessarily very date dependent, so our problem 
is a lot easier than a lot of other people's, and we're still 
spending over $20 million to fix it. In large part our $1.5 
billion investment in new technology over the last decade 
provided us with the ability to address this problem at an 
early date and reduce our costs.
    Installing Y2K compliant systems is only one step in the 
process. Proper testing is equally important. We constantly 
test our new systems and we test the hardware and software that 
our vendors provide to us. Our testing program includes 
connectivity tests with our member firms. For example, Merrill 
Lynch or Bear Stearns, end to end tests with our industry 
partners, NSCC and the Depository Trust Co. and participation 
in industry-wide data testing sponsored by the Securities 
Industry Association, which starts next Monday. Beginning in 
March 1999, industry-wide testing will occur on weekends with 
all of our member firms, all the U.S. markets, and all the 
securities industry utilities.
    With regard to Y2K compliance among the world's capital 
markets, we're addressing this issue on a variety of fronts. In 
October 1997 we issued a memo detailing the Y2K issues to a 
subcommittee of the International Federation of Stock Exchanges 
and also submitted a copy of a proposed survey to help the 
Association collect relevant information from its members.
    Acting in close collaboration with both the SEC and SIA, we 
raised Y2K issues with the International Organization of 
Security Commissions, IOSCO, where NYSE Group Executive Vice 
President Ed Kwalwasser serves as chair of the Year 2000 
Subcommittee. Following presentations in Taipai in November 
1997, a member survey was distributed to representatives in 
Europe, Asia, South America, and Canada.
    More than 300 of the nation's broker dealers are NYSE 
member firms for whom we have primary oversight authority. 
These broker dealers carry and clear transactions for 
approximately 91 percent of all customer accounts obtained by 
U.S. broker dealers. We have woven Year 2000 compliance into 
our surveillance and financial and operational examination 
programs. In May 1997, we advised our member firms that they 
should designate a senior official to have primary 
responsibility to oversee the firm's Year 2000 project, that 
they should complete remediation efforts by December 1998, in 
order to be prepared for industry-wide testing scheduled in 
1999.
    Senator Moynihan. Did you say December 1998?
    Mr. Bautz. Yes, 1998, and be prepared for testing in 1999. 
Last December we conducted two Year 2000 surveys with our 
member firms, vendors, correspondant brokers, and other firms 
within the NYSE. With few exceptions, we were generally pleased 
with the results of the survey. We now conduct quarterly 
discussions with our members firms to monitor their progress. 
Once a firm is Year 2000 compliant, the NYSE will request a 
written confirmation of that compliance from the firm's chief 
executive officer.
    With regard to our listed companies, last year we brought 
together the CEO's of a number of our listed Companies to meet 
with the SEC to discuss the issue of correcting the Year 2000 
problem and related disclosure obligations. We worked closely 
with the SEC Division of Corporation Finance to make sure our 
listed companies receive and understand guidance.
    We are preparing disclosure material on the Year 2000 
problem to focus on steps to address that problem. Analysts, 
shareholders, customers, and competitors will review these 
disclosures, and the marketplace will help to determine whether 
a company is adequately addressing this crucial area. Failure 
to take the necessary steps will not only result in a potential 
catastrophic consequences when the calendar turns at the end of 
December 1999, but it will also adversely affect the company's 
stock price and its customer base if the market judges that the 
company is not devoting the necessary time and resources to 
this project.
    As hard as we worked on this issue, we recognize the 
private sector alone cannot address it. The SEC played a 
critical role both with respect to disclosure by public 
companies and through its oversight of securities industry 
participants. Additionally, we applaud the leadership of the 
Senate in creating a special Subcommittee to specifically 
address the Y2K challenge, as well as other Senate and House 
Members who have brought attention to this important issue. We 
also commend the President for creating the Year 2000 Task 
Force to oversee the Federal Government's Year 2000 conversion 
progress. The creation of this task force and the requirement 
that glossary cabinet members respond to the President's 
inquiries will help insure that the Federal Government will be 
able to cross the bridge into the next century.
    Thank you again for the opportunity to present this 
testimony. I'll be happy to answer any questions. Thank you.
    [The prepared statement of Mr. Bautz can be found in the 
appendix.]
    Chairman Bennett. Thank you. Mr. Miller.

 STATEMENT OF PETER A. MILLER, CHIEF INFORMATION OFFICER, J.P. 
                             MORGAN

    Mr. Miller. Good morning, Mr. Chairman, members of the 
committee. Thank you for the opportunity to address this 
important issue. My name is Peter Miller, I'm the chief 
information officer of J.P. Morgan and have been involved with 
the Year 2000 problem since 1995. My remarks today will focus 
on the nature of the Year 2000 problem, a risk management 
approach to solving it, and the need for industry to industry 
collaboration, as well as international cooperation.
    Let me begin by saying that the Year 2000 problem, or the 
millennium bug as it is sometimes referred to, is an issue that 
we at J.P. Morgan consider of paramount importance to our firm, 
the financial service industry, and the United States and world 
economies. No other event in history will so thoroughly expose 
the vulnerability of our living and working in a world so 
interconnected by computers and telecommunications.
    The problem as we see it is not really a technological one, 
although technology lies at the root of both the problem and 
solution. Correcting the two digit dating systems, which in 
their present form cannot tell one century from the next, is 
easy. Rewriting code as a technological matter is relatively 
straightforward. The real problem and the real danger can be 
summed up in two words; logistics and dependency.
    The logistical problem is that millions of computers are 
involved, a huge undertaking in and of itself. Making the task 
even more daunting are the intricate, complex, and pervasive 
interdependencies among the computers and computer networks 
that populate the world today. It is not enough that every 
computer, software application, and embedded chip affected by 
the Year 2000 problem be fixed. They must be fixed in a way so 
they remain compatible with all the other devices with which 
they interoperate. The financial industry offers a perfect 
illustration of the enormous size, scope, and complexity of the 
problem.
    Finance today is a global business, where almost 
unimaginable sums of money are in a constant state of 
electronic flux, and interdependency is particularly acute, 
given the networked nature of market participants. We have 
already seen harbingers of what might be in store. The New York 
Mercantile Exchange and Brussels Stock Exchange have both 
experienced date-related operating failures. Although these 
problems were relatively small in scope, the scale of the issue 
becomes magnified when you consider all the world's financial 
institutions will find themselves tested on the same day. At 
the extreme, the price of failure could be systemic breakdown.
    Yet it is not enough for the world's banks, stock 
exchanges, and clearing houses to have their respective houses 
in order. It won't do them any good if their transaction 
processing systems are ready, but they cannot relay information 
to clients, creditors, regulators, and payment and settlement 
systems because of breakdowns in telecommunications networks. 
And imagine if all the banks and telecommunications companies 
are set to perform on January 3, 2000 but their employees can't 
get to their desks because the elevators don't work. Simply 
put, our networked world is only as good as its weakest 
connection.
    Typically, the barriers to Year 2000 compliance come down 
to four things: Time. This is a problem with an immovable 
deadline. Money. For some, compliance may not be economically 
possible. Skills. Even if you do have the money, you still need 
to find people who can fix the problem. And competing 
priorities. If focus is on other issues, the likelihood 
increases that the Year 2000 problem simply won't get fixed.
    So how does one combat such an enormous and insidious 
problem? At J.P. Morgan we have applied a comprehensive risk 
management approach, and in our measured opinion things will go 
wrong. Statistical probability tells us that the logistics and 
dependencies involved almost certainly dictate some level of 
failure. So the question is not if things will go wrong, but 
how many things will go wrong. Therefore, we believe the best 
course of action and probably the only one, given time, cost, 
and skill constraints, is to identify the most critical 
situations, fix them first and then move down the chain of 
priorities.
    Firms that will do the best will be ones that put their own 
house in order, coordinate their activities with their trading 
partners, and prepare contingency plans in the event that 
unexpected failures occur.
    At J.P. Morgan we began discussing the Year 2000 problem at 
senior executive levels in 1995. Early the following year with 
the full commitment of Sandy Warner, our chairman and CEO, we 
launched a firmwide initiative. The commitment of senior 
management was crucial, for without it we would never have been 
able to muster all the resources necessary to attack the 
problem. With 600 people working on the initiative at its peak, 
we have estimated that the total cost of making the firm Year 
2000 compliant is $250 million.
    Paula Larkin, a senior manager at Morgan, is charged with 
overseeing and coordinating all of the firm's Year 2000 
efforts. To date, these efforts have included raising awareness 
throughout the firm, conducting a comprehensive analysis of the 
problem and its many impacts, putting in place a complete end 
to end methodology and certification process and applying the 
lessons learned broadly across the firm so as to reduce costs 
and risks while accelerating progress. By year's end we expect 
to have all of our critical applications and products tested 
and certified as Year 2000 compliant.
    The importance of testing cannot be overstated. Our 
remediation efforts have shown the problem to be pervasive and 
not always obvious. For example, our testing of one product, 
which the manufacturer said was Year 2000 compliant, found that 
while the product could handle the changeover on January 1, it 
had not been programmed for the fact that 2000 is also a leap 
year. The lesson here is that nothing can be taken on face 
value.
    With our internal testing and renovation well under way, 
much of our effort is currently focused on addressing external 
dependencies, both inside and outside the financial services 
industry. This has involved identifying and assessing Year 2000 
exposures as posed by clients, counterparties, exchanges, 
depositories, clearing houses, and correspondent banks as well 
as by power, telecommunications, and other utilities.
    Key to this effort has been the coordination and 
collaboration with others in the industry, namely competitors, 
exchanges, the Federal Reserve, and trade associations. For 
example, Morgan has been working with the Securities Industry 
Association, the New York Clearing House, and others for the 
past 2 years on this issue. Through various committees, the SIA 
has been promoting awareness, developing testing guidelines and 
coordinating industry-wide testing efforts. J.P. Morgan and 28 
other securities firms are currently engaged in piloting the 
tests that will be used early next year.
    The work of SIA and other organizations like it have helped 
place the U.S. financial services industry into a leadership 
position in terms of Year 2000 readiness. The U.S. financial 
services industry is ahead of its peers abroad and also appears 
to be head of all other industries. To the best of my 
knowledge, financial services is the only industry conducting 
integrated testing to identify readiness and identify issues 
ahead of time.
    But for financial services companies, the need for 
vigilance must extend beyond their own industry. The ripple 
effect from a large disruption in another industry, such as 
telecommunications, transportation, or power, can have severe 
consequences for the financial sector. As a result, J.P. 
Morgan, on its own and in conjunction with other industries, is 
trying to understand the risks faced by service providers and 
the programs they have in place to mitigate these risks.
    To mitigate the risks, the free flow of timely and accurate 
information is essential. Traditional barriers must be broken 
down for sharing of best practices. The Government can play a 
key role here through influencing legislation to promote 
cooperation and information sharing across industries. This 
cooperation collaboration also needs to extend beyond the 
borders of the United States.
    For Morgan, with operations in more than 30 countries, the 
need for global attention to the Year 2000 problem is clear. 
The ultimate goal is to demonstrate industry readiness through 
integrated testing with all major participants in all major 
market locations. Progress is being made but much more work 
remains to be done.
    Dependencies with potential cross border implications are 
of particular concern in the international arena. Disruption in 
a key market could prevent the settlement of trades or movement 
of cash and securities, which in turn could affect credit and 
liquidity. Were a major international investment bank to find 
itself in a position where it could not receive or deliver cash 
or securities, the consequences could have a ripple effect on 
the world economy.
    Our assessment of global readiness places the United States 
ahead of all other countries. Preparedness in Europe varies 
country by country. Thanks in a large part to the work of the 
British Bankers Association, the United Kingdom ranks in the 
top spot. Trade associations are active across the entire 
continent, but the entire Year 2000 effort had been hurt by the 
time, energy, and attention being devoted to the European 
Monetary Union.
    Asia ranks behind Europe. Here the biggest threat is posed 
by the downturn in the regional economy. Strong progress, 
however, has been made in Japan over the last 6 months due in 
large measure to the efforts of the Japan Securities Dealers 
Association working with the Ministry of Finance.
    Action has generally been lagging in Latin America. 
However, variations exist within the region. Mexico is proving 
to be a leader. Currently the SIA is making use of work done in 
the United States to provide best practices in other locations.
    On a global front, a recent positive development has been 
the birth of the Global Year 2000 Coordinating Group. This 
group raises awareness, identifies resources, and coordinates 
initiatives on an international basis.
    To close, I would like to reiterate a couple of key 
messages. The problem is serious. Things will go wrong. And the 
companies, industries, governments, countries, and regions that 
will be most successful in addressing the problem will be the 
ones that: Get a firm handle on internal issues that are 
particular to them; address the critical external dependencies 
that affect them; work collaboratively with others to share 
information and maximize resources; and put in place 
contingency plans that guard as much as possible against 
unforeseen events.
    Addressing this problem will take hard work and for the 
most part, it's a thankless task. Success will be defined not 
by some great discovery but by minimal disruption. The 
financial services industry has made considerable progress to 
date and is well positioned. However, the test in all this lies 
in the strength of the weakest link, wherever it may be.
    I thank the committee for the opportunity to share my 
thoughts and look forward to working with it and others to 
bring this issue to the most uneventful conclusion possible.
    [The prepared statement of Mr. Miller can be found in the 
appendix.]
    Chairman Bennett. Thank you. I appreciate the comments of 
both of you. First, a housekeeping item. I remind all witnesses 
to please make sure the committee has electronic copies of 
their testimony and be aware they may be asked additional 
questions in writing by other members of the committee who 
couldn't be here at this hearing.
    Now, you made a reference, Mr. Miller, to external 
dependencies, and one of your major external dependencies, of 
course, is the U.S. Government. That is what Mr. Koskinen's 
task force is working on, the committee heard from him, I have 
a weekly conversation with him, either face to face or by 
telephone every week to see if we're coordinating what we're 
doing with what the executive management is doing now.
    Have you made any effort or are you aware if anyone has 
made an effort to put a critical path risk assessment model in 
place with respect to not only our Government, but with any 
other Government in the world? Have you looked at how that 
external dependency could hurt you in another country?
    Mr. Miller. Of that I'm not exactly sure. I understand the 
global coordinating group is going through a very thorough 
evaluation of contingency implications. Of that I think an 
important factor is to look at the likelihood of the impact of 
potential problems and to be able to avert those in the best 
way possible.
    Chairman Bennett. Did you have a comment on that, Mr. 
Bautz? You are a little more locally focused as the New York 
Stock Exchange, but----
    Mr. Bautz. I guess our primary interface on the 
international level is to look to groups like the FIBV, IOSCO 
and our principal work there has been to raise awareness and 
make sure that we can provide whatever assistance we need to 
our sister exchanges. There's a steady stream of people coming 
to see what we've done, what the risk factors are, these 
things, so we've seen a reasonable number of people coming 
through to ask us what our experience has been.
    Chairman Bennett. I will ask you the same unfair question. 
Is there any stock exchange that makes you very nervous at the 
moment?
    Mr. Bautz. Difficult to answer that question, because we 
don't deal with them on a day-to-day basis, but the good news 
is we made a presentation at the FIBB meeting in Brussels a few 
weeks ago, the general sense there is that the awareness level 
has gone up there really dramatically from the last time we had 
this set of meetings. It's the principal focus of meetings that 
we were here, both the SIA and NYSE made presentations to the 
panel, so there was a lot, four other international exchanges 
spoke as well. So the awareness level is going up.
    The issue that I think we have to focus on is whether or 
not there's going to be enough time to complete all the things 
that need to be done. Some people are coming fairly late to the 
party. The effect of having a smaller stock exchange somewhere 
with a problem is not that great; France, Germany, and England, 
obviously, the stakes are a little higher. I think the people 
are well aware of what's going on, they're working to fix that.
    Chairman Bennett. It is late. I tell people somewhat 
facetiously, I know how to start the Y2K problem, start in 
1995. Senator Moynihan.
    Senator Moynihan. Sir, yes. Mr. Bautz, talking about the 
SIA statement that this is the biggest business technology 
effort that the world has ever experienced, and I can't avoid 
the sense that it's not 1995. Did I hear you say, Mr. Miller, 
that you want to be finished all your work by December of this 
year, so you can test it in the year that follows?
    Mr. Miller. We indeed want to be finished with all our 
critical applications by the end of this year, to be ready for 
testing.
    Senator Moynihan. Haven't we been hearing something like 
that from all of our witnesses, that you better be ready by the 
end, do what you have to do to have it done by the end of this 
year?
    Chairman Bennett. That's right, and if you don't, you 
better start making your contingency plans. One of the 
witnesses in one of our other hearings said if you're not ready 
by the end of this year, stop and put all your focus on 
contingency plans, because you're not going to get ready. 
That's a pretty Draconian kind of statement and I wouldn't 
presume to tell any CIO that's what he or she ought to do, but 
that's at least one comment.
    Senator Moynihan. I think we're getting a convergence here 
of judgments from people who hadn't heard that testimony. Would 
you agree, Mr. Bautz?
    Mr. Bautz. I think that you would be foolish not to get it 
done by the end of this year. The amount of things that can go 
wrong, the interdependencies on the other parties, you 
absolutely should do as much testing as you possibly can. The 
key to all of this is testing. The amount of effort that the 
SIA has put into constructing and orchestrating this particular 
industry test is unprecedented, I think, in the SIA's history, 
and we are businesses that worry about how well do the moving 
parts work well together. A tremendous amount of industry 
effort is going into this.
    Senator Moynihan. Can we all agree that it's now July?
    Mr. Bautz. Yes.
    Senator Moynihan. There's less than a half a year.
    Mr. Bautz. I think I can agree with that, yes.
    Senator Moynihan. It's less than half a year's time.
    Mr. Bautz. Yes. Well, we, as I said, next Monday, we will 
be starting with 15 firms to test end to end through the New 
York Stock Exchange, through the clearing corporation, through 
the settlement agencies, for a whole range of products in this 
country, so the major organizations are in place to do this 
testing end to end.
    Senator Moynihan. Well done, but Argentina, Indonesia? 
Trident submarines? Good God.
    Chairman Bennett. Well, I would just comment. I spoke 
earlier about being at nuclear plants. The first nuclear plant 
that I went to, the chief information officer laid out her time 
line for her company, and she had 15 percent of the total time 
for actual remediation, and 70 percent for testing. And I've 
checked and found that's about right among people who are 
informed on this, so someone who thinks he's going to have this 
solved by having new software packages delivered to him in 
October 1999, and he'll put them in and test them for a 1 or 2 
weeks, is courting disaster.
    Senator Moynihan. Thank you.
    Chairman Bennett. Thank you. Thank you both, appreciate it 
very much.
    Chairman Bennett. Now, panel No. 4, we have Tanya Styblo 
Beder, who is principal, Capital Market Advisers, Inc. and Dr. 
Howard Rubin, chair of the Department of Computer Sciences at 
Hunter College. We thank you both and you get to in the style 
of the New York Yankees, bat cleanup here.
    Ms. Beder, we'll hear from you first.

STATEMENT OF TANYA STYBLO BEDER, PRINCIPAL, CAPITAL MARKET RISK 
                         ADVISORS, INC.

    Ms. Beder. Chairman Bennett, Senator Moynihan, and members 
of the Special Committee. I am pleased to appear today to 
discuss the progress of financial firms, both foreign and 
domestic, in managing the Y2K problem as part of the Special 
Committee's consideration of this topic. My name is Tanya 
Styblo Beder and at present I am a senior partner and one of 
the original founders of Capital Market Risk Advisers, a firm 
specializing in independent risk assessment, valuation and risk 
oversight implementation for all types of financial operational 
and strategic risks. CMRA's clients include banks, broker 
dealers, insurance companies, pension funds, mutual funds, 
hedge funds, thrifts and credit unions, custodians, 
corporations, rating agencies, and financial software firms in 
the United States, Europe, Asia, Australia, New Zealand, 
Mexico, and Canada.
    CMRA's work is both reactive and proactive. For example, we 
assess and contain existing risk problems that cause firms to 
bleed money as well as evaluate and implement programs to 
manage both current and future exposures related to market 
risk, credit risk, operational risk, derivatives risk and model 
risks.
    My testimony today is based on my experience with financial 
institutions around the world since the late 1970's. My opening 
remarks will summarize my more detailed statement, I ask that 
my detailed statement be entered into the record.
    Chairman Bennett. Without objection.
    Ms. Beder. Y2K is the most crucial issue facing every 
financial institution in the United States and is one of the 
top two or three issues facing institutions in other countries 
around the world. With only 18 months to the turn of the 
century, I feel that financial institutions and the global 
systems that process their transactions around the world are 
far from compliant. Nonetheless, I do not join those who 
predict a huge global recession or prolonged mayhem in 
financial markets.
    This is not a small statement for me to make, for as 
recently as a year ago I was very much afraid that Y2K would 
bring dire consequences to the financial sector. My fledgling 
optimism for the financial firms in the United States is based 
on my observations of increasing momentum to implement 
contingency plans that lower risk during the critical period.
    Y2K is big, pervasive, and global. Spending to solve the 
technological aspects is expected to run as high as $600 
billion and the cost of business continuity issues, 
interruptions due to Y2K, is estimated as high as a trillion. 
The total spending necessary to deal with Y2K will exceed the 
amount the United States spent, adjusting for inflation, 
fighting the Viet Nam conflict, $500 billion, but with luck 
will not reach the amount spent during World War II, $4.2 
trillion.
    Analyzing Y2K is like peeling an endless onion. Each layer 
of issues leads to another layer, often involving greater 
degrees of interdependence between players in all three facets 
of the economy: Financial firms, nonfinancial firms, and public 
sector.
    While a great deal remains to be done, my recent review of 
dozens of key market players including banks, broker dealers, 
pension funds, mutual funds, custodians, and corporations in 
major capital markets around the world indicates an increase in 
the amount of resources devoted to Y2K technology issues as 
well as to business continuity issues.
    Battle plans of individual institutions have evolved along 
the three primary dimensions: Y2K exposures under the firm's 
control, Y2K exposures to others, and contingency plans for Y2K 
exposures outside the firm's control.
    In general, large and medium sized financial firms in the 
United States and Australia have analyzed and are on track to 
address Y2K problems under their control. Examples of such 
exposures include internal systems, such as PC's and 
mainframes, embedded system devices such as elevators and 
security systems, businesses processes such as settlement and 
clear activities or the issuance of pension or annuity checks 
and computer code.
    Large financial firms both in the United States and 
Australia also are reviewing in detail their exposures to 
counterparties in financial transactions, including loan and 
investment portfolios, and to their supply chain. Firms 
typically conduct the review of outside vendors by a survey or 
questionnaire. Typically only 25 percent of the surveys are 
returned with response information and fewer than 10 percent of 
those returned are accurate.
    This disappointing news from vendors has moved financial 
firms to consider implementing financial transactions designed 
to reduce exposures and particularly cash flows from the 
December 1999 through March 2000 period. Examples are 
contingency plans that envision completing year end portfolio 
trades by December 15, 1999, amending loans or entering 
derivatives with customers and counterparties to move cash 
flows out of the December to March period, and contingency 
planning for malfunctions in the wire transfer, settlement, 
credit card, ATM and other critical systems.
    Although preparations are well underway in the United 
States and Australia, the story is quite different in other 
countries. Regulators around the world continue to encourage 
and demand Y2K efforts by financial firms, but there is wide 
agreement that financial firms in Asia are far more concerned 
with whether they survive until 2000, an issue we have named 
IF-2K, rather than Y2K systems issues.
    Moody's recently reported that 49 major Japanese banks 
planned to spend $249 million as a group on Y2K compliance. 
This amount is only a fraction of Citicorp's planned $600 
million program and only equal to Chase's and J.P. Morgan's 
planned $250 million.
    Financial firms in Europe are so absorbed by the system 
challenges posed by European monetary union that non-EMU 
projects, including Y2K conversion, are commonly suspended or 
postponed. A parallel situation exists in the United States 
with some firms so absorbed by the system challenges of Y2K 
that they have placed moratoriums on non-Y2K projects, such as 
dealing with a single currency in Europe. This will have 
ramifications for our financial system in the future.
    The Brazilian financial sector is slow. As in Asia, South 
America is more concerned with economic health than Y2K. Russia 
and Eastern Europe is a financial black hole, especially given 
the significant variation in regulatory oversight.
    There is, however, some good news to report. In the United 
States financial firms continue to reduce their exposure to the 
financial firms in Asia and Europe either through selling the 
assets they hold or via some combination of financial 
transaction amendments and derivatives. In Europe, the happy 
news is that EMU conversion poses system challenges similar to 
Y2K, hopefully shortening the time that will be required to 
attain Y2K compliance.
    My statement closes with eight areas that keep Y2K chiefs 
up at night, and merit focus by the Special Committee on the 
Year 2000 Technology Problem. I will now summarize five of 
them.
    The first is telecommunications and energy. Most large 
financial firms conduct 80 percent of their transactions 
electronically and 25 percent or more of their transactions in 
the interbank market. To summarize the remarks by many Y2K 
chiefs in this area, ``we don't have a clue.'' This leads me to 
conclude that reliability on telecommunications is a Y2K wild 
card.
    The second is exposure to the middle market. Companies in 
the Fortune 500 plan to spend an estimated $11 billion on Y2K 
fixes, which includes $3.5 billion by the largest financial 
firms and are focused seriously on business continuity. The 
Gartner Group study of 6,000 companies in 47 countries 
indicated that 30 percent of all companies and governments have 
not started on Year 2000 compliance efforts, but that 88 
percent of the laggards were companies with fewer than 2,000 
employees. Small companies are more likely to be able to 
operate manually and to be able to manage their full supply 
chain in a crisis. But middle market companies are likely too 
complex to operate manually and probably have not devoted 
sufficient resources to Y2K and so are another wild card. Some 
analysts predict that up to 20 percent of middle market 
companies will have a problem with Y2K leading to significant 
increases in bankruptcies of currently healthy firms.
    The third is information sharing. Even though a great many 
Y2K problems have been solved, information sharing among 
parties who stand to benefit from others' knowledge is hampered 
by the fear of litigation. During my review, several Y2K chiefs 
commented, ``We are happy to discuss Y2K, however, under legal 
advice, there will be issues that we will not be able to 
discuss, at least not on the record.'' Future litigation costs 
around Y2K are estimated to range between $1 trillion and $4 
trillion, an amount over and above the $1.6 trillion estimate I 
mentioned earlier for technology fixes and direct business 
losses. Perhaps a wartime profiteering limitation should be 
considered for litigation costs, or maximum allowable damage 
levels in order to promote the sharing of information.
    Fourth, and an additional concern for many Y2K chiefs, is 
the potential for fraud. Some firms have corrected hundreds of 
millions of lines of code using automated software sniffers 
versus manual intervention. Those who have relied on manual 
code correction are more susceptible to fraudulent transfers or 
other sabotage that may cause harm at future dates. Given the 
pressure of completing Y2K fixes, few firms have the luxury of 
checking each manual change to their source code or other 
software.
    Fifth is liquidity. Thirty-eight percent of IT 
professionals say they may withdraw personal assets from banks 
and investment companies just prior to the millennium to 
protect their personal finances from Year 2000 failures. If 
financial institutions implement contingency plans that prevent 
use of electronic systems and consumers thus have to withdraw 
extra cash to avoid the risk of credit card and ATM failures, 
for example, to cover their holiday spending in December 1999, 
how much additional liquidity will the banking system need?
    Thank you, and I welcome any questions that you have.
    [The prepared statement of Ms. Beder can be found in the 
appendix.]
    Chairman Bennett. Thank you. Before we go to Dr. Rubin, I 
raised the same issue with Chairman Greenspan and he told me, 
if my memory serves, and it usually doesn't, but that the Fed 
was planning to have an extra $80 billion in cash available 
during that holiday week period for just the particulars that 
you have commented on. Whether that will be enough, I don't 
know, but the Fed is also thinking about liquidity and planning 
to have additional cash available for those that get nervous 
about it. Dr. Rubin.

   STATEMENT OF HOWARD RUBIN, CHIEF EXECUTIVE OFFICER, RUBIN 
SYSTEMS, INC. AND CHAIR, DEPARTMENT OF COMPUTER SCIENCE, HUNTER 
                            COLLEGE

    Mr. Rubin. I thank you for the opportunity to testify 
before the committee. My first suggestion is you get every 
company CEO lights like that. Put it on their desk.
    Chairman Bennett. It makes the witnesses nervous, but 
doesn't do anything for Senators.
    Mr. Rubin. Second, even using my finest New York talking 
techniques, I probably can't get through the whole statement, 
so I'd like to give you an abstract of some of my comments.
    Chairman Bennett. Your full statement will be included 
without objection.
    Mr. Rubin. First of all, this is an issue that I focused on 
for many years. I've established a Global Research Network now 
with about 16,000 individuals and 5,000 or so companies in 
about 50 countries from which I collect data and in general I 
look at interpreting global trends and I also work as a 
consultant to some of the largest companies in the United 
States. And with regard to the testimony today, I will confine 
my comments to specific areas of interest to you, which are the 
progress of foreign financial companies and also the state of 
U.S. financial markets themselves and other risks that are out 
there.
    My fundamental position on this matter is really quite 
simple. No. 1, with all the research I've done, it's quite 
clear that no one can accurately predict what will happen, and 
as Peter Miller says, this is really an issue of risk 
management.
    No. 2, no institution stands alone, so looking at 
individual institutional progress really doesn't mean very 
much, and progress indicators by themselves are among the wrong 
things to be looking at. Because institutions can't stand 
alone, there's no institution immune to disruption of business 
transactions as they flow around the world and influences of 
this disruption are more than the financial sectors themselves. 
We have to deal with utilities, our water, basic infrastructure 
and transportation.
    Something else the committee I believe should think about 
in the general overview is the Year 2000 problem has both 
direct and indirect economic consequences. The direct 
consequences is disruptions and problems that we're talking 
about here. The indirect consequences have to do with the 
economic diversion of resources and funds to deal with this 
problem, and quite simply, I don't want to imply there's a 
linkage between technology investment and business performance, 
but in the mid-1990's for every dollar a company spent on 
information technology in the United States, they supported 
about $150 dollars in gross revenue. Y2K technology is taking 
25 cents outs of that dollar. That's 25 cents not going into 
revenue, support, growth, and profit and that's what I mean by 
a second order effect and that's absolutely critical to look at 
in my view. With euro on top of that, hitting a subset of 
companies that have to deal with that, so it's taking away from 
the ability of companies to grow and move forward, so there are 
first and second order effects.
    Therefore, I believe whether or not an organization 
believes it is Year 2000 safe or Year 2000 compliant, it's 
imperative that assessment of Year 2000 risks be made and act 
to abate any that are identified.
    There are really three categories of risks that are out 
there. One category of risk is what I call the known knowns. 
Those are the things we know that we know or at least think 
that we know based on surveys. Then there are the known 
unknowns, the things we know we don't know, but we'd like to 
find out about and a lot of testimony was around that.
    The most interesting category is what we call the unknown 
unknowns. Those are the things that we don't know we don't know 
about right now that everybody has to be prepared to deal with. 
So as a backdrop of discussing my picture of foreign financial 
companies, let me give you a snapshot of known knowns. A lot of 
this is in the table that's on page 2 of my testimony.
    Based on global estimates we've had, I've tried to take a 
look at what countries may not be able to bear the burden of 
Year 2000, how much GDP impact would it have in terms of 
diversion of GDP resources. The heavy hitters are Russia, 
Mexico, Brazil, Portugal, Korea. Countries that have the least 
impact of looking at Year 2000 spending as a percent of GDP, 
countries like China and India.
    If we look at what countries have work in progress, 
countries like the United States, UK, and Canada, some of the 
ones you point out, have the most work in the pipeline. If we 
look at China, Mexico, and Brazil there's the least work in the 
pipeline. And in terms of what I call a schedule indicator, a 
schedule indicator doesn't mean I have 27 percent of my work 
done. Suppose a company tells me 80 percent of their work is 
complete now, but at this point according to their plans it 
should have been 95 percent, they're not doing very well. So I 
look at ratio of what's done versus what they plan to have 
done, assuming they had plans, the countries from where I have 
data that seem to be in the worst shape with regard to this are 
Mexico, Spain, and China could be on that list again. That's a 
little bit of the result of what I think are known knowns.
    There are lots of surveys around about what's going on, my 
friends at Capers Jones in the UK did a survey, built the 
millennium index. In the European market, some of the greatest 
risks are Germany, Italy, Belgium, Finland, and the UK and 
they've identified those same group of countries rather as 
being generally late, not only are they slipping in terms of 
the amount they spend, they're slipping in terms of when 
they've started. By the way, in terms of the U.S. industry 
picture and trying to take a look at who is in really good 
shape, it looks like the software industry, financial services, 
manufacturing, and telecom are moving, although there are a lot 
of unknowns, as we discussed before in the hearing with regard 
to telecoms.
    We have monitored schedule slippage in the areas such as 
transportation, utility companies and that's why I have great 
concerns about beyond the financial sector, looking at impacts 
on them from other areas. In terms of what's happening with 
this problem, as we get closer to the deadline, things keep 
moving around. Some the big data I have from the latest survey 
that I just closed June 30 on page 4 is companies are 
continuing to underestimate the Year 2000 problems, numbers are 
going up. However, the number of companies that have activated 
have gone up, 86 percent of the companies are now doing 
something about Year 2000. The number focused on contingency 
plans has jumped from 3 percent to 72 percent. But when you ask 
them what's in those contingency plans, you can't find out very 
much.
    There's a lot of activity. I don't know about content here. 
Fourty percent of those surveyed had some kind of date related 
incident that they've reported.
    So United States and some of the global picture, let me 
move on to the progress of foreign financial companies, this is 
sort of the known knowns and bordering on the known unknowns. 
It looks like that project starts outside the United States are 
late, spending estimates and rates are lower than experienced. 
In eBANKER surveys, more than half the companies had nothing to 
report. So there are a lot of known unknowns out there and 
unknown unknowns out there.
    What I think really has to be done is that this committee 
has to adopt a composite Year 2000 tracking and risk management 
viewpoint. You have to move to encourage mechanisms to share 
information, mechanisms to force companies to focus on scenario 
analysis. The question for companies today is what alternatives 
have they focused on for different scenarios. In New York City 
you know if there's a blizzard you have ways of your folks 
getting to work. What are the set of questions a company must 
be able to answer, running from a failure within their company 
to a failure within a counterparty, to a multipoint, 
multinational failure of infrastructure, utilities, and 
everything else.
    So the scenarios are critical. So I think my final 
observation is along those lines is somewhat contrary to the 
pure focus of this hearing. This is not a stand alone company 
or industry issue, it's a network issue. The most difficult and 
critical of the Year 2000 risks are the unknown unknowns or 
cross industry failures and we will not know what all these are 
ahead of time and I think it's critical that we move companies 
to a point where they have all these scenarios, and the key 
question to ask them has to do with one of preparedness; having 
looked at scenarios, be prepared to act on them and to have 
some degree of surety on the problem where we can. Thank you.
    [The prepared statement of Mr. Rubin can be found in the 
appendix.]
    Chairman Bennett. Thank you very much. Using the phrase the 
Senior Senator from New York would recognize from the previous 
circumstance, the best time to escape is immediately after 
you're captured, and I'm told that my memory has failed me, the 
$80 billion figure came from somebody other than Chairman 
Greenspan. My memory tells me he used it, the Fed has called to 
complain about my using it and putting it in his mouth, so I 
will quickly take it out of his mouth and out of mine, too, to 
try to find out.
    Senator Moynihan. I've been planning to put $80 billion 
aside.
    Chairman Bennett. Let's leave that to when we get to it.
    I'm interested, Ms. Beder, in your reference to fraud. 
Because that's something frankly we have not focused on, at 
least in the various jurisdictions that I've had. I'm told that 
a Mafia run firm started a contract to fix the company's Y2K 
problem, and instead of fix, they used their opportunity to 
move lots of money from one account into the other in the name 
of fixing the problem. Fortunately, they got caught, but I 
think that is an issue that needs to be highlighted here, and I 
thank you for raising it with us. It corresponds with hearings 
we've had with respect to the challenge of the Defense 
Department and one of the Defense Department problems has to do 
not only with the Y2K remediation difficulties, but with the 
exposure that comes from sabotage in the defense establishment 
by virtue of computer attacks and computer sabotage, since the 
entire Defense Department is dependent on computers.
    And Dr. Rubin, the Defense Department has exactly the same 
concerns you do with respect to the interdependancy. They 
pointed out that when someone picks up a telephone to make a 
call to the commander from the Pentagon, they're dependent on 
Atlantic Bell for that call to go through. In the old days when 
the Defense Department was hard wired from every establishment, 
from one to the other, are gone, and now they depend upon 
service from the same suppliers that security firms and others 
would be dependent upon. So your point about the 
interdependability of this situation is a good one and I'm glad 
that you raised it.
    Senator Moynihan.
    Senator Moynihan. I wonder if I would be wrong in thinking 
that our two closing witnesses are the most bearish today, 
possibly because you don't have any institutional affiliations.
    Chairman Bennett. I heard Ms. Beder make a very bullish 
statement about her previous position.
    Senator Moynihan. Neither of you think that we're doing 
very well.
    Ms. Beder. I guess the more important point to me is that I 
think we've acknowledged the reality that you actually can't 
find all the places where Y2K might impact you, and with 
respect to things like testing, as people have started that 
process and right away many of the firms reveal, large 
financial firms don't expect their process to be fully complete 
until the second or third quarter of next year and that's 
primarily because they're running into problems like rolling 
huge databases of assets and transactions forward, and I can't 
underscore the importance of doing that properly.
    For example, some of the testing that Japan has planned 
places no requirements on the financial institutions as to how 
they are conduct their testing for the virtual trades that are 
planned to happen on December 20 of this year. So I suppose 
that my bearishness on the one hand is over the realization 
that it's probably a problem that no one could foresee all of 
the dimensions of it. I think my optimism comes from the fact 
that people have very heavily focused on contingency plans to 
reduce their exposure for limited trading volumes for that 
period, to moving cash flows, and doing things that will help 
them to let other people be the guinea pigs.
    Mr. Rubin. I would like to say although I have no 
affiliations as an employee, I've worked with some of the 
largest companies on this issue. I see the largest companies in 
the United States are heavily mobilized, they have very 
comprehensive program offices and they're look at multiple 
dimensions of the problem. However, in terms of position, and I 
gave the impression here, every company is probably behind what 
they would like to be, but the real issue is that we are where 
we are, there are some things we may be able to do, companies 
are talking about tax credits, things for people moving 
forward, penalty things, people not being able to become 
brokers, we're looking at ways to accelerate progress.
    But the real issue is no matter what level of progress 
there is, removing someone's license to do something, doesn't 
move things along, the Year 2000 crisis, it doesn't help the 
global economic situation. So we are where we are, there's a 
need to do risk management and contingency planning.
    And the final statement in my statement say this problem 
and the results of this matter are a matter of choice. We have 
a choice to be able to focus on the risks and move to abate 
them based on reality in the current position or clear 
communication, or we have a choice to ignore them. The largest 
companies are taking the choice to move forward and we need the 
global encouragement to move this forward on a larger scale.
    Chairman Bennett. The global encouragement. So you're not 
at all excited about any foreign markets?
    Mr. Rubin. What's necessary now, it's hard to use 
definitive words here, but you started to hear some of the 
testimony about the Joint Council of regulators, pressure is 
being put, visibility is given to the issue, whether or not 
these folks have a level of visibility, it has to feed into the 
scenario analysis. You have to decide country by country, 
market by market, what if they're not there, what if they can't 
process, what do you do in that case.
    This is a storm, you have a forecast, we don't know where 
the cells are that are going to hit with dramatic activity, we 
can get on the highway and pull out, take your choices, and 
those are what everybody is faced with, and those are the 
things that have to happen in the global economy of our 
financial markets. If the worst will happen, what will you do, 
if the best will happen what will you do, because no one really 
knows what's going to happen.
    Senator Moynihan. Could I ask, Mr. Chairman, since you 
mentioned this, would it be imposing to ask Dr. Rubin, could he 
give us something in writing about scenario analysis?
    Mr. Rubin. I'd be pleased to do that.
    Senator Moynihan. It's something you obviously worked at.
    Mr. Rubin. Also, I know that the Global 2000 Committee has 
published a document on that, so you might be able to request 
that from the appropriate resources. I'll be glad to do so.
    Senator Moynihan. Your colleague there mentioned the 
Gartner Group.
    Ms. Beder. Yes.
    Senator Moynihan. Do they have a study. Could you provide 
the committee with a copy of the Gartner Group report?
    Ms. Beder. Certainly.
    Mr. Rubin. One of my affiliations is with Gartner Group, so 
we'll supply a copy, too. A meta group.
    Chairman Bennett. We're in contact with the Gartner Group. 
It's located in Connecticut, so that explains it.
    Senator Moynihan. Thank you very much, Mr. Chairman, and 
thank you for a wonderful, excellent panel.
    Chairman Bennett. Let me just, Dr. Rubin, if I could hold 
you for just a minute or two more.
    Mr. Rubin. My lights are off.
    Chairman Bennett. As I say, the lights intimidate the 
witnesses, but they mean nothing to senators.
    I'd like your reaction and if you have none here, your 
reflections, consequently, so you might send us something, on 
an issue that I'm only recently becoming aware of, that is, how 
long is this going to last after the Year 2000? I focus on the 
fact that litigation will go on for decades after the Year 
2000, as people sort out the various lawsuits and who's 
responsible. In the style of Dickens' Bleak House, there are 
lawyers who are planning to spend their entire careers 
litigating Year 2000 problems and maybe their children and 
grandchildren as well.
    But the more I look into it, the more I realize that many 
of the remediation efforts that are going forward are in fact 
not long-term fixes, they are short-term bridges to get us past 
January 1, 2000, so that the firm can continue to operate, but 
we'll still require skills and money and effort under that 
bridge to see that the debris is cleaned away and things are 
made so that they work properly.
    Mr. Rubin. There are a few ways this problem could be 
looked at. In general, Peter Miller used the word very nicely 
about the critical systems of particular companies. He was 
taking a look at what companies are getting done. Companies 
with good plans are probably on the order of getting 65 to 80 
percent of their total systems converted, assuming there's a 
subset of their critical systems. That means there may be a 
residual equal of 50 percent of their problem to be treated 
after the Year 2000.
    Other points in the history of computing, systems people 
are optimistic. One of the reasons they assumed we wouldn't 
have this problem is because people would by new systems, so 
the latent demand after this problem, critical systems have to 
be addressed, the ones that are needed in a hurry, critical 
bridge will have to be addressed, but then the latent demand of 
companies for new systems which was forestalled by this crisis 
will show up, so it's hard to tell what the ripple effect of 
this will be, so people are talking 3 to 5 years, but it will 
get diluted by new opportunities and everything else.
    Clearly there will be some crossover. You have to 
understand in 2005 we will spend on technology in 1 year twice 
what the world spend in the 1980's. One year will be worth an 
entire decade twice over again, and that will converge with 
Year 2000 remediation, cleanup, and we'll start moving off 
again.
    Chairman Bennett. I somewhat optimistically told Senator 
Lott when this committee was created that we would of course be 
willing to go out of existence shortly after January of 2000. I 
know that there's nothing more permanent than a temporary 
government program, but I was hoping we could be the exception. 
Now I'm beginning to think that the country, whether Senator 
Moynihan or I are involved or not, is going to continue to face 
economic consequences for this for literally years after 
January 2000. Would you agree with that?
    Mr. Rubin. I would say get a technology level cabinet 
position. There's no place for technologies in the cabinet, and 
it's an integral part of society and business, and this is just 
coming from me as a person, but that's why business scrambled 
to deal with this. This has no home and technology is an 
interwoven fabric of our next millennium.
    Chairman Bennett. One of the unknown unknowns, therefore, 
is the amount of economic drag that will be created after 
January 2000 in terms of slowing down growth, not only in this 
country but around the world.
    One last question. I'm on a fishing expedition here, but 
when I have good witnesses I love to do that.
    Mr. Rubin. Thank you.
    Chairman Bennett. Do you have any view as to what the 
wealth transfer impact of the Year 2000 would be? Let's go back 
to the analogy of the oil crisis that occurred in the mid-
'70's. That produced an enormous wealth transfer with the money 
going out of Europe and Asia to a lesser extent, but still 
significant out of the United States into the pockets of sheiks 
and desert principals in the Middle East. It went from there to 
banks in Switzerland and some of it to casinos and over time 
has been recirculated back into the economy, in the world 
economy, but in that immediate period of time, there were 
hundreds of billions of dollars that transferred into the 
Middle East by virtue of the oil shock.
    I suppose it's in your category of unknown unknowns, but I 
saw in the Mexico crisis which Senator Dole assigned me to 
handle for him, the speed which in today's world that money 
came out of Mexico as soon as that crisis developed. It wasn't 
a case of people walking through airports with attache cases in 
their hands with pieces of paper, it was a couple of key 
strokes electronically, and the wealth transfer out of America 
could be accomplished in a matter of hours.
    Now, have either of you given any thought to what could 
happen around the world in terms of foreign investment coming 
out of particular economies in a wealth transfer that could 
cripple countries?
    Mr. Rubin. There's two levels of wealth transfers that are 
happening here. When the Year 2000 crisis became recognized, 
the global software economy changed. That's where work is done 
and how money is papered versus technology. Suddenly the gates 
opened up in India and people tried to send work offshore. So 
the global distribution of technology work changed in the very 
short-term.
    This is not exactly the question, but there are a whole 
bunch of market dynamics here, because U.S. companies trying to 
offload their load started moving work to India, not in a 
negative sense, people taking the opportunity to be offshore 
suppliers started to fill the void for a labor market and 
absorb that, you see that in a couple of these reports.
    I would probably refer the financial question to people on 
the other panels, but one piece, you can clearly see that in 
terms of competitive advantage, from testimony you heard, 
global financial services firms that are able to cope with the 
problem, able to line up with end to end transaction processing 
and do their contingency planning will be in a position to 
either absorb work, absorb the financial transactions, move 
work to other markets, bypass markets. There's a mobile market 
going on, you start to see mergers and acquisitions. What the 
market looks like, I don't know, I think it's very insightful. 
Two levels, the technology underneath it will move and the 
financial markets, so I would refer to other panelists some of 
your financial questions.
    Ms. Beder. I guess I would tackle it on a different level 
and say this is precisely the question that one has to ask if 
you are a global institutional investor or a pension fund and 
you have a portfolio of all kinds of stocks and bonds that are 
supposed to meet your future liability schedules or if you, for 
example, are a banking institution who has a portfolio of loans 
and other transactions, and I think the whole question is, what 
happens to the value of that portfolio, therefore, to the 
health of your ability to meet your liabilities, the pension 
fund or as a mutual funds in terms of the owners of your shares 
or as a bank in terms of your quality, and the simple answer is 
there will be a huge wealth transfer, because in each one of 
the industries it's probably the case that whoever some of the 
leaders are now may stumble and fall and other people will take 
the opportunity with Y2K glitches, primarily on a business 
continuity level to become new leaders.
    Much of that is a wealth transfer within the economy rather 
than necessarily across the borders, I believe, and I also 
believe that the Y2K impact may be very small, not because 
people have felt that Y2K is a reason to pull their money out 
of Asia or South America, or frankly a lot of Europe because of 
the uncertainty of the European union, because they're doing 
that for the economic situation, the uncertainty already, so I 
tend to think the wealth transfer will be far more within the 
country, but it will be very significant, there will definitely 
be banks, pension funds and mutual funds that get into trouble.
    Chairman Bennett. Thank you.
    Senator Moynihan. Sir, I think we've had a wonderful 
morning, and very much thank all the witnesses that came here 
with careful statements and I get more concerned about this all 
the time. I'm glad your committee is up and running, and this 
might be the only thing between us and chaos.
    Chairman Bennett. Well, let's hope it is. I say to people, 
my fondest dream will be to open a newspaper and it probably 
will just be in my home town because no one else would care, 
but my fondest dream would be to open a newspaper on say the 
5th or 6th of January, 2000 and have an editorial saying 
Senator Bennett was an alarmist because look, everything went 
smoothly and there are no difficulties, and we should censure 
the Senator for having been so excited about something that 
turned out to be nothing.
    Senator Moynihan. Mr. Chairman, we know things are going to 
go well in Salt Lake City. They always go well in Salt Lake 
City. Isn't that right? Statistics prove it.
    Mr. Rubin. If you'd like it proven, we can arrange it.
    Chairman Bennett. I just thought that as the efforts of all 
of us on the committee and in the Congress, there will be a 
minimum of disruption, but I'm afraid I'm with those who say in 
spite of our very best efforts, the unknown unknowns, if 
nothing else, and the known unknowns are enough to keep me 
worried at night.
    I very much appreciate the hearing, I appreciate the 
hospitality of the good people of New York, Manhattan, and the 
high quality of witnesses, Senator. We thank you for that. The 
hearing is adjourned.
    [Whereupon, at 12:20 p.m., the committee adjourned.]
                            A P P E N D I X

                                 ______
                                 

              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

                                 ______
                                 

                 Prepared Statement of William A. Bautz

    Chairman Bennett, Senator Dodd, Senator Moynihan and Members of the 
Committee. I am William A. Bautz, Senior Vice President and Chief 
Technology Officer of the New York Stock Exchange (NYSE or Exchange). 
Thank you for providing me with this opportunity to discuss the impact 
of the Year 2000 computer problem, as well as potential solutions to 
address this problem. We view the dimensions of this issue as enormous, 
with potentially disastrous global consequences to both business and 
government.
    As the world's foremost securities market, the NYSE is taking a 
leading role in promoting awareness of the Year 2000 computer problem 
among our 3,700 listed companies, which include 350 non-U.S. companies; 
the securities industry; and other capital markets throughout the 
world. We have worked hard to assure that our own systems will be Year 
2000 compliant far in advance of the turn of the century. However, as 
important as our market is, it is only one, interconnected component of 
a global market. Much remains to be done to ensure that all the 
international capital market participants are prepared to move smoothly 
into the next millennium. Our goal is to ensure that the first day of 
the Year 2000--January 3, 2000--will be just another trading day 
throughout the world.
    At the outset, Mr. Chairman, I would like to commend you and your 
colleagues, for fostering public awareness of the Year 2000 problem. 
The Special Committee can devote the necessary time and energy to 
directly address the problems presented by the Year 2000 and develop 
solutions for both government and the private sector to work together 
to overcome the challenges of this technological challenge. I would 
concur with the recent statements of Dr. Andrew Grove of Intel, that 
Congressional oversight hearings play a critical role in raising the 
profit of this problem and give heightened urgency to remediation 
efforts.
    The potential economic impact of the Year 2000 computer problem on 
our domestic and international markets is profound. With our world 
economy so dependent on computers and technology, we cannot 
overestimate the impact if a substantial portion of our automated 
systems malfunction--or possibly cease to operate--on January 1, 2000. 
Because of the interconnectivity of the world's financial markets, 
there is no concept of merely an ``isolated'' problem if a major 
market, financial center or market participant is not prepared for the 
new century.
    The Securities Industry Association (SIA) refers to solving the 
Year 2000 computer problem as ``the biggest business-technology effort 
that the world has ever experienced.'' Estimates vary on what it will 
cost to address the Year 2000 situation. One estimate is that it could 
cost from $1.00 to $1.50 per line of code--the equivalent of $500 to 
over $1,000 per affected computer program. Such a conversion process 
could cost even a medium-sized company over $4 million. Another 
estimate places the cost on business and the public sector in the 
United States at $100-$200 billion and the worldwide total at $600 
billion. These estimates constantly are being revised upwards.
         nyse efforts to address the year 2000 computer problem
    At the NYSE, we are addressing the Year 2000 issue on multiple 
levels, beginning with the direct impact of this issue on the NYSE 
itself, and extending to the international capital markets; our member 
firms, for whom we have oversight responsibility; and our listed 
companies, which include a dominant share of the world's major 
corporations. These multiple levels of response are necessary because 
we are part of global industry that can best address the year 2000 
jointly--through collaboration and information exchange. After 
discussing our activities on each level, I will conclude by offering 
our perspective on the role of government.
   the nyse and the securities industry automation corporation (siac)
    The NYSE first made addressing our own Year 2000 issue an Exchange 
priority in 1996. At that time, we designated our data-processing 
subsidiary, SIAC, as coordinator of our efforts to address the issue. 
SIAC has responsibility for addressing our mission-critical trading and 
regulatory systems, while we are handling internally our administrative 
systems. I am personally responsible for our internal Year 2000 
compliance efforts and for coordinating these efforts with SIAC.
    Our preparations have progressed as we have introduced new 
technology and taken a range of other readiness measures. Over the last 
decade, the NYSE invested more than $1.5 billion in new technology to 
provide for greater capacity or to install next-generation hardware and 
software. As we implemented this new technology, we made many of our 
necessary Year 2000 changes. Most of this technology is complete, 
tested and in operation. The remaining portions will be finished by the 
middle of this year. As to other systems, we have a comprehensive 
program to fix, repair or retire non-compliant systems. We currently 
are on schedule to have our mission-critical systems in production by 
December 31, 1998.
    We estimate that our cost to achieve Year 2000 compliance will be 
approximately $20 million. However, this is only the ``direct'' cost, 
and does not include any of the overall costs of our technology 
upgrade. In large part, our $1 billion investment over the last decade 
has provided us with the ability to address this problem at an early 
date and to reduce our total cost in achieving compliance.
    Installing Year 2000-compliant systems is only one step in the 
process. Equally important is proper testing of our systems. We 
constantly test our new systems internally, and we test the software 
and hardware that our vendors provide us. Following this internal 
testing, our next step is to test with our member firms and the rest of 
the investment community. Our testing program includes connectivity 
testing with our member firms, end-to-end functional tests with our 
industry partners, the SEC and the Depository Trust Corporation, and 
participation in the industry beta test sponsored by the SIA in July 
1998. In this regard, we have already begun testing between ourselves 
and individual member firms, and our testing program will continue 
throughout this year and all of 1999.
    The next significant step in the testing process will be ``beta 
testing,'' which is scheduled for July of this year. Under the 
leadership of the Securities Industry Association, the beta testing 
will consist of 15 to 20 member firms and all the securities markets. 
Not only will this test cover all products, it also will cover all 
aspects of the trade-processing system, from order entry to clearance 
and settlement. The test will simulate trade-processing for four 
trading days from December 29, 1999 through the first trading day of 
January 2000. The beta test will check both the NYSE and member-firm 
systems for programming bugs, while also verifying that the test itself 
is effective.
    Following the beta testing, we plan to participate in industry-wide 
testing in 1999. By this time, all of our systems should be Year 2000 
compliant. This round of testing will include all our member firms, all 
U.S. markets and all securities industry utilities. We will conduct 
these tests on weekends, with all participants in the testing using 
Year 2000-compliant production platforms. The first of these industry-
wide tests is scheduled for March 1999.
                     international capital markets
    The NYSE is working on a number of different fronts with 
international industry organizations to address Year 2000 issues. In 
October 1997, Edward Kwalwasser, Group Executive Vice President of the 
NYSE, presented a memo detailing Year 2000 issues to the regulatory 
subcommittee of the International Federation of Stock Exchanges (FIBV), 
and also distributed a copy of a proposed survey designed to help the 
FIBV collect relevant data from its members. These documents were 
subsequently assigned to the technology subcommittee of the FIBV.
    The NYSE, acting in close collaboration with the SIA, has also 
raised Year 2000 issues with the International Organization of 
Securities Commissions (IOSCO), where Mr. Kwalwasser serves as chair of 
the Year 2000 subcommittee. Following presentations at IOSCO's general 
meeting in Taipei in November 1997, a member survey was provided to the 
subcommittee's vice chairs for Europe, Asia and South America. A copy 
of the survey was also made available to the Canadian Dealers 
Association.
    Earlier this year, the Bank for International Settlements (BIS), 
jointly with the Basle Committee on Banking Supervision, the Committee 
on Payment and Settlement System, the International Association of 
Insurance Supervisors and the International Organization of Securities 
Commissions, sponsored a global roundtable on the Year 2000. Their 
discussions confirmed that the Year 2000 issue must remain a top 
priority of senior management and that public and private bodies should 
coordinate their focus on issues and approaches.
    The sponsors recognized the complexity of the issue and recommended 
that financial market supervisors around the world implement programs 
to coordinate Year 2000 readiness. To provide greater market 
transparency, they called on all market participants to share critical 
information and they formed a ``Joint Year 2000 Council,'' comprised of 
senior members of each organization to coordinate their efforts. These 
efforts include strengthening and widening of external testing 
programs; improving information sharing among market participants, 
their vendors and service providers; establishing market conventions 
and procedures for dealing with potential contingencies; and 
reinforcing the role of oversight bodies such as supervisors and 
auditors.
                           nyse member firms
    More than 300 of the nation's broker-dealers that deal with the 
public are NYSE member firms, for which we have primary oversight 
responsibility as their ``designated examining authority'' (``DEA''). 
These broker-dealers carry and clear transactions for approximately 91 
percent of all customer accounts maintained by U.S. registered broker-
dealers. We have woven Year 2000 compliance into our surveillance and 
examination program for these firms. As part of our monitoring process, 
we have created an internal Year 2000 surveillance committee to 
coordinate our relevant surveillance and examination efforts. NYSE 
member firm regulation staff members contact each of our member firms 
quarterly regarding the member firm's Year 2000 compliance efforts. In 
addition, we include Year 2000 readiness as part of our annual 
financial and operational examinations. Our efforts are focused on 
trying to ensure that our member firms are prepared for the industry-
wide testing scheduled for early 1999.
    Last May, we sent a memo to our member firms on the Year 2000 
problem. In that memo, we advised each firm that it should designate a 
senior official as having responsibility to oversee the firm's Year 
2000 project. We further advised the firm that it should identify the 
scope of its Year 2000 problem and that it should allocate the people, 
time, and money necessary to address the problem. The memo stated that, 
realistically, the Year 2000 project should have a target completion 
date of December 1998, with 1999 available for system testing and 
adjustments.
    Our May 1997 memo also asked member firms to complete a survey 
regarding their Year 2000 plans in an effort to determine their 
preparedness. While we generally were pleased with the results of the 
survey, we identified a few firms that needed to focus more closely on 
this problem. In late 1997 we conducted a second survey to determine 
the readiness of vendors, correspondent brokers and other third parties 
that interface with NYSE member firms. In reviewing the responses to 
this survey, Exchange staff noted some minor problems, which staff 
members have discussed with member firms.
    The Exchange has used these two surveys to establish generic 
milestones. As part of the quarterly discussions with member firms, 
Exchange staff discuss the firms' progress towards meeting these 
milestones. These discussions also include updates on the milestones 
the firms themselves have established, as reported in the first survey. 
Once a firm indicates that it is Year 2000 compliant, the Exchange will 
request a written confirmation of that fact from the firm's chief 
executive officer.
    The SEC also is currently considering on an expedited basis a 
proposed change to its record-keeping rules to require broker-dealers 
with $100,000 or more in net capital to file two reports on Year 2000 
readiness. These reports would cover such areas as the broker-dealer's 
plans to address the issue, the progress in meeting those plans and any 
contingency plans for any problems that may arise. The NYSE welcomes 
this effort, which will provide yet another surveillance and compliance 
tool.
    NYSE member firms would need to file these reports both with the 
SEC and with the Exchange, as the broker-dealer's DEA. The first report 
would be due 45 days following adoption of the rule amendment and the 
second report would be due within 90 days of the broker-dealer's 1998 
fiscal year-end financial statements. The SEC would require a broker-
dealer's public accountant to file an attestation with the second 
report giving the auditor's opinion as to whether there is a reasonable 
basis for the broker-dealer's assertions in that report.
    These reports will provide both us and the SEC with comprehensive 
information on Year 2000 compliance efforts. In addition, the 
requirement for two reports will provide a basis to judge the progress 
of broker-dealers in developing and implementing Year 2000 compliance 
programs. If the SEC adopts these rule amendments, the NYSE will be 
coordinating closely with the SEC and the other DEA's to implement the 
reporting requirements.
                        the securities industry
    The SIA has taken a leadership role in efforts to achieve Year 2000 
readiness in the securities industry generally, working not only with 
the NYSE and our member firms, but also with all the securities 
markets, broker-dealers, vendors and other service providers. With the 
support of the NYSE, the SIA has organized conferences and seminars 
around the country to educate market participants on the problem and to 
keep the industry informed about the latest developments in the area, 
including testing schedules.
    Under the auspices of a Year 2000 steering committee, which 
includes senior industry members such as Robert Britz, Group Executive 
Vice President of the NYSE, the SIA has established numerous working 
committees to address specific aspects of the problem. These committees 
include groups focusing on, among other things, data management, 
testing, exchanges and utilities, third-party vendors, legal and 
regulatory issues and international issues. The SIA has also formed an 
international group to promote Year 2000 readiness in other countries, 
where this issue may not have the same high priority as it does in the 
United States. Other issues, such as preparing for the conversion to 
the ``Euro'' currency, may be crowding the agendas in other markets.
    The SIA subcommittees meet regularly, both in full committee and in 
focus groups. These committees have been pivotal in moving the industry 
towards Year 2000 readiness. Information on these committees, including 
meeting schedules and minutes of past meetings, are publicly available 
on the World Wide Web, which serves as a valuable source of industry 
information on the problem.
    The discipline of this coordinated approach to addressing the Year 
2000 problem demonstrates how an industry can work together to achieve 
a common goal. As was mentioned above, this approach is also being 
brought increasingly to the international level.
                         nyse listed companies
    As to listed companies, in addition to holding several hearings on 
this issue, Senator Bennett has introduced S. 1518, which would require 
publicly traded companies to disclose their Year 2000 progress in their 
annual Form 10-K filings with the SEC. Last year, the NYSE brought 
together the SEC and representatives of our listed companies to discuss 
this legislation, as well as the broader issue of correcting the Year 
2000 problem. We have continued to work closely with the SEC's Division 
of Corporation Finance and its director, Brian Lane, to ensure that our 
listed companies receive and understand the division's staff bulletins 
on this issue. Our listed companies need to appreciate that Year 2000 
remediation is likely to be material to their businesses, and that they 
should disclose to their shareholders and customers their progress in 
the conversion process.
    In this regard, the SEC staff has issued Staff Legal Bulletin No. 5 
on Year 2000 disclosure. The bulletin reminds public companies and 
other SEC registrants that they must consider disclosure regarding 
costs, problems and uncertainties associated with the Year 2000. The 
staff originally issued the bulletin in October 1997, and revised it in 
January of this year, emphasizing that if a company has not made an 
assessment of its Year 2000 issues--or has not yet even determined 
whether it has material Year 2000 issues--the disclosure of that known 
uncertainty is required.
    The discipline of preparing disclosure material on the Year 2000 
problem will help focus a company on the steps it needs to take to 
address the problem. Analysts, shareholders, customers, and competitors 
will review these disclosures, and the marketplace will help determine 
whether a company is adequately addressing this area. Failure to take 
the necessary steps will result not only in potentially harmful 
consequences when we turn the calendar at the end of December 1999 (if 
not before), but it will also adversely affect a company's stock price 
and customer base if the market judges that it is not devoting the 
necessary time and resources to this project.
                         the role of government
    Even with the current attention to addressing the Year 2000 
problem, we recognize that this is an area that the private sector 
cannot address alone. As noted above, the SEC has addressed this area 
both with respect to disclosure by public companies and through its 
oversight of participants in the securities industry.
    In addition, government performs a vital task by calling attention 
to the problem and reinforcing the need for prompt action in both the 
public and private sectors. In particular, hearings such as these 
surface important issues that require coordinated effort to resolve. We 
commend the leadership of Senate Majority Leader Trent Lott for 
creating this Special Committee to address the Year 2000 Technology 
Problem. We commend the efforts of the Special Committee and its 
Chairman, Senator Bennett. We also applaud President Clinton for 
creating a Year 2000 task force to oversee the federal government's 
Year 2000 conversion progress. The creation of this task force and the 
requirement that cabinet secretaries respond to the President's 
inquiries about the progress of cabinet departments and federal 
agencies will help ensure that the federal government is able to cross 
the bridge into the next millennium.
    Thank you for the opportunity to present this testimony.
                               __________

                Prepared Statement of Tanya Styblo Beder

    Chairman Bennett, Senator Moynihan and Members of the Special 
Committee: I am pleased to appear today to discuss the progress of 
financial firms--both foreign and domestic--in managing the Y2K problem 
as part of the Special Committee's consideration of this topic. My name 
is Tanya Styblo Beder and at present I am a senior partner and one of 
the original founders of Capital Market Risk Advisors, a firm 
specializing in independent risk assessment, valuation and risk 
oversight implementation for all types of financial, operational and 
strategic risk. CMRA's clients include banks, broker-dealers, insurance 
companies, pension funds, mutual funds, hedge funds, thrifts and credit 
unions, custodians, corporations, rating agencies and financial 
software firms in the United States, Europe, Asia, Australia and New 
Zealand, Mexico and Canada. CMRA's work is both reactive and proactive: 
For example, we assess and contain existing risk problems that cause 
firms to bleed money, as well as evaluate and implement programs to 
manage both current and future exposures related to market risk, credit 
risk, operational risk, derivatives risk, and model risk.
    My testimony today represents my personal views, based on my 
experience with financial institutions around the world since the late 
1970's. My opening remarks will summarize my detailed statement. I now 
ask that my detailed statement be entered into the record.
                            general findings
    Y2K is the most crucial issue facing every financial institution in 
the United States, and one of the top two or three issues facing 
institutions in other countries around the world. With only 18 months 
to the turn of the century, I feel that financial institutions and the 
global systems that process their transactions around the world are far 
from compliant. Nonetheless I do not join those who predict a huge 
global recession or prolonged mayhem in the financial markets. This is 
not a small statement for me to make, for as recently as a year ago I 
was very much afraid that Y2K would bring dire consequences to the 
financial sector. My fledgling optimism for financial firms in the 
United States is based on my observations of increasing momentum to 
implement contingency plans that lower risk during the critical period.
    Y2K is big, pervasive and global. Because information is a such 
vital resource for the U.S. economy, the potential impact on 
individuals and public and private entities compares to that of the 
asbestos and oil crises over the past 25 years. Spending to solve the 
technological aspects is expected to run as high as $600 billion, and 
the cost of business continuity issues--interruptions due to Y2K--is 
estimated as high as $1 trillion. The total spending necessary to deal 
with Y2K will exceed the amount the U.S. spent, adjusting for 
inflation, fighting the Vietnam Conflict ($500 billion) but with luck 
will not reach the amount spent to win World War II ($4.2 trillion).
    Analyzing Y2K is like peeling an endless onion--each layer of 
issues leads to another layer, often involving greater degrees of 
interdependence between players in all three facets of the economy--
financial firms, non-financial firms and the public sector. As an 
example, consider a bank. It is one thing to Y2K-proof the PC on each 
employee's desk. It is quite another to determine how each credit in a 
global loan portfolio, plus each counterparty credit in a multi-
trillion dollar derivatives market, will be impacted either directly by 
Y2K or indirectly via exposures to others.
    While a great deal remains to be done, my recent review of dozens 
of key market players--including banks, broker-dealers, pension funds, 
mutual funds, custodians and corporations in major capital markets 
around the world--indicates an increase in the amounts of resources 
devoted to Y2K technology issues as well as to business continuity 
issues. For most large firms, the Y2K hot spots, both pre- and post-
millennium, are better defined than 1 year ago. Battle plans of 
individual institutions have evolved along three primary dimensions:

  --1. Y2K exposures under the firm's control
  --2. Y2K exposures to others
  --3. Contingency plans for Y2K exposures outside the firm's control

    In general, large and medium-size financial firms in the United 
States and Australia have analyzed and are on track to address Y2K 
exposures under their control. Examples of exposures under a firm's 
control include internal systems such as PC's and mainframes; embedded 
system devices such as elevators and security systems; business 
processes such as settlement/clearing activities or the issuance of 
pension or annuity checks; and computer code.
    Many large financial firms, both domestic and foreign, in the 
United States and Australia are now conducting or are close to 
conducting Y2K tests of their corrected internal systems. This is done 
by rolling the clock forward to 15 or so key dates--including the 
Millennium--at institutions' back up and recovery sites, or on-site 
using parallel equipment. This leaves 12 months or so for large 
institutions to address problems that arise.
    As for Y2K exposures to others, large financial firms in the United 
States and Australia also are reviewing in detail their exposures to 
counterparties in financial transactions (including their loan and 
investment portfolios) and to their supply chain. Firms typically 
conduct the review of outside vendors via survey or questionnaire and 
are aware of their reliance on the representations of others. According 
to the GartnerGroup, typically only 25 percent of the surveys are 
returned with response information, and fewer than 10 percent of those 
returned are accurate.
    This disappointing news from vendors has moved banks to consider 
implementing financial transactions designed to reduce exposures--and 
particularly cash flows--from the December 1999 through March 2000 
period. Examples are contingency plans that envision completing year-
end portfolio trades by December 15th 1999; amending loans or entering 
derivatives with customers and counterparties to move cash flows out of 
the December to March period; and contingency planning for malfunctions 
in the wire transfer, settlement, credit card, ATM, and other critical 
systems.
    Although preparations are well underway in the United States and 
Australia, the story is quite different in other countries. Regulators 
around the world continue to encourage and demand Y2K efforts by 
financial firms, but there is wide agreement that financial firms in 
Asia are far more concerned with whether they survive until 2000--an 
issue we have named ``If 2K''--rather than Y2K systems issues. Moody's 
recently reported that 49 major Japanese banks planned to spend $249 
million as a group on Y2K compliance. This amount is only a fraction of 
Citicorp's planned $600 million program, and only equal to Chase's 
planned $250 million.
    Financial firms in Europe are so absorbed by the systems challenges 
posed by European Monetary Union that non-EMU projects, including Y2K 
conversions, are commonly suspended or postponed. A parallel situation 
exists in the United States, with some firms so absorbed by the systems 
challenges of Y2K that they have placed moratoriums on non-Y2K 
projects, such as dealing with a single currency in Europe. This will 
have ramifications for our financial system in the future.
    The Brazilian financial sector is slow--fewer than one-third of the 
banks have started systems conversions. As in Asia, South America is 
more concerned with economic health than Y2K. Russia and Eastern Europe 
is a financial black hole, especially given the significant variation 
in regulatory oversight.
    There is, however, some good news to report. In the United States, 
financial firms are using good old-fashioned prudence to manage their 
risk. They continue to reduce their exposures to the financial firms in 
Asia and Europe either through selling the assets they hold, or via 
some combination of financial transaction amendments and derivatives. 
In Europe, the happy news is that EMU conversion poses systems 
challenges similar to Y2K conversion, hopefully shortening the time 
that will be required to attain Y2K compliance.
                              conclusions
    The dire situation in many Asian countries and implementation of 
European Monetary Union will keep Y2K a low priority, as these markets 
experience some of the largest wealth transfers of all time. U.S. 
financial firms are focused on reducing not only their exposures to 
Asia and Europe, but also to public sector and middle market entities 
within the United States. The creation of contingency plans that remove 
cash flows from the critical Millennium period are prudent measures 
that are the basis of my fledgling optimism as to the risk of Y2K 
exposure of U.S. financial firms.
    In closing, I offer eight areas that keep Y2K chiefs up at night, 
and merit focus by The Special Committee on the Year 2000 Technology 
Problem:

  --1. Telecommunications and Energy.--Most large financial firms 
        conduct 80 percent of their transactions electronically, and 25 
        percent or more of their transactions in the inter-bank market. 
        To summarize the remarks by many Y2K chiefs in this area, ``we 
        don't have a clue:'' this leads me to conclude that reliability 
        on telecommunications is a Y2K wildcard. More than 80 percent 
        of telecommunications managers in British firms polled in 
        February said they feared a ``large'' risk from the millennium 
        bug. The deregulation of industries such as communications and 
        utilities has diverted significant attention from operating 
        issues, making them slow to address millennium questions.
  --2. Exposure to the middle market.--If a company cannot deliver its 
        product because key suppliers cannot deliver, or because key 
        customers cannot complete purchases, the financial consequences 
        are significant. Companies in the Fortune 500 plan to spend an 
        estimated $11 billion on Y2K fixes (including $3.5 billion by 
        the largest financial firms) and are focused seriously on 
        business continuity. The GartnerGroup Study of 6,000 companies 
        in 47 countries indicated that 30 percent of all companies and 
        governments have not started on Year 2000 compliance efforts, 
        but that 88 percent of the laggards were companies with fewer 
        than 2,000 employees. Small companies are more likely to be 
        able to operate manually and to be able to manage their full 
        supply chain in a crisis. But middle market companies are 
        likely too complex to operate manually, and probably have not 
        devoted sufficient resources to Y2K, and so are another 
        wildcard. Some analysts predict that up to 20 percent of middle 
        market companies will have problems with Y2K, leading to 
        significant increases in bankruptcies of currently healthy 
        firms. Of particular concern in the financial sector are 
        regional U.S. banks that control about 20 percent of U.S. 
        banking assets, and regional insurers who supply coverage for 
        30 percent of Americans.
  --3. Information sharing.--Even though a great many Y2K problems have 
        been solved, information sharing among parties who stand to 
        benefit from others' knowledge is hampered by the fear of 
        litigation. During my review, several Y2K chiefs commented ``we 
        are happy to discuss Y2K, however under legal advice there will 
        be issues that we will not be able to discuss, at least not on 
        the record.'' Future litigation costs surrounding Y2K are 
        estimated to range between $1 trillion and $4 trillion--an 
        amount over and above the $1.6 trillion estimate I mentioned 
        earlier for technology fixes and direct business losses. 
        Perhaps a wartime-type profiteering limitation should be 
        considered for litigation costs, or maximum allowable damage 
        levels, in order to promote the sharing of information.
  --4. Model risk.--Moratoriums on systems projects outside of Y2K or 
        EMU have caused some financial firms to postpone critical 
        reviews and updates of their other financial models. This 
        inadvertent neglect creates a potential time bombs for the 
        future. Examples of recent ``model losses'' are those reported 
        by Bank of Tokyo-Mitsubishi, NatWest, and Swiss Bank in their 
        derivatives books. Future model losses are also likely to be 
        driven by changes in credit spreads, correlations and 
        volatilities driven by changes in relationships among 
        currencies and interest rates and realities in the aftermath of 
        the Asian crisis, EMU and Y2K.
  --5. Fraud.--An additional concern for many Y2K chiefs is the 
        potential for fraud. Some firms have corrected hundreds of 
        millions of lines of code, using automated software sniffers 
        versus manual intervention. Those who have relied on manual 
        code correction are more susceptible to fraudulent transfers or 
        other sabotage that may cause harm at future dates. Given the 
        pressure of completing the Y2K fixes, few firms have the luxury 
        of checking each manual change to their source code or other 
        software.
  --6. Data issues in rolling the clock forward during Y2K testing.--
        The question to pose is ``How robust are the tests?'' The 
        practice of rolling the clock forward to test key dates--
        including the Millennium--requires far more than changing the 
        date in a computer. The asset, liability and transactions data 
        for the firm must be rolled forward as well, or the tests may 
        not fully test a future transaction and thus give a false sense 
        of security.
  --7. Impact of mergers and acquisitions.--The continued global 
        consolidation of financial firms poses ongoing challenges to 
        established Y2K programs. In the United States alone, 72 
        percent of the banks have had their computing systems impacted 
        by a recent merger or acquisition. The challenge to managers 
        and regulators is significant--a good pre-merger report card 
        may be invalidated by disparities in systems in the combined 
        entity.
  --8. Liquidity.--38 percent of IT professionals say they may withdraw 
        personal assets from banks and investment companies just prior 
        to the Millenium, to protect their personal finances from year 
        2000 failures. If financial institutions implement contingency 
        plans that prevent preclude use of electronic systems, and 
        consumers thus have to withdraw extra cash to avoid the risk of 
        credit card and ATM failures--for example, to cover their 
        holiday spending in December 1999--how much additional 
        liquidity will the banking system need?

    Thank you. I welcome any questions you may have.
                               __________

            Prepared Statement of Chairman Robert F. Bennett

    Good morning and welcome to the second hearing of the Senate 
Special Committee on the Year 2000 Technology Problem. I want to thank 
Senator Moynihan for inviting us to hold this hearing in New York City, 
the international financial center and a most appropriate venue for a 
hearing in which we will examine the Year 2000 readiness of the 
financial services industry from a global perspective.
    In my role as Chairman of the Senate Banking Committee's 
Subcommittee on Financial Services and Technology, I have examined the 
Year 2000 preparedness of the financial services industry for more than 
a year. Throughout this process, one message has come across clearly 
and consistently. While representatives of the financial services 
industry in the United States are cautiously optimistic about their own 
remediation efforts, international Year 2000 preparedness presents a 
significant wildcard. The United States financial services industry is 
privy to little specific information about the Year 2000 preparedness 
of foreign countries and has yet to fully consider and plan for the 
possible consequences if there are widespread systems failures 
overseas.
    It should be clear to everyone in this country that our economy has 
become a global economy. The concern over the current economic crisis 
in Asia illustrates how U.S. companies can be vulnerable to economic 
downturns overseas. The financial services industry is particularly 
vulnerable in this environment. American financial institutions deal 
with their international counterparts virtually every minute of the day 
as they settle transactions, execute currency trades, and operate 
offices throughout the world. Americans have invested significantly in 
foreign stocks, primarily through investment funds, and the stocks of 
American companies are traded at all hours of the day and night in 
markets throughout the world.
    Given this high level of interaction, it is not surprising to hear 
witnesses testify, as they have before the banking committee, that any 
significant computer systems failure abroad could have a devastating 
impact in the United States. What we have not heard, however, is what 
this country plans to do to manage those risks. We have called this 
hearing to begin to assess the Year 2000 preparedness of foreign 
countries and determine just where and how the United States may be 
vulnerable. It is no longer sufficient to discuss the international 
risk generally, we must identify the specific risks, do what we can to 
solve the problems, and develop and implement contingency plans for the 
inevitable failures.
                               __________

                Prepared Statement of Richard R. Lindsey

    I appreciate the opportunity to testify on behalf of the Securities 
and Exchange Commission (Commission or SEC) to express its views on the 
readiness of the securities industry and publicly held companies to 
meet the information processing challenges presented by the Year 2000.
    It has become clear to American business--and American regulators--
that most of the world's computer systems must be modified before the 
new millennium. This poses an especially great challenge for the U.S. 
securities industry for three reasons. First, the industry is enormous. 
Currently, there are over 1,100 investment company complexes, 8,300 
registered broker-dealers, 1,248 transfer agents, and 24 self-
regulatory organizations (SROs), including securities exchanges, the 
National Association of Securities Dealers, Inc. (NASD), and clearing 
agencies. Second, the industry relies heavily on computerized 
information processing technology. Third, industry participants are 
highly interconnected both within the United States and across 
international borders.
    These three factors combined underscore the need for the U.S. 
securities industry to properly assess the extent of the Year 2000 
problem, to correct (or remediate) systems that are not compliant, and 
to engage in coordinated testing of those systems. A failure by the 
industry to do these things could endanger the nation's capital 
markets, as well as the safety of investor assets.
    Last month, the Commission staff submitted its second report 
requested by Congressman Dingell on the progress made by the securities 
industry and public companies toward meeting the information processing 
challenges of the Year 2000.\1\ This testimony outlines the Commission 
staff's findings, which are described in further detail in the SEC 
Staff Report. Based on the information we have received so far, the SEC 
believes the securities industry is making substantial progress towards 
addressing potential systemic risks to the U.S. financial services 
system as a result of the Year 2000 technology challenge. We also 
anticipate that upcoming industry testing will provide a clearer 
picture.
---------------------------------------------------------------------------
    \1\ See Second Report on the Readiness of the Securities Industry 
and Public Companies to Meet the Information Processing Challenges of 
the Year 2000, SEC Staff Report, June 1998.
---------------------------------------------------------------------------
          i. industry progress toward meeting year 2000 goals
    Like any business problem, addressing the problem of Year 2000 
compliance in the U.S. securities industry involves several steps. 
Industry participants must first become aware of the problem and assess 
how best to address their compliance needs. The problem must then be 
corrected, or remediated. Remediation, however, requires testing to 
ensure that it is complete and will be effective. Finally, industry 
participants must develop contingency plans in order to respond quickly 
to unforeseen problems as they arise.
A. Awareness and assessment
    Throughout 1996 and early 1997, the Commission focused on raising 
awareness of the Year 2000 problem throughout the securities industry 
and the need to address it. Through speeches, direct outreach to 
regulated entities, inspections, and examinations, the Commission 
encouraged the industry to develop Year 2000 plans and to adequately 
budget for them. In October 1997, Chairman Levitt sent a letter to 
every broker-dealer and non-bank transfer agent in the United States 
urging them to take the Year 2000 problem seriously and to address it 
on a timely basis. In November 1997, he sent a similar letter to every 
registered investment adviser.
    The Commission is confident that the securities industry is aware 
of both the scope and nature of the Year 2000 problem. We have been 
pushing hard to ensure that the entire industry appreciates the full 
magnitude of the difficulties that will occur if all industry 
participants do not take immediate steps to implement a Year 2000 
compliance program. We have stressed how important it is to the 
industry to be Year 2000 compliant on time and will have no tolerance 
for laggards.
B. Remediation
    During the past year, the Commission has shifted its focus from 
educating members of the industry to monitoring their progress in 
solving the problem. Progress is monitored through direct oversight and 
examinations, as well as through collaboration with SROs and industry 
groups. Most of the Commission's information to date has come from 
self-reporting by industry participants. We believe, however, that we 
have developed a meaningful picture of Year 2000 progress in the 
securities industry.
C. Industry-wide testing
    The Year 2000 remediation efforts for the securities industry are 
complicated by the large number of participants and by the 
extraordinary interdependence that exists among almost all of those 
participants. Broker-dealers, exchanges, clearing organizations, 
depositories, transfer agents, banks, and suppliers of market 
information, among others, must all exchange, process, balance, confirm 
and settle millions of transactions every trading day.
    Each firm individually can prepare its own systems for the Year 
2000, but no one can say with certainty how these systems will perform 
when interconnected. Thus, integrated testing among participants in a 
Year 2000 environment that simulates as many aspects of a normal 
trading day as possible is the only meaningful way to reduce the risks 
of failure to the lowest possible level. Recognizing this, the SIA has 
taken a strong, proactive lead in organizing industry efforts.
    In 1996, the securities industry, led by the SIA, established an 
ambitious Year 2000 completion schedule. Under this schedule, all 
exchanges and clearing agencies, member firms, and participants are 
expected to have completed remediation, testing, and implementation of 
their systems by December 1998. The SIA has formed a number of 
committees to address key elements of the Year 2000 problem, such as 
industry-wide testing, third-party software, data provider interfaces, 
legal and regulatory issues, and exchange and utility testing strategy 
and schedules.
    During 1996 and 1997, the SIA developed working groups to develop 
test scripts and plans for different product groups (e.g., equities, 
mutual funds, mortgage-backed securities, etc.). This division is 
essential since each product has its own unique trading characteristics 
and processing cycle. The products that make up the SIA test program 
include equities, listed options, municipal bonds, corporate bonds, 
unit investment trusts, mutual funds, futures, asset-backed securities, 
and U.S. government securities. For each product group, there is a 
separate set of participants, test plans, test dates, and test scripts.
    The SIA's program addresses four specific aspects of Year 2000 
preparation and testing: (1) coordinating the testing of the exchanges, 
clearing corporations, and depositories; (2) identifying vendor 
compliance problems; (3) defining a test schedule for data feeds; and 
(4) implementing the industry-wide test program.
    Preliminary testing for equities is scheduled to begin this month. 
When testing begins, over two dozen firms will initiate ``end-to-end'' 
testing for trading in equities, options, municipal bonds, corporate 
bonds, unit investment trusts, and mutual funds. Tests for other 
product groups will take place later this year and firms will also be 
conducting bilateral tests with their counterparties. Participation in 
industry-wide testing will be opened to the remainder of the industry 
in March 1999. The primary focus of the industry-wide testing will be 
on the industry's more than 300 clearing broker-dealers, since it is 
those firms that must secure and assume financial responsibility for 
every trade executed in the market. Testing will not only indicate how 
well the industry is prepared for Year 2000, but also will help 
identify potential trouble spots where contingency plans will be 
needed.
    Because the securities industry relies heavily on unregulated 
third-party vendors, it is important that they also be included in 
testing. Third-party vendors provide software, hardware, system 
maintenance, information, and services that link markets, broker-
dealers, and customers together. Regulated entities using these vendors 
do not control how vendors choose to address the Year 2000 problem, yet 
are responsible for ensuring the integrity of their own operations 
after January 1, 2000. The substantial use of third-party vendors by 
regulated market participants further complicates the Year 2000 problem 
and makes their inclusion in testing critical.
    At this time, it is difficult to quantify how prepared third-party 
vendors are for Year 2000. The SEC staff and the industry have been 
working closely with these vendors, however, to minimize potential 
problems. As part of the Commission's contingency planning process, the 
Commission staff has also begun to compile a Contingency Contact List, 
which will include the names, numbers, and areas of expertise of Year 
2000 personnel at major vendors.
D. Contingency planning
    No matter how much progress the industry makes in addressing the 
Year 2000 challenge, it is virtually certain that some problems will 
not be discovered or will not be remediated in time. It is, therefore, 
imperative that the industry engage in contingency planning both to 
minimize disruptions and to correct them quickly as they occur. To help 
oversee this effort, the Commission is participating in various 
government and industry contingency planning initiatives.
    For example, the Commission staff participates in the Contingency 
Planning Working Group, which is jointly sponsored by the Federal 
Reserve Bank of New York, the SIA, and the New York Clearing House. 
Other participants include SRO's, broker-dealers, banks, regulators, 
vendors, and industry groups. The Contingency Planning Working Group 
was formed to share information on the industry's Year 2000 compliance 
efforts and to address potential system risk implications. While the 
focus of this group is principally on the U.S. domestic market, it also 
intends to identify cross-border issues and determine whether these 
issues are being addressed.
    The Commission is also working with other financial regulators to 
establish contingency plans. Under the leadership of the SEC, the Year 
2000 subgroup of the President's Working Group on Financial Markets is 
focused on contingency planning issues. Each SRO is also working on 
comprehensive Year 2000 contingency plans. In addition, the SEC is 
developing its own contingency plans.
E. Progress of SEC-regulated entities
    Today, a meaningful picture of Year 2000 progress in the securities 
industry is beginning to emerge. The picture shows that progress is, 
indeed, being made.
            1. Self-regulatory organizations
    SRO's include the nation's securities exchanges, its clearing 
agencies, and the NASD. SRO's play a key role in both operating the 
nation's securities markets and in overseeing the companies and 
individuals who participate in those markets.
    Since 1996, the Commission staff has conducted four surveys of the 
SROs' Year 2000 efforts. The most recent survey requested: (1) a 
narrative description of what each SRO was doing to ensure Year 2000 
progress; (2) numerical data regarding those systems critical to 
ongoing operations; (3) a description of any problems in meeting time 
schedules; and (4) a discussion of their contingency planning 
efforts.\2\
---------------------------------------------------------------------------
    \2\ The staff requested that the SROs adopt the Office of 
Management and Budget reporting format to report the progress made in 
moving those systems through the various phases of achieving Year 2000 
compliance.
---------------------------------------------------------------------------
    The information gathered to date indicates that the SROs are on 
schedule to be compliant on time. All SROs have completed the awareness 
and assessment phases of the Year 2000 process, and are far enough 
along in the remediation process to begin the first phase of industry 
testing, which is scheduled to begin later this month. The progress of 
the SROs is summarized in the following tables. The first table 
addresses securities exchanges and the NASD; the second addresses 
clearing agencies.

                       STATUS OF EXCHANGE AND NASD MISSION-CRITICAL SYSTEMS BEING REPAIRED
----------------------------------------------------------------------------------------------------------------
                                      Assessment        Remediation         Testing           Implementation
----------------------------------------------------------------------------------------------------------------
Milestone to be completed.......  Mar. 1998........  Nov. 1998.......  Nov. 1998.......  Dec. 1998
Percent completed as of May 15..  99.2 \1\.........  73.1............  51.7............  26.0
----------------------------------------------------------------------------------------------------------------
\1\ As of the date of this testimony, the assessment phase has been completed for 100 percent of exchange and
  NASD mission-critical systems.


                        STATUS OF CLEARING AGENCY MISSION-CRITICAL SYSTEMS BEING REPAIRED
----------------------------------------------------------------------------------------------------------------
                                      Assessment        Remediation         Testing           Implementation
----------------------------------------------------------------------------------------------------------------
Milestone to be completed.......  Jan. 1998........  Sept. 1998......  Dec. 1998.......  Dec. 1998
Percent completed as of May 15..  100.0............  83.6............  62.9............  28.6
----------------------------------------------------------------------------------------------------------------

    The staff believes that the SROs have made substantial progress, 
and plans to continue monitoring their efforts closely. The staff will 
also continue to monitor the SRO membership inspection and surveillance 
programs to ensure that they continue to vigorously address the Year 
2000 compliance of their members.
            2. Broker-dealers
    Broker-dealers are the primary intermediaries between investors and 
the securities markets. They are at the heart of trading in our 
markets. For that reason, we have made it very clear to broker-dealers 
that Year 2000 failures will have severe consequences. For example, the 
Commission staff has advised broker-dealers that any broker-dealer that 
cannot maintain accurate books and records due to Year 2000 problems 
could be in violation of the Commission's books and records rules.\3\ 
Similarly, any broker-dealer that is unable to determine its net 
capital requirements or the amount of customer assets in its possession 
due to Year 2000 problems could become subject to Commission action, 
which could result in closure of the firm and the transfer of its 
customer accounts to another broker-dealer.
---------------------------------------------------------------------------
    \3\ Securities Exchange Act Rule 17a-3. See also Securities 
Exchange Act Rel. No. 39724 (Mar. 5, 1998), 63 FR 12056 (Mar. 12, 
1998).
---------------------------------------------------------------------------
    Under the U.S. system of self-regulation, the primary oversight 
responsibility for broker-dealers resides with the SROs. To monitor 
broker-dealer compliance efforts, the SEC has been working closely with 
both the NASD and the New York Stock Exchange (NYSE). Earlier this 
year, the NASD mailed surveys to more than 5,500 member firms to 
evaluate their level of preparedness for Year 2000. The NYSE also 
surveyed its members regarding Year 2000 efforts.\4\ Results of the SRO 
surveys confirmed the expected--significant but uneven progress in the 
broker-dealer community.
---------------------------------------------------------------------------
    \4\ Broker-dealer members who are members of both the NASD and NYSE 
were permitted to respond to the NYSE survey only. Therefore, NASD 
survey efforts target its 5,238 ``designated members.'' As of June 4, 
1998, 5,080 member firms had responded to the NASD survey. A total of 
306 responses representing 327 broker-dealers were received in response 
to the NYSE survey.
---------------------------------------------------------------------------
    The following tables reflect how broker-dealers estimated their 
progress in achieving Year 2000 compliance.

                                       FIRMS RESPONDING TO NYSE SURVEY \1\
----------------------------------------------------------------------------------------------------------------
         Percent complete (as of 3/31/98)            Assessment    Remediation     Testing      Implementation
----------------------------------------------------------------------------------------------------------------
100 percent complete..............................           89            48            34                  32
51-99 percent completed...........................            4            21            13                  16
1-50 percent completed............................            2            21            24                  20
0 percent completed...............................            0             3            13                  14
No response.......................................            4             7            16                 18
----------------------------------------------------------------------------------------------------------------
\1\ Due to rounding, some of these figures do not add up to 100 percent.


                                         FIRMS RESPONDING TO NASD SURVEY
----------------------------------------------------------------------------------------------------------------
                                                                            Firms         Firms         Firms
                                                              Firms       reporting     reporting     reporting
                                                            reporting    programs  1  programs  40  programs  70
                                              Number  of   programs 0      percent       percent       percent
                Type of firm                    firms        percent     through  39   through  69  through  100
                                              reporting     complete       percent       percent       percent
                                                            (percent)     complete      complete      complete
                                                                          (percent)     (percent)     (percent)
----------------------------------------------------------------------------------------------------------------
Introducing firms..........................      2,686             17            16            17            50
Clearing firms.............................        322             10            25            23            42
Other firms \1\............................      1,339             16            15            17            52
                                            --------------------------------------------------------------------
      Total................................  \2\ 4,347             16            17            17           50
----------------------------------------------------------------------------------------------------------------
\1\ The NASD identified firms in its ``other'' category as insurance companies, investment companies, merger and
  acquisition companies, limited partnerships, and other firms not specifically designated as introducing or
  clearing firms.
\2\ 733 of the 5,080 firms that responded to the NASD's survey did not respond to this question.

    It appears that many of the firms that reported the zero percent 
completion are small firms relying on third-party vendors for their 
information processing, and, therefore, have no direct remediation 
programs. The Commission staff and NASD are in the process of following 
up with broker-dealers to determine whether this response is 
reasonable. In addition, the Commission will focus on those broker-
dealers who did not respond to the NASD survey, as well as those 
members who provided incomplete responses. As industry testing begins 
this summer and the Commission and the SROs obtain a more complete 
picture of the progress broker-dealers are making in their Year 2000 
programs, we will target firms that appear to be lagging behind.
    While SRO surveys have provided much useful information about the 
progress of broker-dealers, the Commission has determined that survey 
data alone is not enough. In order to make broker-dealers directly 
accountable to the Commission with respect to their Year 2000 efforts, 
last week the SEC adopted a rule that requires broker-dealers to file 
two reports with the SEC regarding their Year 2000 compliance. Broker-
dealers are required to file the first report by August 31, 1998. The 
second report must be filed by April 30, 1999.
    This new Year 2000 reporting requirement differentiates between 
broker-dealers based on their size, type of business, and relative risk 
they pose to customers and the market if they are not Year 2000 
compliant. Smaller broker-dealers are only required to complete an 
objective check-the-box style Year 2000 questionnaire. Larger broker-
dealers, in addition to completing the Year 2000 questionnaire, are 
required to provide a narrative discussion of their efforts to prepare 
for the Year 2000. For example, larger broker-dealers are required to 
discuss (1) whether the firm has a written Year 2000 plan that 
addresses all major computer systems for the firm worldwide; (2) the 
firm's current progress on each stage of its Year 2000 project, 
including the results of both its internal and external testing; and 
(3) whether the firm has written contingency plans.
    Unlike the proposed rule, the rule as adopted does not require an 
independent public accountant to review several specific assertions 
made by the broker-dealer's management. Based on comments received, 
however, the Commission is soliciting additional comments on the 
appropriate level of independent public accountant review.
    The broker-dealer's Year 2000 reports will assist the Commission 
staff and the SRO's in coordinating oversight efforts. The new 
reporting requirements will also reinforce the need for broker-dealers 
to aggressively prepare for the Year 2000.
            3. Transfer agents
    Transfer agents play an integral role in the national clearance and 
settlement system by recording changes in securities ownership, 
distributing dividends, and performing other related functions. This 
role makes it very important that transfer agent systems be Year 2000 
compliant.
    The information the Commission staff has about non-bank transfer 
agents' progress in addressing the Year 2000 issue is mixed. During 
1996 and 1997, SEC examinations focused on raising the Year 2000 
awareness of non-bank transfer agents.\5\ Ninety-eight percent of those 
non-bank transfer agents examined \6\ indicated that action to correct 
Year 2000 deficiencies had already been taken or was planned. In early 
1998, SEC examinations of non-bank transfer agents shifted to a review 
of specific programs and targets for implementation. A more recent 
survey by the SEC staff, however, yielded less encouraging results.
---------------------------------------------------------------------------
    \5\ Under Section 17A of the Securities Exchange Act of 1934, each 
transfer agent must register with the Commission. The federal banking 
agencies, however, are the appropriate regulatory agencies (ARAs) for 
bank transfer agents. These bank transfer agents have either the Board 
of Governors of the Federal Reserve System, the Office of the 
Comptroller of the Currency, or the Federal Deposit Insurance 
Corporation as their ARA. The Commission is the ARA for non-bank 
transfer agents. There are approximately 1,248 transfer agents 
registered with the Commission, and the Commission is the ARA for 
approximately 695 of them.
    \6\ The SEC examined 83 non-bank transfer agents.
---------------------------------------------------------------------------
    In January 1998, the staff conducted a survey of non-bank transfer 
agents asking whether the board of directors had approved and funded a 
Year 2000 plan and what levels of management are responsible for 
addressing Year 2000 problems. Of the transfer agents responding to the 
survey, 76.4 percent reported that they had developed a Year 2000 plan, 
and 10.1 percent reported that, although they had no Year 2000 plan, 
their vendors did. 13.4 percent of those transfer agents that 
responded, however, indicated that they had no Year 2000 plan at that 
time.
    The Commission has also adopted a rule, similar to that adopted for 
broker-dealers, that requires non-bank transfer agents to file with the 
Commission new Form TA-Y2K. Part I of Form TA-Y2K is a check-the-box 
style Year 2000 report, which will provide the status of the transfer 
agent's Year 2000 remediation efforts. Generally, non-bank transfer 
agents (other than small transfer agents and issuer transfer agents) 
must also complete Part II of Form TA-Y2K. Part II requires that non-
bank transfer agents provide a narrative discussion of their efforts to 
address Year 2000 Problems.
    Each non-bank transfer agent must file its first Form TA-Y2K with 
the Commission by August 31, 1998. The second Form TA-Y2K must be filed 
with the Commission by April 30, 1999. As with broker-dealers, the data 
collected under this rule would assist the Commission in identifying 
weaknesses in transfer agent compliance. The Commission's staff plans 
to look carefully at those transfer agents that do not appear to be 
making adequate progress.
            4. Investment advisers and investment companies
    Investment advisers assist both individuals and investment 
companies in making investment decisions and, today, investment 
companies (such as mutual funds) are one of the most popular means 
through which individual investors participate in the securities 
market. The Commission's approach to addressing Year 2000 compliance by 
investment advisers and investment companies mirrors the approach taken 
with SROs, broker-dealers, and transfer agents. First, the Commission 
has been working with an industry group, the Investment Company 
Institute (ICI), to obtain information in order to monitor the progress 
of investment advisers and investment companies in addressing the Year 
2000 problem. Second, through inspections and examinations, the 
Commission staff is obtaining additional, independent information on 
their progress. Third, last month, the Commission proposed a rule 
similar to those proposed for broker-dealers and transfer agents that 
would require registered investment advisers to report their progress, 
as well as the progress of any investment companies they advise, in 
making systems Year 2000 compliant.
    The proposed rule would require reports from most investment 
advisers registered with the Commission (an adviser that has at least 
$25 million of assets under management or is an adviser to a registered 
investment company).\7\ Advisers would report twice--once 30 days after 
the effective date of the rule and again eight months later.\8\
---------------------------------------------------------------------------
    \7\ As provided in Section 203A of the Investment Advisers of 1940, 
small investment advisers satisfying specified criteria are not 
required to register with the Commission.
    \8\ Investment Advisers Act Rel. No. 1728 (June 30, 1998).
---------------------------------------------------------------------------
    Current information indicates that while funds are making progress 
toward resolving their Year 2000 problems, more needs to be done. A 
majority of funds responding to a recent ICI survey indicate that they 
plan to complete their Year 2000 programs by December 1998.

                                  PROGRAM COMPLETION DATES FOR MUTUAL FUNDS \1\
----------------------------------------------------------------------------------------------------------------
                               1998 2nd Q                                                             1999 post
                               or earlier    1998 3rd Q    1998 4th Q    1999 1st Q    1999 2nd Q       2nd Q
----------------------------------------------------------------------------------------------------------------
Percent of funds............            3             5            72             8            11            1
----------------------------------------------------------------------------------------------------------------
\1\ Information reflects responses to the ICI's questionnaire dated March 16, 1998. Responses were received from
  77 investment company complexes between March 16 and June 3, 1998, and represent 66.0 percent of industry
  assets. Two of these firms did not provide a response to the question on completion date.

    The ICI has also urged its members to participate in the SIA's 
industry-wide testing program, and several major investment company 
complexes will participate in the initial round of testing that begins 
this month.
                  ii. international year 2000 efforts
    The global nature of securities trading presents one of the most 
difficult Year 2000 challenges. Considerable work on Year 2000 
compliance remains to be done in countries throughout the world.
    The Commission is actively encouraging financial regulators in 
other countries to address the Year 2000 problem. In October 1997, 
Chairman Levitt spoke to the International Federation of Securities 
Exchanges to encourage it to take an active role in promoting 
remediation and contingency planning by its member exchanges.
    In addition, the Commission works within the International 
Organization of Securities Commissions (IOSCO) to raise international 
awareness of Year 2000 issues. In 1997, IOSCO issued two communiques 
urging its members and market participants to take appropriate action 
to address Year 2000 issues. Soon after, in early 1998, IOSCO conducted 
a survey of its members regarding Year 2000 compliance, and is 
currently conducting a second survey, focusing on testing and 
contingency planning. The Commission expects IOSCO to publish the 
survey results at its meeting this September.\9\
---------------------------------------------------------------------------
    \9\ IOSCO continues to update the special Year 2000 section on its 
web site at <http://www.iosco.org>. This section includes information 
on the testing and readiness of the securities industry and markets 
worldwide.
---------------------------------------------------------------------------
    Other international groups are also working to address the Year 
2000 problem. In September 1997, the Basle Committee on Banking 
Supervision \10\ issued a technical paper for banks that sets forth a 
strategic approach for the development, testing, and implementation of 
Year 2000 solutions. It also discusses the role that central banks and 
bank supervisors need to play in promoting awareness of the issue and 
enforcing action. In April 1998, the Basle Committee, IOSCO, the G-10 
Committee on Payment and Settlement Systems (CPSS),\11\ and the 
International Association of Insurance Supervisors (IAIS) \12\ jointly 
sponsored a Roundtable on the Year 2000. Discussions at the Roundtable 
emphasized that private and public sector bodies should coordinate on a 
number of important issues and approaches, including: (1) strengthening 
and widening external testing programs; (2) improving information 
sharing among market participants and their vendors and service 
providers; (3) fostering increased disclosure by corporations of their 
Year 2000 testing and readiness results; and (4) reinforcing the role 
of oversight bodies such as supervisors and auditors.
---------------------------------------------------------------------------
    \10\ The Basle Committee was established by the central bank 
Governors of the Group of Ten countries in 1975. It consists of senior 
representatives of banking supervisory authorities and central banks 
from Belgium, Canada, France, Germany, Italy, Japan, Luxembourg, the 
Netherlands, Sweden, Switzerland, the United Kingdom, and the United 
States.
    \11\ The CPSS maintains a special section on the Bank for 
International Settlement's web site at <http://www.bis.org> that 
provides information on the testing plans and readiness status of 
payment and settlement systems worldwide.
    \12\ The IAIS is working with its members to urge insurance 
companies to implement detailed action plans to resolve the Year 2000 
problems associated with their business activities.
---------------------------------------------------------------------------
    The Roundtable sponsors also established the Joint Year 2000 
Council, chaired by the Federal Reserve Bank of New York. The Joint 
Council's objectives include, among other things, serving as an 
information clearinghouse on Year 2000 issues, serving as a locus for 
international coordination of Year 2000 testing programs, and 
coordinating international contingency efforts. The Council will meet 
regularly and has agreed on a wide range of initiatives to draw 
attention to the Year 2000 problem.
    The private sector is also undertaking initiatives to promote 
international Year 2000 compliance. The SIA, in conjunction with its 
International Operations Association, sent an ``international 
scorecard'' to over 700 foreign regulators, exchanges, banks, clearing 
organizations, and broker-dealers asking for information about their 
Year 2000 efforts. While the SIA is still collecting and analyzing data 
from the scorecard, one immediate result has been requests by foreign 
entities to participate in the SIA's testing program. The London 
Investment Bankers Association has agreed to take the lead in 
coordinating test efforts with the United Kingdom, while the Swiss 
Banking Corporation has agreed to act as coordinator in continental 
Europe.
    In addition, a number of banks and investment firms have formed the 
Global Year 2000 Coordinating Group.\13\ The Coordinating Group plans 
to gather and disseminate information on the Year 2000 readiness of 
cash payment and settlement systems, securities clearance and custody 
systems, exchanges, and foreign exchange and derivatives trading firms. 
It is also planning a series of regional meetings with regulators and 
industry participants in Asia, Latin America, and Europe. Membership in 
the Coordinating Group is open to all interested financial services 
providers.
---------------------------------------------------------------------------
    \13\ The Coordinating Group is currently comprised of 
representatives from 73 financial institutions in 19 countries: 
Argentina, Australia, Brazil, Canada, China, Denmark, France, Germany, 
Hong Kong, Italy, Japan, Mexico, the Netherlands, Singapore, South 
Korea, Spain, Switzerland, the United Kingdom and the United States.
---------------------------------------------------------------------------
    Despite these efforts, international Year 2000 compliance remains 
an area of concern for the Commission. The Commission plans to continue 
working actively with regulators in other countries and with 
international working groups to address Year 2000 concerns. In 
addition, it will continue to urge U.S. firms to press their 
international counterparties for a more responsive approach abroad. 
Nevertheless, risks from Year 2000 non-compliance abroad must be a 
major focus of contingency planning for U.S. firms.
                         iii. issuer disclosure
    The Commission staff has advised public companies and investment 
companies that they must disclose any material effects that the Year 
2000 problem or their own Year 2000 remediation efforts will have on 
their businesses. To date, the staff has published a legal bulletin on 
issuers' disclosure obligations, and has surveyed the quantity and 
quality of the disclosure made by public issuers and investment 
companies.\14\ Although the number of issuers discussing Year 2000 has 
increased significantly, the staff is concerned that much of the 
disclosure is not informative.
---------------------------------------------------------------------------
    \14\ For detailed results of the survey of public issuers, see 
Staff of the United States Securities and Exchange Commission, Year 
2000 Disclosure Task Force Survey (June 1998). A copy of the survey is 
available on the Commission's web site at <http://www.sec.gov>.
---------------------------------------------------------------------------
A. Staff legal bulletin No. 5
    The Commission's disclosure framework requires that public 
companies and investment companies disclose material information about 
themselves to the public. This enables investors to make informed 
investment decisions. Although the Commission's disclosure framework 
requires companies to provide specific categories of information, it is 
flexible enough to enable companies to tailor disclosure to their 
particular circumstances. Generally, the Commission relies on this 
general framework and does not provide specific guidance on any 
particular issue. However, the Commission staff felt the Year 2000 
issue merited an exception and provided specific guidance as to what 
public companies should consider when disclosing information about 
their Year 2000 readiness.
    On October 8, 1997, the Divisions of Corporation Finance and 
Investment Management issued a joint Staff Legal Bulletin reminding 
those entities with disclosure obligations that the Commission's rules 
and regulations apply to Year 2000 issues, like any other significant 
issue.\15\ On January 12, 1998, the Divisions revised the Staff Legal 
Bulletin to provide more specific guidance under existing Commission 
rules and regulations.\16\ The staff intended this guidance to 
alleviate the uncertainty expressed by some members of the accounting 
and legal professions regarding what a company should disclose about 
its Year 2000 issues.\17\
---------------------------------------------------------------------------
    \15\ A staff legal bulletin represents the staff's views only and 
is not a rule, regulation, or statement of the Commission.
    \16\ Revised Staff Legal Bulletin No. 5 supersedes the original 
bulletin and is located on the SEC's web site at <http://www.sec.gov/
rules/othrindx.htm>.
    \17\ In addition, Senate Financial Services and Technology 
Subcommittee Chairman Robert Bennett has introduced legislation, the 
Year 2000 Computer Remediation and Shareholder Protection Act of 1997 
(S. 1518), which would require public companies to disclose their Year 
2000 issues.
---------------------------------------------------------------------------
    For corporate issuers, the revised Staff Legal Bulletin explains 
that public companies may have a Year 2000 disclosure obligation in 
their Commission filings because an applicable form or report requires 
the disclosure. The regulation most likely to trigger disclosure on a 
Commission form or report is ``Management's Discussion and Analysis of 
Financial Condition and Results of Operations,'' or ``MD&A.'' \18\ In 
their MD&A, companies must discuss known trends, demands, commitments, 
events, or uncertainties that are likely to have a material impact on 
them.
---------------------------------------------------------------------------
    \18\ See Item 303 of Regulations S-K and S-B.
---------------------------------------------------------------------------
    In the revised Staff Legal Bulletin, the staff described three 
circumstances under which a company should consider its Year 2000 
issues to be material.\19\ The first is if the company has not yet 
started to assess its Year 2000 issues. The second is if the company 
has started to assess its Year 2000 issues, but has not yet determined 
whether these issues are material. The third is if, after assessing its 
Year 2000 issues, the company has determined that these issues could be 
material to its business, operations, or financial condition, 
irrespective of any remediation plans or insurance coverage. In other 
words, the company must have determined the materiality of its Year 
2000 issues on a ``gross'' basis.
---------------------------------------------------------------------------
    \19\ This guidance is not exclusive. Compliance with the Staff 
Legal Bulletin does not necessarily constitute compliance with the 
disclosure requirements of the federal securities laws. Companies have 
been advised that they need to consider these laws and the SEC's rules 
and regulations in addition to the bulletin.
---------------------------------------------------------------------------
    Once a company has determined that its Year 2000 issues are 
material, the revised Staff Legal Bulletin provides specific guidance 
on what type of information to disclose. The staff expects a company to 
disclose, at a minimum, its plans to address the Year 2000 issues that 
affect its business and operations, and its timetable for carrying out 
these plans. When material, the staff also expects a company to 
disclose (1) an estimate of its Year 2000 costs and any material impact 
it expects these costs to have on its operations, liquidity, and 
capital; (2) its historical Year 2000 costs; \20\ and (3) how the 
company could be affected if its customers, suppliers, and other 
constituents are not Year 2000 ready. Boilerplate disclosure is 
discouraged.
---------------------------------------------------------------------------
    \20\ Revised Staff Legal Bulletin No. 5 did not request this 
disclosure. Rather, companies are required to make this type of 
disclosure in the ``Results of Operations'' section of MD&A.
---------------------------------------------------------------------------
    Investment companies are also obligated to assess whether Year 2000 
disclosure is required, including whether such disclosure is needed in 
registration statements. The Staff Legal Bulletin states that under the 
Investment Advisers Act of 1940 and the Investment Company Act of 1940, 
investment advisers and investment companies may be required to make 
appropriate disclosure to clients and shareholders if operational or 
financial obstacles are presented by the Year 2000. Further, Section 
34(b) of the Investment Company Act prohibits investment companies from 
omitting any fact that is necessary to prevent the statements made in 
public filings from being materially misleading. Specifically, 
investment companies are required by Item 5 ``Management's Discussion 
of Fund Performance'' of Form N-1A to describe in their registration 
statements the experience of their investment advisers and the services 
that the advisers provide. In response to this Item, investment 
companies may need to disclose the effect that the Year 2000 issue 
would have on their advisers' ability to provide services described in 
their registration statements.
B. Public company disclosure
    After the Staff Legal Bulletin was revised, the Division of 
Corporation Finance created a Year 2000 Task Force to determine how 
many public companies are addressing the Year 2000 issue and to assess 
whether the disclosure being provided is meaningful. As part of this 
review, the Task Force attempted to determine if companies were 
following the guidance in the revised bulletin. As described below, the 
review revealed that many companies are not.
    First, the Task Force searched the Commission's electronic filing 
system, EDGAR, to compare how many public companies have been providing 
Year 2000 disclosure at different points in time. These searches 
indicated that only 10 percent of the annual reports filed by public 
companies during the first four months of 1997 contained the phrase 
``Year 2000.'' For the quarterly reports filed after the staff 
published Staff Legal Bulletin No. 5, this percentage increased to 25 
percent. After the staff published revised Staff Legal Bulletin No. 5 
in January 1998, 70 percent of the annual reports contained the phrase 
``Year 2000.''
    While the number of companies disclosing Year 2000 issues had 
increased dramatically, the Task Force's survey showed that many 
companies were not following the specific guidance provided in revised 
Staff Legal Bulletin No. 5. The Task Force read the Year 2000 
disclosure in the filings of 1,023 public companies to determine 
whether the specific guidance provided in revised Staff Legal Bulletin 
No. 5 was being followed. To compile the 1,023 annual reports, the Task 
Force randomly selected companies from 12 industry groups, including 66 
small business filers. The aim was to compile a sampling of filings 
that would fairly represent a cross-section of public companies. The 
Task Force also surveyed the most recent annual or quarterly reports 
filed by the Fortune 100 companies that are publicly held.\21\ Based on 
the specific guidance provided in revised Staff Legal Bulletin No. 5, 
the Task Force looked for information regarding the following seven 
categories:
---------------------------------------------------------------------------
    \21\ Seven of the Fortune 100 companies are not publicly held.

    (1) The status of the company's assessment of its Year 2000 issues;
    (2) The level of detail in the disclosure relating to the company's 
remediation plan;
    (3) The estimated timetable for completing the company's assessment 
and/or its plan;
    (4) Whether the company intends to evaluate, or is evaluating, its 
Year 2000 issues with entities with whom it has material relationships;
    (5) Whether the company discloses how much has been spent on Year 
2000 issues to date;
    (6) Whether the company discloses an estimate of the amount to be 
spent on Year 2000 issues; and
    (7) Whether the company addresses, and the level of materiality of, 
its Year 2000 issues.

Based on this survey, the Task Force found the following:

    Assessment.--the extent to which the company has assessed the 
seriousness of its Year 2000 technology problems if no corrective 
action is taken.

                Assessment:                                  Percentage
About to be started............................................       9
Still in progress..............................................      56
Completed......................................................      27
No disclosure regarding assessment.............................       8

    Plan.--the extent to which the company described its plan to remedy 
its Year 2000 technology problems.

                Plan:                                        Percentage
General description............................................      44
Detailed description...........................................       9
Plan is fully implemented......................................       4
No disclosure regarding plan...................................      43

    Timetable.--the time frame within which the company intends to 
complete its assessment and/or its remediation plan. The Task Force 
considered disclosure such as ``in time'' or ``by the year 2000'' as 
``No disclosure.''

                Timetable:                                   Percentage
By the end of 1998.............................................      19
Other than the end of 1998.....................................      17
No disclosure regarding timetable..............................      64

    Relationships.--whether the company plans to evaluate, or is 
evaluating, the Year 2000 technology problems of those entities with 
which it has material relationships.

                Relationships:                               Percentage
Disclosure regarding evaluation of material relationships......      49
No disclosure regarding evaluation of material relationships...      51

    Historical costs.--the amount of money the company has already 
spent on Year 2000 issues to date.

                Historical costs:                            Percentage
Disclosure regarding historical costs..........................       8
No disclosure regarding historical costs.......................      92

    Estimated costs.--the amount of money the company estimates it will 
spend on Year 2000 issues.

                Estimated costs:                             Percentage
Disclosure regarding estimated costs...........................      22
No disclosure regarding estimated costs........................      78

    Materiality.--whether the company disclosed that the Year 2000 
issue is material to its business and, if so, the level of materiality.

                Materiality:                                 Percentage
Year 2000 issues could be material.............................      19
Year 2000 materiality is unknown at this time..................       5
Year 2000 issues are not material as to remediation costs or         67
operations.
No disclosure regarding materiality of Year 2000 issues........      19

    The Commission and its staff continue their efforts to increase the 
frequency and quality of Year 2000 disclosure made by public companies. 
The efforts to date have made public companies more aware of this 
issue, but have not fully succeeded in obtaining the quality of 
disclosure that investors need. The Commission is concerned that while 
a larger number of companies mention Year 2000 in their annual reports, 
much of the disclosure is not meaningful.
    The Commission therefore has begun to take several steps to improve 
the quality of issuer disclosure. First, in the near future, Chairman 
Arthur Levitt plans to write to chief executive officers of public 
companies to remind them of the significance of the Year 2000 issue and 
the Commission's guidance regarding companies' Year 2000 disclosure 
obligations.
    Second, as noted by Commissioner Unger in her testimony of June 10, 
1998 before the Senate Subcommittee on Financial Services and 
Technology, the Commission is planning to issue an interpretive release 
in the near future setting forth its views regarding the application of 
its disclosure requirements to the Year 2000 issue. The interpretive 
release would formalize current staff guidance and, among other things, 
remedy the apparent misconception that Year 2000 issues must be 
disclosed only if the costs of remediation are material. The 
interpretive release will clarify that companies must, in addition to 
considering costs, determine materiality based on the potential 
consequences of inadequately resolving their Year 2000 issues. Further, 
the Commission's interpretive release may form the basis of Commission 
enforcement actions against companies that fail to disclose material 
information regarding their Year 2000 issues.
                             iv. conclusion
    The Commission has long recognized the importance of the Year 2000 
problem. It affects nearly every aspect of the securities industry, 
including our own operations. We are working hard to ensure Year 2000 
compliance in the securities industry, as well as within our own 
critical systems. We have pushed market participants--the SROs, broker-
dealers, transfer agents, investment companies, investment advisers, 
and public companies--to address these important issues. In addition, 
the industry--through the efforts of the SIA--has stepped forward and 
constructed an aggressive program of education and testing for the 
markets and market participants.
    The Commission appreciates the opportunity to discuss the readiness 
of the U.S. securities industry and public companies to meet the 
information processing challenges of the Year 2000. The Commission and 
its staff welcome any questions on these issues that the Committee may 
have.
                               __________

                 Prepared Statement of Peter A. Miller

                              introduction
    Mr. Chairman and members of the committee, thank you for the 
opportunity to address this important issue. My name is Peter Miller. I 
am the chief information officer of J.P. Morgan and have been involved 
with the Year 2000 problem since 1995. My remarks today will focus on 
the nature of the Year 2000 problem, a risk-management approach to 
solving it, and the need for industry-to-industry collaboration, as 
well as international cooperation.
                             i: the problem
    Let me begin by saying that the Year 2000 problem, or the 
``millennium bug'' as it is sometimes referred to, is an issue that we 
at J.P. Morgan consider of paramount importance to our firm, the 
financial services industry, and the United States and world economies. 
No other event in history will so thoroughly expose the vulnerability 
of our living and working in a world so interconnected by computers and 
telecommunications.
    The problem as we see it, is not really a technological one, 
although technology lies at the root of both the problem and solution. 
Correcting the two-digit dating systems, which in their present form 
can not tell one century from the next, is easy. Rewriting code, as a 
technological matter, is relatively straightforward. The real problem 
and the real danger can be summed up in two words: logistics and 
dependency.
    The logistical problem is that millions of computers are involved. 
A huge undertaking in and of itself. Making the task even more daunting 
are the intricate, complex, and pervasive interdependencies among the 
computers and computer networks that populate the world today. It is 
not enough that every computer, software application, and embedded chip 
affected by the Year 2000 problem be fixed. They must be fixed in ways 
so that they remain compatible with all the other devices with which 
they interoperate.
    The financial industry offers a perfect illustration of the 
enormous size, scope, and complexity of the problem. Finance today is a 
global business, where almost unimaginable sums of money are in a 
constant state of electronic flux, and interdependency is particularly 
acute given the networked nature of market participants. We have 
already seen harbingers of what may be in store. The New York 
Mercantile Exchange and the Brussels Stock Exchange have both 
experienced date-related operating failures. Although these problems 
were relatively small in scope, the scale of the issue becomes 
magnified when you consider that all of the world's financial 
institutions will find themselves tested on the same day. At the 
extreme, the price of failure could be systemic breakdown.
    Yet it is not enough for the world's banks, stock exchanges, and 
clearing houses to have their respective houses in order. It won't do 
them any good if their transaction processing systems are ready, but 
they cannot relay information to clients, creditors, regulators, and 
payment and settlement systems because of breakdowns in 
telecommunications networks. And imagine if all the banks and 
telecommunications companies are set to perform on January 3, 2000, but 
their employees can't get to their desks because the elevators don't 
work. Simply put, our networked world is only as good as its weakest 
connection.
    Typically, the barriers to Year 2000 compliance come down to four 
things:

  --Time--this is a problem with an immovable deadline
  --Money--for some, compliance may not be economically possible
  --Skills--even if you have the money, you still need to find people 
        who can fix the problem
  --Competing priorities--if focus is on other issues, the likelihood 
        increases that Year 2000 problems simply won't get fixed. Major 
        corporate events like mergers, acquisitions, and privatizations 
        are the kinds of things that can keep managers from devoting 
        the time necessary to address Year 2000 issues within their 
        companies.
               ii: j.p. morgan's risk-management approach
    So how does one combat such an enormous and insidious problem? At 
J.P. Morgan we have applied a comprehensive, risk-management approach. 
In our measured opinion, things will go wrong. Statistical probability 
tells us that the logistics and dependencies involved almost certainly 
dictate some level of failure. So the question is not if things will go 
wrong, but how many things will go wrong. Therefore, we believe that 
the best course of action, and probably the only workable one given 
time, cost, and skill constraints, is to identify the most critical 
situations, fix them first, and then move down the chain of priorities. 
Firms that will do the best will be the ones that:

  --put their own house in order,
  --coordinate their activities with their trading partners, and
  --prepare contingency plans in the event that unexpected failures 
        occur.

    At J.P. Morgan, we began discussing the Year 2000 problem at senior 
executive levels in 1995. Early the following year, with the full 
commitment of Sandy Warner, our chairman and CEO, we launched a 
firmwide initiative. The commitment of senior management was crucial, 
for without it, we would never have been able to muster all the 
resources necessary to attack the problem. With 600 people working on 
the initiative at its peak, we have estimated that the total cost of 
making the firm Year 2000 compliant is $250 million.
    Paula Larkin, a senior manager at Morgan, is charged with 
overseeing and coordinating all of the firm's Year 2000 efforts. To 
date, these efforts have included:

  --raising awareness throughout the firm,
  --conducting a comprehensive analysis of the problem and its many 
        impacts,
  --putting in place a complete end-to-end methodology and 
        certification process, and
  --applying the lessons learned broadly across the firm so as to 
        reduce costs and risks while accelerating progress.

    By year's end, we expect to have all of our critical applications 
and products tested and certified as Year 2000 compliant.
    The importance of testing cannot be overstated. Our remediation 
efforts have shown the problem to be pervasive and not always obvious. 
For example, our testing of one product, which the manufacturer said 
was Year 2000 compliant, found that while the product could handle the 
changeover on January 1, it had not been programmed for the fact that 
2000 is a leap year. The lesson here is that nothing can be taken on 
face value.
              iii: financial services industry activities
    With our internal testing and renovation well under way, much of 
our effort is currently focused on addressing external dependencies, 
both inside and outside the financial services industry. This has 
involved identifying and assessing our Year 2000 exposures as posed by 
clients, counterparties, exchanges, depositories, clearinghouses, and 
correspondent banks, as well as by power, telecommunications, and other 
utilities.
    Key to this effort has been coordination and collaboration with 
others in the industry, namely competitors, exchanges, the Federal 
Reserve, and trade associations. For example, J.P. Morgan has been 
working with the Securities Industry Association, the New York 
Clearinghouse, and others for the past 2 years on the Year 2000 issue. 
Through various committees, the SIA has been promoting awareness, 
developing testing guidelines, and coordinating industry-wide testing 
efforts. J.P. Morgan and 28 other securities firms are currently 
engaged in piloting the tests that will be used early next year to 
check industry-wide dependencies and compliance.
    The work of SIA and other organizations like it have helped place 
the U.S. financial services industry into a leadership position in 
terms of Year 2000 readiness. The U.S. financial services industry is 
ahead of its peers abroad and also appears to be ahead of all other 
industries. To the best of my knowledge, financial services is the only 
industry conducting integrated testing to demonstrate readiness and 
identify issues ahead of time.
    But for financial services companies, the need for vigilance must 
extend beyond their own industry. The ripple effect from a large 
disruption in another industry, such as telecommunications, 
transportation, or power, could have severe consequences for the 
financial sector. As a result, J.P. Morgan, on its own and in 
conjunction with industry efforts, is actively trying to understand the 
risks faced by its service providers and the programs they have put in 
place to mitigate the risks.
    To mitigate these risks, the free-flow of timely and accurate 
information is essential. This means the Year 2000 cannot be treated as 
a competitive issue. Traditional barriers must make way for the sharing 
of best practices. Through collaborative efforts, firms can leverage 
resources and minimize costs. The government can play a key role here, 
through influence and legislation, to promote cooperation and 
information sharing across industries.
    We also strongly support two parallel government efforts. Year 2000 
disclosure requirements put in place by the Securities and Exchange 
Commission and the decision by the Federal Financial Institutions 
Examination Council to ask companies to prioritize their clients in 
terms of Year 2000 risks. For its part, J.P. Morgan already views Year 
2000 readiness as a factor in conducting due diligence reviews of 
clients.
                     iv: international coordination
    This cooperation and collaboration also needs to extend beyond the 
borders of the United States. For J.P. Morgan, with operations in more 
than 30 countries, the need for global attention to the Year 2000 
problem is clear. Currently, we are working actively with our 
counterparts and regulators outside the United States to increase 
awareness and action. The ultimate goal is to demonstrate industry 
readiness through integrated testing with all major market participants 
in all major market locations. Progress is being made, but much more 
work remains to be done.
    Dependencies with potential cross-border implications are of 
particular concern in the international arena. Disruption in a key 
market could prevent the settlement of trades or movement of cash and 
securities, which in turn could squeeze credit and liquidity. Were a 
major international investment bank, for example, to find itself in a 
position where it could not deliver or receive cash or securities, the 
consequences could have a ripple effect on the world economy. Through 
our scenario planning activities, we are attempting to estimate the 
likelihood of these failures and identify appropriate remedies.
    Our assessment of global readiness places the United States ahead 
of all other countries. Preparedness in Europe varies country by 
country. Thanks in large part to the work of the British Bankers 
Association, the United Kingdom ranks in the top spot. Trade 
associations are active across the continent, but the entire Year 2000 
effort has been hurt by the time, energy, and attention being devoted 
to the implementation of European Monetary Union.
    Asia ranks behind Europe. Here the biggest threat is posed by the 
downturn in the regional economy. Strong progress, however, has been 
made in Japan over the last six months, due in large measure to the 
efforts of the Japan Securities Dealers Association working with the 
Ministry of Finance. Regulators are now actively reviewing firms' 
programs, and coordinated industry testing is planned.
    Action has generally been lagging in Latin America, however, 
variations exist within the region. Mexico is proving to be a leader. 
Currently, the SIA is making use of work done in the United States to 
provide best practices to other locations. The SIA recently visited the 
major market locations in Latin America to meet with regulators and 
major market participants in an effort to leverage the financial 
services industries program here.
    In all these regions, as is the case in the United States, the 
challenge extends beyond the financial services industry to all of the 
external dependencies. Although awareness has increased abroad, not all 
industries have demonstrated a recognition of the full scope and 
ramifications of the issue. This includes infrastructure providers, 
such as electric utilities and telecommunications companies, which are 
vital for the conduct of international trade.
    On a global front, a recent positive development has been the birth 
of the Global Year 2000 Coordinating Group. The group raises awareness, 
identifies resources, and coordinates initiatives on an international 
basis. Currently, 20 countries are represented--a number that is 
expected to rise. Members of the group are responsible for taking 
leadership roles on Year 2000 initiatives within their respective 
countries, and the dialogue among members provides first-hand status 
reports on each country's problems, progress, and prognosis. One 
initiative undertaken by the group is to develop tools to aid 
international testing by providing a standard set of definitions and 
recommendations on scope and timing. To date, three meetings have been 
held with attendance covering most major financial markets. In 
addition, the Basle Committee and other international regulatory groups 
have created the Joint Year 2000 Council to focus the supervisory 
community on the issue.
                             v: conclusion
    To close, I would like to reiterate a couple of key messages. The 
problem is serious. Things will go wrong. And, the companies, 
industries, governments, countries, and regions that will be most 
successful in addressing the problem will be the ones that:

  --get a firm handle on internal issues that are particular to them,
  --address the critical external dependencies that affect them,
  --work collaboratively with others to share information and maximize 
        resources, and
  --put in place contingency plans that guard, as much as possible, 
        against unforeseen events.

    Addressing this problem will take hard work, and for the most part, 
it's a thankless task. Success will be defined not by some great 
discovery, but by minimal disruption. The financial services industry 
has made considerable progress to date and is well positioned. However, 
the test in all this lies in the strength of the weakest link, wherever 
it may be.
    I thank the Committee for the opportunity to share my thoughts and 
look forward to working with it and others to bring this issue to the 
most uneventful conclusion possible.
                               __________

                Prepared Statement of Ernest T. Patrikis

    I am pleased to appear before the Committee today to discuss the 
progress of foreign financial markets in addressing the Year 2000 
computer problem. I am appearing in my capacity as chairman of the 
Joint Year 2000 Council, which is sponsored jointly by the Basle 
Committee on Banking Supervision, the G-10 central bank governors' 
Committee on Payment and Settlement Systems, the International 
Association of Insurance Supervisors, and the International 
Organization of Securities Commissions (collectively referred to as the 
``Sponsoring Organizations'').
    The international financial community has much work to do to 
prepare itself for the challenges posed by the Year 2000 (``Y2K'') 
problem. While much good work is being done and progress in many areas 
is evident, more needs doing. The Sponsoring Organizations believe that 
mutual cooperation and information sharing can play a key role in 
helping individual market participants carry out these preparations and 
limit the scope of Y2K-related disruptions. Our major concern, of 
course, will be the possible impact of the Y2K problem on the 
functioning of the international financial system as a whole.
    Federal Reserve Governor Edward W. Kelley, Jr. has recently 
elaborated on the activities of the Federal Reserve System in 
connection with the Y2K problem, as well on possible macroeconomic 
implications.\1\ I will not attempt to cover those topics again here. 
Instead, this morning I will begin with some background on the possible 
implications of the Y2K problem for international banking and finance. 
Second, I will describe how various supervisory initiatives led to the 
formation of the Joint Year 2000 Council a little more than two months 
ago. Third, I will discuss the actions being taken by the Joint Year 
2000 Council, particularly in the areas of raising awareness, improving 
preparedness, and contingency planning.
---------------------------------------------------------------------------
    \1\ See testimony of Governor Edward W. Kelley, Jr. before the 
Committee on Commerce, Science, and Transportation, U.S. Senate, April 
28, 1998.
---------------------------------------------------------------------------
    background on the international implications of the y2k problem
    The Y2K bug potentially affects all organizations that are 
dependent on computer software applications or on embedded computer 
chips. In other words, nearly all financial organizations worldwide are 
potentially at risk. Even those whose own operations remain strictly 
paper-based are likely to be dependent on power, water, and 
telecommunications utilities which must themselves address possible Y2K 
problems. Also, many non-financial customers have dependencies on 
technology.
    All countries of the world, therefore, need to address the Y2K 
problem and its potential effects on their domestic financial markets. 
In some cases, it is said that computer systems in particular countries 
are not much affected because their national calendars are not based on 
the conventional Gregorian calendar used in the United States and many 
other countries. I do not derive much comfort from these statements 
because in most cases operating systems and the software applications 
running on them count internally with a conventional date system that 
may not be Y2K-compliant. These systems typically also need to connect 
and interact with other systems that use conventional dates, so these 
interfaces must be tested for Y2K-compliance. More broadly, mere 
assertions that computer applications are unaffected cannot be seen as 
a substitute for the rigorous assessment, remediation, and testing 
efforts that should be undertaken by financial market participants 
worldwide.
    The increasing extent of cross-border, financial-market activity 
has been much remarked on in recent years. Perhaps less well known is 
the fact that this activity is dependent on a large, geographically 
diverse, and highly computer-intensive global infrastructure for each 
of the key phases of this activity--from trade execution through to 
payment and settlement.
    As an example, consider the daily financial market activities of a 
hypothetical U.S.-based mutual fund holding stocks and bonds in a 
number of foreign jurisdictions. Such a mutual fund would likely 
execute trades via relationships with a set of securities dealers, who 
themselves might make use of other securities brokers and dealers, 
including some outside the United States. The operational integrity of 
the major securities dealers in each national securities market is 
critical to the smooth functioning of those markets. In addition, 
securities trading in most countries is reliant on the proper 
functioning of the respective exchanges, brokerage networks, or 
electronic trading systems and the national telecommunications 
infrastructure on which these all depend. Financial markets today are 
also highly dependent on the availability of real-time price and trade 
quotations provided by financial information services.
    For record-keeping, administration, and trade settlement purposes, 
our hypothetical mutual fund would also likely maintain a relationship 
with one or more global custodians (banks or brokerage firms), who 
themselves would typically maintain relationships with a network of 
sub-custodians located in various domestic markets around the world. 
Actual settlement of securities transactions typically occurs over the 
books of a domestic securities depository, such as the Depository Trust 
Company (``DTC'') or the Fedwire National Book-Entry System in the 
United States, or at one of the two major international securities 
depositories, Euroclear and Cedel. Additional clearing firms, such as 
the National Securities Clearing Corporation (``NSCC'') and the 
Government Securities Clearing Corporation (``GSCC'') in the United 
States, may also occupy central roles in the trade clearance and 
settlement process.
    Payments and foreign exchange transactions on behalf of the mutual 
fund would involve the use of correspondent banks, both for the U.S. 
dollar and for other relevant currencies. These transactions would 
typically settle over the books of domestic wholesale payment systems, 
such as the Clearing House Interbank Payments System (``CHIPS'') or 
Fedwire in the United States, and the new TARGET system for the euro. 
Correspondent banks are also heavily dependent on the use of cross-
border payments messaging through the network maintained by the Society 
for Worldwide Interbank Financial Telecommunications (``S.W.I.F.T.'') 
to advise and confirm payments. To provide some sense of the magnitudes 
involved here, consider that the Fedwire and CHIPS systems process a 
combined $3 trillion in funds transfers on an average day (split 
roughly evenly between the two systems). While S.W.I.F.T. itself does 
not transfer funds, its messaging network carries over three million 
messages per day relating to financial transactions worldwide.
    The many interconnections of the global financial market 
infrastructure imply that financial market participants in the United 
States could be affected by Y2K-related disruptions in other financial 
markets. In assessing the scope of any such potential problems, we 
should be realistic in accepting that some disruptions are inevitable, 
while also recognizing that not all countries confront Y2K problems of 
similar magnitudes. The problem simply affects too many organizations 
and too many systems to expect that 100 percent readiness will be 
achieved throughout the world. Nor are the best efforts of supervisors 
and regulators capable of completely eradicating the risk of 
disruption. Ultimately, the work of fixing the Y2K problem rests with 
firms themselves, and even some of the most determined and well-funded 
Year 2000 efforts may miss something.
                      global year 2000 round table
    Recognizing the global nature of the issues surrounding the Y2K 
problem, each of the Sponsoring Organizations undertook initiatives in 
1997 to raise awareness, enhance disclosure, and prompt appropriate 
action within the financial industry. Their decision last fall to 
organize a Global Year 2000 Round Table was motivated by a growing 
sense of the seriousness of the Y2K challenges posed in many countries 
and of the potentially severe consequences for financial markets that 
fail to meet these challenges. The Global Year 2000 Round Table was 
held at the Bank for International Settlements on April 8, 1998. It was 
attended by more than 200 senior executives from 52 countries, 
representing a variety of private and public organizations in the 
financial, information technology, telecommunications, and business 
communities around the world.\2\
---------------------------------------------------------------------------
    \2\ A videotape containing highlights of the Global Year 2000 Round 
Table is available free of charge from the Bank for International 
Settlements. Please contact the Joint Year 2000 Council Secretariat at 
the Bank for International Settlements, Centralbahnplatz 2, Ch-4002 
Basle, Switzerland. (telephone: 41 61 2808432, fax: 41 61 280 9100, 
email: jy2kcouncil.bis.org)
    The Federal Financial Institutions Examinations Council (``FFIEC'') 
has also placed the entirety of this video tape on its web site, where 
it is available for downloading in whole or in part. Please see http://
www.bog.frb.fed.us/y2k/video--index.htm#19980408.
---------------------------------------------------------------------------
    The discussions at the Round Table confirmed that the Y2K issue 
must be a top priority for directors and senior management, and that 
the public and private sectors should increase efforts to share 
information. The importance of thorough testing, both internally and 
with counterparties, was emphasized as the most effective way to ensure 
that Y2K problems are minimized. Round Table participants identified 
the need to continue the widening and strengthening of external testing 
programs in many countries.
    The communique issued by the four Sponsoring Organizations at the 
close of the Round Table recommended that market participants from 
regions that have not yet vigorously tackled the problem should 
consider the need to invest significant resources in the short time 
that remains. The Sponsoring Organizations further recommended that 
external testing programs be developed and expanded and that all 
financial market supervisors worldwide should implement programs that 
enable them to assess the Y2K readiness of the firms and market 
infrastructures that they supervise. The Sponsoring Organizations urged 
telecommunications and electricity providers to share information on 
the state of their own preparations and encouraged market participants 
and supervisors and regulators to consider the need to develop 
appropriate contingency procedures.
    At the Round Table, a new private-sector initiative known as the 
Global 2000 Coordinating Group was announced. The aims of the Global 
2000 effort are to identify and support coordinated initiatives by the 
global financial community to improve the Y2K readiness of financial 
markets worldwide. For example, current Global 2000 projects include 
the development of recommendations for financial infrastructure testing 
and guidelines for addressing Y2K compliance issues related to vendors 
and service providers. The Global 2000 Coordinating Group, which 
includes representatives from over 75 financial institutions in 18 
countries, represents an extremely valuable private-sector attempt at 
cooperation on this important issue. At the same time, however, the 
international financial supervisory community recognized that it would 
be useful to establish a public-sector group, called the Joint Year 
2000 Council, that would work with the private sector and also maintain 
a high level of attention on the Y2K problem among financial market 
supervisors and regulators worldwide.
                        joint year 2000 council
    The formation of the Joint Year 2000 Council was announced at the 
end of the Global Year 2000 Round Table on April 8, 1998. The Joint 
Year 2000 Council consists of senior members of the four Sponsoring 
Organizations. Every continent is represented by at least one member on 
the Council. The Secretariat of the Council is provided by the Bank for 
International Settlements. I am honored to serve as the chairman of the 
Joint Year 2000 Council.
    The mission of the Joint Year 2000 Council has four parts: First, 
to ensure a high level of attention on the Y2K computer challenge 
within the global financial supervisory community; second, to share 
information on regulatory and supervisory strategies and approaches; 
third, to discuss possible contingency measures; and fourth, to serve 
as a point of contact with national and international private-sector 
initiatives. After their meetings on May 8-9, 1998, the G-7 finance 
ministers called on the Joint Year 2000 Council and its Sponsoring 
Organizations to monitor the Y2K-related work in the financial industry 
worldwide and to take all possible steps to encourage readiness.
    The Council has met twice since being formed in early April and 
plans to meet frequently, almost monthly, between now and January, 
2000. At our first meeting, we organized our work projects and approved 
our mission statement. At our second meeting, we met for the first time 
with an External Consultative Committee consisting of international 
public-sector and private-sector organizations. Meeting with this 
External Consultative Committee is intended to enhance the degree of 
information sharing and the raising of awareness on different aspects 
of the Year 2000 problem by both public and private sectors within the 
global financial markets.
    The External Consultative Committee includes representatives from 
international payment and settlement mechanisms (such as S.W.I.F.T., 
Euroclear, Cedel, and VISA), from international financial market 
associations (such as the International Swaps and Derivatives 
Association, the International Institute of Finance, and the Global 
2000 Coordinating Group), from multilateral organizations (such as the 
IMF, OECD, and World Bank), from the financial rating agencies (such as 
Moody's and Standard & Poor's), and from a number of other 
international organizations (such as the International 
Telecommunications Union, Reuters, the International Federation of 
Accountants, and the International Chamber of Commerce). This diversity 
of perspectives led to an extremely valuable discussion with the Joint 
Year 2000 Council and stimulated work on several projects to be taken 
forward with input from both the public and private sectors, for 
example, the initiatives on Y2K testing and self-assessment that I will 
describe shortly. Further sessions with the External Consultative 
Committee are planned on a quarterly basis.
    It is important at the outset for me to be clear that the Joint 
Year 2000 Council is not intended to become a global Y2K regulatory 
authority, with sweeping powers to coordinate international action or 
to take responsibility for ensuring Y2K readiness in every financial 
market worldwide. Through our ability to serve as a clearinghouse for 
Y2K information, however, I believe that the Joint Year 2000 Council 
will play a positive role in three areas: (1) raising awareness, (2) 
improving preparedness, and (3) contingency planning. In the next 
portion of my remarks, I would like to address each of these roles in 
turn.
                      efforts to promote awareness
    The Joint Year 2000 Council is undertaking a series of initiatives 
that may be described under the heading of promoting awareness. By this 
term, I do not mean to include only those initiatives aimed at raising 
general awareness, although that too is still needed in some cases. I 
mean to include efforts to promote better awareness of the many efforts 
currently under way to tackle the Y2K problem. I have found that, while 
many organizations are working hard on various aspects of the Y2K 
challenge, in many cases these efforts would be enhanced by a greater 
degree of information sharing with others. For example, at the Federal 
Reserve Bank of New York, we have been holding quarterly Y2K forums 
with a diverse set of financial organizations in the area. Participants 
have requested that we continue to hold these meetings--in fact, to 
hold them even more frequently--because they believe that the contacts 
and the exchange of views are broadly beneficial. We hope to use the 
Joint Year 2000 Council to achieve similar goals.
    Each of the members of the Joint Year 2000 Council has committed to 
help play a leading role in promoting awareness of Y2K initiatives 
within their region. Each of us will help in coordinating regional Y2K 
forums or conferences and will publicly promote the goals of the Joint 
Year 2000 Council in speeches and on conference programs.
    The Joint Year 2000 Council will also maintain extensive world-
wide-web pages that can be accessed freely over the Internet.\3\ These 
pages are being maintained through the support the Council has received 
from the Bank for International Settlements, in particular from the 
General Manager, Andrew Crockett. These web pages will maintain current 
information on the activities of the Joint Year 2000 Council.
---------------------------------------------------------------------------
    \3\ The web pages of the Joint Year 2000 Council can be reached at 
the web site of the Bank for International Settlements (www.bis.org). 
These pages will also be registered under the name jy2kcouncil.org in 
the near future.
---------------------------------------------------------------------------
    The most extensive aspect of the Council's web site will be a 
series of country pages, one for each country in the world. For each 
country, the page will contain contact information for government 
entities (including national coordinators), financial industry 
supervisors and regulators (including central banks, banking 
supervisors, insurance supervisors, and securities regulators), 
financial industry associations, payment, settlement and trading 
systems, chambers of commerce, and major utility associations or 
supervisors. For each of these organizations, a name, address, phone 
number, fax number, electronic mail and web site address will be 
provided. Other relevant information on an organization's Y2K 
preparations may also be included, for example, whether it has a 
dedicated Y2K contact or has taken specific action with respect to the 
Y2K problem.
    The motivation for developing these country pages is to increase 
awareness of the work that is being done to address the Y2K problem and 
to enable market participants to easily find out more information about 
the state of preparations worldwide. Establishing these national 
contacts will also help to develop the informal networks and 
arrangements that may be needed in addressing other Y2K-related issues, 
for example, in formulating contingency measures. Finally, of course, 
the presence of the country pages may exert pressure on those countries 
where more vigorous action is needed. A blank or uninformative country 
listing would probably not be seen as a good sign by some financial 
market participants.
    In addition, the web pages of the Joint Year 2000 Council will also 
provide summaries of the efforts being undertaken by its Sponsoring 
Organizations as well as links to the relevant web sites. For example, 
reports on Y2K surveys of supervisors and regulators being undertaken 
by the Basle Committee on Banking Supervision and by the International 
Organization of Securities Commissions are planned to be made available 
on the Joint Year 2000 Council web site. Public papers produced by the 
Joint Year 2000 Council will also be available on the web site. A 
listing of international conferences and seminars related to Y2K will 
be posted on the web site, together with links to other Y2K web sites 
and documents.
    At this stage, each member of the Joint Year 2000 Council is in the 
process of finalizing the country page for its respective country. I 
recently wrote to every contact provided by the four Sponsoring 
Organizations (almost 600 contacts in over 170 countries), asking for 
assistance in coordinating the development of their country page. This 
also provided a further opportunity to raise the awareness of the Year 
2000 problem at the most senior levels of financial market authorities 
and supervisors in countries around the world. Through the effort to 
develop this web site and other similar efforts by the Joint Year 2000 
Council, I believe we can succeed at keeping the awareness of the issue 
at a very high level within the global financial supervisory community.
                    efforts to improve preparedness
    Of course, awareness of the Year 2000 problem is only the first 
step in addressing it. Global efforts to prepare for Year 2000 vary 
widely, and many countries believe that more coordinated national 
action will be necessary to tackle the problem as effectively as 
possible. At our second meeting of the Joint Year 2000 Council, a 
strong consensus emerged that a national government body in each 
country could play a helpful role in coordinating preparations for Y2K. 
While the Council did not have a strong view on what particular form or 
what specific authority such a body would require in each specific 
country, the Council members felt strongly that involvement in some 
fashion by the national government could be beneficial.
    Accordingly, the Joint Year 2000 Council plans to issue a statement 
in the near future providing general support for the concept of a 
national-level coordinating body for the Y2K problem. In the United 
States, of course, the White House has established the President's 
Council on Year 2000 Conversion, headed by John Koskinen. This effort, 
as well as those of this committee under the leadership of Chairman 
Bennett, and of the other Congressional committees that have addressed 
the Y2K problem, has shown that national government bodies have a very 
important and useful role to play in encouraging progress in addressing 
the Y2K problem.
    Turning now to the question of how financial supervisors can 
implement effective Y2K programs, the Joint Year 2000 Council intends 
to promote the sharing of strategies and approaches. For example, the 
Basle Committee on Banking Supervision has prepared a paper containing 
``Supervisory Guidance on Independent Assessment of Bank Year 2000 
Preparations''. This document is aimed at moving supervisors worldwide 
from a level of general awareness to a specific, concrete program of 
action for overseeing Y2K preparations, both on an individual bank 
basis and on a system-wide basis.
    The Joint Year 2000 Council intends to adapt this paper for use by 
financial market regulators and supervisors more broadly and to issue 
it as rapidly as possible with the endorsement of all four Sponsoring 
Organizations. The goal will be to provide guidance in developing 
specific Year 2000 action plans for all types of financial market 
authorities. Supervisors in countries that have gotten a head start on 
the issue can thereby provide the benefit of their experience to those 
who are starting later. Those supervisors getting a late start have a 
need for tools of this type.
    The Joint Year 2000 Council will also be working with the members 
of our External Consultative Committee, particularly the Global 2000 
Coordinating Group, to build on this effort and develop a Y2K self-
assessment tool that could be used broadly by the financial industry in 
countries around the world. We also intend to develop additional papers 
on a variety of Y2K topics that might be of interest to the global 
financial supervisory community.
    At this point, I am sure that members of the Committee have 
questions regarding the state of Y2K preparations in various parts of 
the world. I think that it is fair to say that most believe a spectrum 
exists, with the United States at one end of the spectrum, and emerging 
market and undeveloped countries at the other end. There are likely 
exceptions of course; some developed countries are probably less far 
along than they should be. Some emerging market countries, on the other 
hand, appear to be quite advanced in their preparations.
    Overall, however, there is still not nearly enough concrete, 
comparable information on the preparations of individual institutions 
to be able to make any confident statements about the state of global 
preparations in any detail. Over the time remaining until January 2000, 
we hope to use the Joint Year 2000 Council as a means of gathering a 
better picture of the state of global preparations, and to help direct 
resources and attention to those regions that appear to be faltering in 
their efforts. We will use the information provided for our web site 
and the discussions with members of our External Consultative Committee 
as our primary resources in seeking to identify ``hot spots'' where 
more urgent efforts are needed.
    If we identify regions where more needs to be done, our first step 
will be to work through the relevant national financial supervisors and 
regulators to increase the urgency of efforts in their jurisdiction. We 
may also involve multilateral institutions, such as the World Bank, to 
help increase national attention on the issue. I do not believe that 
calling public attention to problems in specific countries would be a 
constructive step for us to take at this stage as we are still trying 
to build cooperation and our current information is incomplete. In this 
context, I would also point out that the market itself will begin to 
bring strong pressures to bear on specific firms and markets that 
exhibit signs of being ill-prepared during the course of 1999.
    In conjunction with preparations for Y2K, the recent discussion of 
the Joint Year 2000 Council with the External Consultative Committee 
raised several important issues. First, in every national market there 
is the question of the dependence of the banking and financial sectors 
on core infrastructure such as telecommunications, power, water, sewer, 
and transportation. In all cases, it seems that it is not an everyday 
occurrence for representatives of these differing sectors to get 
together with financial sector representatives and discuss their mutual 
concerns. Yet, this must be made a priority if financial firms and 
their counterparties are to achieve comfort that their own efforts to 
prepare for Year 2000 will not be compromised by the failures of 
systems beyond their control.
    A representative of the International Telecommunications Union is a 
member of our External Consultative Committee. At our meeting earlier 
this month, he provided useful factual information on the preparations 
being undertaken by telecommunications firms and indicated that a 
further global survey and report on this topic is due to be completed 
soon. This is the type of information sharing that helps all parties 
understand the scope of the problem, as well as the efforts that others 
are undertaking. We intend to encourage further information sharing 
between the financial sector and core infrastructure providers at 
future meetings of the Joint Year 2000 Council and the External 
Consultative Committee. I would also strongly encourage such mutual 
cooperation on Y2K preparations within each national jurisdiction.
    Another issue that some participants in our Joint Year 2000 Council 
are concerned about in regard to preparations in their countries 
relates to the availability of human resources. In some regions, the 
supply of available information technology professionals may be hard-
pressed to meet the challenges posed by Y2K. For each organization 
facing resource constraints, this situation clearly indicates the need 
to develop action plans for Y2K that set clear priorities among systems 
and projects.
    More broadly, we must also recognize that the lack of available 
programming resources will be a significant overall constraint on the 
scale of Y2K remediation efforts globally. As a result, the cost of 
hiring computer professionals capable of addressing the problem will 
continue to rise. Wealthy countries are undoubtedly in a better 
position to bear these increasing costs than are poor countries.
    A number of participants from our External Consultative Committee 
cited the recent grant of <brit-pound>10 million sterling by the 
British Government to the World Bank as a positive development. Among 
other projects, the World Bank intends to use this grant to fund a 
variety of educational and awareness-raising events related to Y2K over 
the next several months. Given the potential consequences of a failure 
to prepare for Y2K, the World Bank indicated to the Joint Year 2000 
Council that it intends to take on an aggressive role in promoting and 
assisting Y2K efforts in countries around the world. The Joint Year 
2000 Council intends to work closely with the World Bank to enhance our 
mutual efforts on the Y2K problem.
    The subject of appropriate Y2K disclosure was also discussed by 
members of the External Consultative Committee. Many of those present 
agreed that greater disclosures would be helpful. However, there was 
skepticism that a standardized disclosure format would be effective in 
eliciting meaningful information for a wide class of financial firms, 
given the complexity and variety of Y2K issues facing these firms 
worldwide. It was also noted that disclosure which relies primarily on 
a firm's own subjective assessments of its Y2K problems inevitably will 
suffer from an optimistic bias.
    In addition, most Y2K efforts will not reach the serious testing 
phase until 1999. The purpose of the testing will be to uncover areas 
where additional work is required, so that the first round of tests can 
be expected to encounter problems. In this environment, it may be 
difficult for firms themselves to assess the true state of their Y2K 
preparations. Also, firms who believe they are going to be ready will 
be directed by legal counsel not to make too strong a statement to 
avoid liability claims in case of unforeseen problems. On the other 
hand, firms that do not believe they can get ready in time will seek to 
avoid stating this clearly to protect their activities during 1999. For 
all of these reasons, I am doubtful that specific, reliable information 
on the state of Y2K preparations by individual firms worldwide will 
become publicly available.
    Finally, in the area of improving preparedness, I have saved the 
most important topic for last--namely, testing. Testing programs, 
particularly external testing programs, are universally regarded as the 
most critical element of serious Y2K preparations in the financial 
sector. The Joint Year 2000 Council encourages all firms and 
institutions active in the financial markets to engage in internal and 
external testing of their important applications and interfaces. To 
this end, many major payment and settlement systems around the world 
have developed extensive testing programs and procedures for their 
participants. In the United States, for example, Fedwire, CHIPS, and 
S.W.I.F.T. have coordinated shared testing days for the purpose of 
testing the major international wholesale payments infrastructure for 
the U.S. dollar. The Securities Industry Association (``SIA'') has been 
at the forefront of an ambitious program to develop a coordinated 
industry-wide test of all aspects of the trading and settlement 
infrastructure for the U.S. stock market. The FFIEC's efforts have also 
been extremely beneficial in stressing the importance of testing within 
the banking sector generally.
    Yet, external testing programs globally need to be dramatically 
extended and expanded. To that end, the G-10 Committee on Payment and 
Settlement Systems last year started to collect information on the 
state of preparedness and testing of payment and settlement systems 
worldwide. To date, over 150 systems in 47 countries have responded to 
the framework and posted such plans.\4\ The Joint Year 2000 Council 
intends to expand the coverage of this framework to exchanges and 
trading systems, as well as major financial information services 
providers, and hopes to expand the number of countries and systems that 
are included. We will also collate and present the information 
graphically to help highlight anomalies in testing schedules, and to 
facilitate the efforts of systems to coordinate test scheduling where 
feasible.
---------------------------------------------------------------------------
    \4\ The relevant information can now be found on the pages of the 
Joint Year 2000 Council.
---------------------------------------------------------------------------
    Primarily, I see this as an exercise in peer pressure. If we list 
every country in the world on our web site and the public can see that 
some countries have scheduled mandatory external tests of their major 
trading and settlement systems, while other countries do not provide 
any information, that second country may come under greater pressure to 
organize an external testing program. This is our stated goal. We will 
simply have blanks for those countries that do not respond to our 
requests for information.
    Of course, if the Joint Year 2000 Council is going to encourage 
testing to such an extent, then it is only appropriate that we also 
help provide some tools for those countries trying to get a serious 
testing effort underway in a short amount of time. This is another of 
our high-priority projects. We will be working with members of the 
External Consultative Committee--including representatives of the 
Global 2000 Coordinating Group, S.W.I.F.T., and the World Bank--to 
rapidly develop a series of documents that help countries set up 
testing programs and overcome common obstacles. We intend to issue 
these documents broadly by the end of the summer, and some parts well 
before that.
    In closing this section of my statement, I do not think it is 
possible to over-emphasize the importance of testing to help improve 
readiness. To illustrate this point, I would like to draw on our 
experiences with Fedwire, the Federal Reserve's wholesale interbank 
payments system. Much of the current Fedwire software application was 
written in the last five years, with the Y2K problem in mind. 
Nevertheless, some of the older software code that was carried over 
into the new application was not Y2K-compliant. Without the rigorous 
internal Y2K testing program that the Federal Reserve adopted, our Y2K 
remediation efforts might, therefore, have been incomplete. I think of 
this experience whenever I hear it said that some countries are immune 
to Y2K because they have only recently introduced information 
technology and that recent software programs are less affected by Y2K. 
I ask whether those programs have truly been thoroughly tested for Y2K 
compliance.
                      contingency planning efforts
    The third major role of the Joint Year 2000 Council will relate to 
contingency planning. In this context, I should note that contingency 
planning is something that most financial market authorities, 
particularly central banks, undertake regularly with regard to a wide 
variety of potential market disruptions. Most private-sector financial 
firms, as well, have well developed contingency and business continuity 
plans in place for their operations.
    Nevertheless, it is clear that contingency planning for Y2K 
problems has a number of unique characteristics. First, of course, is 
the fact that one cannot rely on a backup computer site for Y2K 
contingency if that site also uses the same software that is the cause 
of the Y2K problem at the main site. In some cases, it is impractical 
to build a duplicate software system from scratch simply to provide for 
Y2K contingency. In these cases, as a senior banker explained at one of 
our New York Y2K forums, contingency planning amounts to, ``Testing, 
testing, and more testing.''
    Contingency planning can also be separated into components that are 
firm-specific and those that are market-wide. Each individual firm will 
need to develop its own contingency plans designed to maintain the 
integrity of its operations during the changeover to the Year 2000. The 
FFIEC has recently issued guidance to banks in the United States 
regarding the core elements of their own contingency planning.\5\ The 
Joint Year 2000 Council will also be developing a paper on contingency 
planning for the benefit of the global financial supervisory community. 
This paper will seek to address firm-level contingency as well as 
issues of market-wide contingency.
---------------------------------------------------------------------------
    \5\ See www.ffiec.gov/y2k/contplan.htm
---------------------------------------------------------------------------
    Market-wide contingency refers to the planning by participants and 
supervisors done to ensure that individual disruptions can be managed 
in ways that will prevent them from causing disruptions to critical 
market infrastructures. For instance, we at the Federal Reserve have 
gone to great lengths to ensure that barriers are in place to prevent 
Y2K problems with a Fedwire participant from causing problems on the 
Fedwire system itself. We are also now actively researching additional 
steps that the Federal Reserve could take to better prepare the 
financial markets as a whole to function in spite of disruptions at 
individual firms.
    It is also important to realize that contingency planning for Y2K 
is not solely an operational issue. Financial firms may seek to adopt a 
defensive posture in the marketplace well ahead of Monday, January 3, 
2000 (the first business day of the new year in the United States). For 
example, market participants may seek to minimize the number of 
transactions that would be scheduled for settlement on January 3 or 
January 4, or that would require open positions to be maintained over 
the century date change weekend.
    Contingency planning involves a series of elements, many of which 
must be put in place well before January 2000. For example, we must 
consider many possible sources of disruption and determine what 
approaches could be available to limit the impact of each possible 
disruption. The sooner such thinking occurs, the more opportunity we 
have to plan around the possible disruptions. In this context, members 
of our External Consultative Committee noted that one of the key 
obstacles to effective contingency planning is the inability to list 
and consider all possible disruption scenarios. Several of these 
participants noted that their firms were engaging consultants or other 
procedures to expand the number of scenarios for inclusion in their Y2K 
contingency planning.
    In New York, we will be using our Y2K forum later this month to 
discuss contingency planning with a diverse set of market participants. 
These local market participants will provide helpful insights for the 
Joint Year 2000 Council. Clearly, more work is needed on contingency 
planning for Y2K, especially at the international level. Once we get 
beyond the early fall of this year, I believe that these efforts will 
begin to receive much greater focus and attention, and--together with 
testing--will dominate our discussions of Y2K during 1999.
                            closing remarks
    In closing, I would like to thank the Committee for the opportunity 
to appear and submit a statement on this important issue. I hope that 
the efforts of the Joint Year 2000 Council will help to make a 
difference in improving the state of Y2K preparations in the 
international financial community. Realistically, however, I believe 
that it is important to understand the limits of what financial market 
supervisors can accomplish, either individually or collectively. Only 
firms themselves have the ability to address the Year 2000 problems 
that exist within their own organizations. Only firms working together 
can assure that local markets will function normally. Supervisors and 
regulators cannot guarantee that disruptions will not occur.
    Given the sheer number of organizations that are potentially at 
risk, it is inevitable that Y2K-related disruptions will occur. Today 
it would be impossible to predict the precise nature of these 
disruptions. However, we do know that financial markets have in the 
past survived many other serious disruptions, including blackouts, snow 
storms, ice storms, and floods. We will also have a very interesting 
case at the end of this year with the changeover to monetary union in 
Europe. We will all be watching carefully to see whether the extent of 
operational problems related to this event is greater or less than 
expected.
    I would also like to say at this point that my discussions with 
other members of the Joint Year 2000 Council and with members of the 
External Consultative Committee have convinced me that successful 
efforts to address the Y2K problem will be dependent on the credibility 
of those calling for action. Those of us--such as members of this 
Committee as well as others in Congress--who are seriously engaged and 
concerned need to be able to persuade others of the need to take 
appropriate actions promptly. It would be unfortunate if general 
perceptions of the Y2K problem are driven primarily by unofficial 
commentators whose rhetoric is seen to exceed the facts on which it is 
based, and therefore easily dismissed.
    As a central banker and bank supervisor, my major concern must be 
with the system as a whole. At this point, I believe that we are doing 
everything possible to limit the possibility that Y2K disruptions will 
have systemic consequences in our markets. However, we must all 
continue to work hard--both individually and cooperatively--in the time 
that remains to ensure that this threat does not become more concrete.
    In that spirit, Mr. Chairman, I would like to end my remarks by 
commending the Committee for organizing these hearings on the progress 
of foreign financial markets in addressing the Year 2000 computer 
problem.
                          list of attachments
    1. Communique of the sponsors of the Global Year 2000 Round Table, 
April 8, 1998.
    2. Communique of the G-7 Finance Ministers, May 9, 1998.
    3. Communique and fact sheet of the Joint Year 2000 Council, May 
19, 1998.

           Attachment 1.--Global Round Table on the Year 2000

    On 8th April the Bank for International Settlements hosted a Round 
Table on the Year 2000, jointly sponsored by the Basle Committee on 
Banking Supervision (Basle Committee), the Committee on Payment and 
Settlement Systems (CPSS), the International Association of Insurance 
Supervisors (IAIS) and the International Organization of Securities 
Commissions (IOSCO). The meeting was attended by more than 200 senior 
executives (from 52 countries) representing a variety of public and 
private sector organisations in the financial, information technology, 
telecommunications and business communities around the world.
    In 1997, the sponsoring organisations each took initiatives to 
raise awareness of the issues surrounding the century date change, 
enhance disclosure and prompt appropriate action within the financial 
industry. The sponsors' decision to organise the Round Table was 
motivated by their recognition of the seriousness of the challenges 
posed by the century date change in IT applications and of the 
potentially severe consequences in the financial markets associated 
with a lack of Year 2000 readiness. The discussions at the conference 
focused on the increasing challenges presented by the century date 
change, with specific emphasis on the identification of initiatives 
that need to be taken in order to ensure that financial market 
participants and the interconnected infrastructures around the world 
can continue to function without major disruptions during the 
transition to the new millennium.
    The discussions at the Round Table confirmed that the Year 2000 
issue needs to remain a top priority of senior management and 
emphasised that private and public sector bodies should coordinate 
their focus on a number of important issues and approaches. These 
include the continuing need to ensure strengthening and widening of 
external testing programmes, improving information sharing among market 
participants and their vendors and service providers, fostering 
increased disclosure by financial and non-financial corporations of 
their Year 2000 readiness and testing results, establishing market 
conventions and procedures for dealing with potential contingencies, 
and reinforcing the role of oversight bodies such as supervisors and 
auditors. The importance of thorough testing, both internally and with 
counterparties, was emphasised as the most effective way to ensure that 
problems are minimised.
                       sponsors' recommendations
    1. Awareness of the seriousness and scope of the problem is high 
but varies considerably across markets and institutions worldwide. The 
sponsors believe that it is imperative that all market participants, 
and especially financial market supervisors, work to ensure that Year 
2000 preparations receive the maximum senior management attention and 
priority, including at the board of directors level. In particular, 
market participants from regions that have not yet vigorously tackled 
the problem should consider the need to invest significant resources in 
the short time that remains.
    2. Testing for Year 2000 readiness is the most critical and complex 
issue facing the financial industry. Because widespread testing has not 
yet begun, the extent of the problems and the amount of remediation 
work that remains is unclear. The sponsoring organisations urge market 
participants to explore ways to enhance the transparency of testing 
results.
    3. The sponsors consider it critical that financial market 
supervisors around the world implement programmes that enable them to 
assess the Year 2000 readiness of the organisations and market 
infrastructures that they supervise. Further, it is important for 
supervisors to ensure that the risks related to the century date change 
are identified, properly communicated among market participants and 
appropriately managed in their jurisdiction.
    4. The sponsoring organisations agree that the highest possible 
priority should be given to Year 2000 preparations by 
telecommunications and electricity providers in each national 
jurisdiction. Failure of these organisations to prepare adequately and 
share information on their plans in order to promote effective testing 
could lead to serious disruptions in the world's financial markets.
    5. In order to achieve a greater degree of market transparency, the 
sponsors believe that the sharing of critical information on Year 2000 
readiness by all market participants is essential. The sponsors 
encourage private sector efforts to develop standard questionnaires and 
frameworks for Year 2000 disclosure as these have the potential to 
provide clear means for measuring progress.
    6. Financial industry conventions and dispute resolution procedures 
should be developed to address the possibility of transaction failures. 
Additionally, contingency measures should be considered for the 
potential failure of key parts of the financial market infrastructure. 
Further, it is recognised that national payment systems need to 
coordinate testing schedules in order to provide opportunities for end-
to-end testing on a domestic and international basis. The Round Table 
sponsors welcome and support the initiatives taken by various industry 
groupings in this respect.
                        joint year 2000 council
    While the sponsoring organisations can raise awareness of the Year 
2000 issue, only the private sector can assure that applications are 
ready and thoroughly tested internally and externally and on an 
international basis. To this end, several private sector initiatives 
fostering international coordination and cooperation were identified 
during the forum. To maintain a high level of attention within the 
supervisory community and to support and encourage these private sector 
efforts, the sponsoring organisations are forming a Joint Year 2000 
Council comprised of senior members of each committee.
    Attached to this communique are further details on the discussions 
and conclusions of the Round Table. The BIS Web site contains further 
information on the Round Table and will be used to provide ongoing 
information on the activities of the sponsoring organisations and of 
the Joint Year 2000 Council.

Details on the Discussions and Conclusions of the Year 2000 Round Table

                  key issues raised at the round table
    The presentations and discussions at the Round Table confirmed that 
the complexity of the issues associated with the Year 2000 cannot be 
overestimated. Moreover, every senior political and business executive 
should have realised by now that the issues pose a critical management 
challenge and have potentially severe consequences for the ability of 
business entities to continue operating through the transition to the 
new millennium. The many challenges include the need to address 
resource constraints, the need to share information on readiness (not 
withstanding legal issues), the coordination of testing schemes within 
and across markets, the heightened disclosure of vital information, the 
development of market conventions to deal with transaction failures and 
contingency planning for infrastructure problems.
    Discussions at the Round Table confirmed that the Year 2000 
challenge continues to require the unwavering attention of senior 
executives in institutions throughout the world. Organisations need to 
ensure that appropriate programmes have been established to address all 
the various readiness issues that can be expected to affect their 
business. The resource constraints (financial, human and technological) 
and the amount of time needed to remediate and test internal systems 
are compounded by the need to evaluate readiness and arrange for 
testing with counterparties and customers, payment, clearance and 
settlement systems, and various trading and information systems.
    It is obvious that no individual IT user, individual institution, 
sector, market, or country is immune to the difficult issues presented 
by the Year 2000 problem. Even if an institution has verified and 
tested all its internally developed systems and applications, it will 
be affected by: the state of readiness of its vendors and third-party 
service providers; the public utilities upon which it relies, 
particularly the telecommunications and electricity suppliers; the 
infrastructures that it relies upon for its trading, payment and 
external information needs; and the counterparties and customers upon 
which its business viability rests. Moreover, the globalisation of 
financial and economic activity and the widespread use of information 
and telecommunications technology throughout the world has created 
various international interconnections and global interdependencies 
which add greatly to the complexity of the challenge.
              particular areas requiring further attention
    The discussions at the Round Table emphasised that while only the 
private sector can solve Year 2000 problems, public sector coordination 
is necessary to facilitate domestic and global activities. Such 
coordination is particularly helpful in designing external testing 
programmes, improving information sharing among market participants and 
their vendors and service providers, fostering increased disclosure by 
financial and non-financial corporations of their Year 2000 readiness 
and testing results, establishing market conventions and procedures for 
dealing with potential contingencies, and reinforcing the role of 
oversight bodies such as supervisors and auditors.
    Testing for Year 2000 readiness may be the most critical and 
complex issue facing the financial industry in its effort to ensure 
that the various interrelated systems continue to function through the 
transition to 2000. Because widespread testing has not yet begun, the 
degree of uncertainty regarding the scale of the problems that will 
arise and the remediation work that remains to be accomplished is 
considerable. Further, the four sponsors urge market participants to 
explore avenues that will serve to enhance the transparency of testing 
results for the benefit of the remediation efforts of the industry at 
large.
    Given the degree of interconnection between market participants and 
the fact that internal remediation programmes and testing efforts will 
require continuous reassessment and adaptation, organisations should 
maintain an open dialogue with their customers, counterparties and 
creditors in order that all interested market participants are able to 
make informed business decisions. Furthermore, it is essential that 
organisations consider the likely effects of the century date change on 
their customers and counterparties when evaluating future business 
transactions with these entities. In order to achieve a greater degree 
of market transparency, the sponsoring organisations believe that all 
possible efforts should be made to remove legal impediments to the 
sharing of critical information on Year 2000 readiness.
    The significant dependence of most organisations on external 
product and service providers is another concern. The potential effects 
of a failing of the telecommunications or electric power infrastructure 
would have far-reaching consequences for global business. The 
sponsoring organisations agree that the highest possible priority 
should be given to Year 2000 preparations by telecommunications and 
electricity providers in each national jurisdiction because the failure 
of these organisations to prepare adequately and share information on 
their plans in order to promote effective testing could lead to serious 
disruptions in the world's financial markets.
    With respect to the role of oversight bodies, the sponsoring 
organisations consider it very important that financial market 
supervisors worldwide implement a strategy that enables them to assess 
the Year 2000 readiness of the organisations and market infrastructures 
they supervise in order to make certain that the risks related to the 
century date change are identified and appropriately managed in their 
jurisdiction. When Year 2000 remediation and testing programmes of 
individual financial organisations or infrastructure operators are 
deemed inadequate, supervisors will need to take prompt, meaningful 
action. Further, it is essential that internal and external auditors 
understand how an organisation's programmes for remediation and testing 
are likely to effect their going concern status. It is also necessary 
for auditors to ensure that the information used to compile client 
financial statements has not been compromised by system errors related 
to the date change.
    Another important issue is the extent to which market participants 
and regulators can rely on certifications of Year 2000 readiness. The 
sponsoring organisations believe that financial institutions must 
understand that an issuance of a certification does not guarantee a 
product will perform as expected. While vendors have an obligation to 
let clients know when they have renovated and tested their products, 
users need to test that product within their environment to ensure that 
it performs properly as a component of their system. As such, attempts 
to obtain legally binding certifications of compliance are likely to 
needlessly complicate the important work that must be completed in the 
period prior to 1st January 2000. Additionally, market participants 
must not adopt a false sense of security but recognise the limits of 
any statement on readiness and that they need to perform their own due 
diligence.
                      follow-up to the round table
    The private sector, both in a domestic context and internationally, 
appears committed to move ahead on a variety of fronts, including the 
further development of mechanisms to share information relating to Year 
2000 issues, an effort to set minimum best practices for programmes 
designed to achieve readiness, and the support of rigorous internal and 
external testing. Although competitive pressures may arise from the 
markets' assessment of the readiness of individual institutions, there 
is likely to be scope for institutions, individually or through 
industry associations, to cooperate to ensure that the time remaining 
before the new millennium is used to the mutual benefit of all 
organisations. In the financial industry, in particular, it would be 
useful if conventions could be developed for the resolution of 
transaction failures, and contingency measures are considered for the 
potential failure of key parts of the financial market infrastructure. 
Further, it is recognised that national payment systems need to 
coordinate testing schedules in order to provide opportunities for end-
to-end testing on a domestic and international basis. The Round Table 
sponsors welcome and support the initiatives taken by various industry 
groupings in this respect.
    The sponsoring organisations intend to remain pro-active and 
continue to pay particular attention to Year 2000 issues and to the way 
in which individual firms, market infrastructures and industry 
associations in their respective areas of competence implement 
programmes and testing schemes aimed at ensuring Year 2000 compliance. 
In the case of the Basle Committee, it may be decided in the future to 
publish, if needed, more guidance on specific issues, such as the 
cross-border aspects of the Year 2000 problem and the management of 
external dependencies. The CPSS will maintain and expand the special 
section on the BIS Web site (www.bis.org) that provides information on 
the testing plans and readiness status of payment and settlement 
systems worldwide. Likewise, IOSCO will continue to update the special 
Year 2000 section on IOSCO's Web site (www.iosco.org), including 
information on the testing and readiness status of the securities 
industry and markets worldwide. The IAIS will continue to work with its 
members to urge insurance companies to implement detailed action plans 
to resolve the Year 2000 problems associated with their business 
activities.
    Where appropriate, the four sponsors plan to take further joint 
action to promote the Year 2000 readiness of the global financial 
industry. They will cooperate with regional efforts to promote the 
organisation of regional seminars on the Year 2000 topic in order to 
enhance worldwide awareness of the seriousness of the situation and to 
induce appropriate action with the aim of achieving Year 2000 readiness 
and contingency planning.
    In order to share information on regulatory and supervisory 
strategies and approaches, discuss possible contingency measures, and 
establish a point of contact with national and international private 
sector initiatives, the sponsoring organisations have formed a Joint 
Year 2000 Council, composed of senior members of each committee with 
broad-based experience.
    The BIS Web site contains further information on the Round Table 
and will be used to provide ongoing information on the activities of 
the sponsoring organisations and of the Joint Year 2000 Council. The 
Web site also carries details on the Year 2000 readiness and testing 
schedules of payment and settlement systems worldwide. A summary video 
recording of the proceedings will also be available and can be obtained 
(in the appropriate format for your region) from the BIS Publications 
Service.

          Attachment 2.--Conclusions of G-7 Finance Ministers

                           london, 8 may 1998
    1. Finance Ministers of the G-7 and the representative of the 
European Commission met in London on 8 May, as a part of the 
preparations for the Birmingham Summit, 15-17 May. We reached 
conclusions on a group of issues, set out below. We will also be 
reporting our discussions to our Heads of State or Government, for 
their Summit next week. Michel Camdessus, Managing Director of the IMF 
and Jim Wolfensohn, President of the World Bank, joined us for our 
discussions on the lessons of the Asian crisis, and steps to strengthen 
the world's financial system.
                             world economy
    2. We reviewed recent developments in the world economy. We 
welcomed the historical decisions in Europe on Economic and Monetary 
Union. We look forward to a successful EMU which contributes to the 
stability of the international monetary system. We discussed and 
welcomed the substantial policy measures announced by the Government of 
Japan in April, aimed at achieving domestic demand-led growth. Japan 
expressed its intention to implement them quickly and stressed the 
importance of further strengthening the financial system. We also noted 
that the United States economy required vigilance to stay on a 
sustainable path.
               strengthening the global financial system
    3. Globalisation brings clear benefits to people throughout the 
world but it also brings certain risks. Previous summits have agreed on 
ways to reduce these risks and strengthen the global financial system. 
However, the continuing process of globalisation and recent events in 
Asia have revealed a number of weaknesses and vulnerabilities in 
national and international financial systems, as well as in the lending 
practices of private sector investors. We need to act to strengthen the 
global financial system further, both to reduce the likelihood of such 
crises occurring in future and to improve techniques for containing and 
responding to crises when they do occur.
    4. We have developed proposals where there is now an emerging 
consensus for modifications to the architecture of the international 
financial system. There are important aspects of the issues discussed 
that require further work. Discussion within our countries, with 
emerging market countries and with the private sector will continue 
over the coming months. For now, having restated the importance of 
sound economic policies, we have identified the need for action in five 
key areas:

  --enhanced transparency and data dissemination;
  --helping countries prepare for integration into the global economy 
        and for free global capital flows;
  --strengthening national financial systems;
  --ensuring that the private sector takes responsibility for its 
        lending decisions;
  --enhancing further the role of the International Financial 
        Institutions and cooperation amongst them and with the 
        international regulatory fora. We are considering ways, and ask 
        the relevant institutions to develop proposals on ways, in 
        which greater co-operation can be achieved including options 
        for institutional reform.

    5. We have set out our proposals in a separate report to our Heads 
of State or Government, which outlines how work is being taken forward 
in each of these areas and signals a number of areas for further work.
   financial stability: supervision of global financial institutions
    6. Since the Lyon and Denver Summits, work has been underway to 
strengthen the international financial system. Recent events in Asia, 
combined with the rapid consolidation and globalisation in the 
financial sector, have highlighted once again the need to improve 
urgently co-operation between supervisors of internationally active 
financial institutions. We welcome the work done by the international 
regulatory bodies in this area and urge them to move quickly towards 
implementation of the concepts they have devised. Today we have reached 
important conclusions in a separate report. We commend the 10 Key 
Principles on information exchange which we will be promoting 
throughout the world as standards to which all countries should aspire. 
The G-7 also looks forward to the continuing contribution of the 
private sector to developing international standards that enhance the 
supervision of global financial firms, while reducing regulatory 
burdens. On the year 2000 issue, we call on the Basle Committee, the 
International Organisation of Securities Commissions (IOSCO), the 
International Association of Insurance Supervisors (IAIS) and the 
Committee on Payment and Settlement Systems (CPSS), and their newly 
formed joint Year 2000 Council to monitor the work that firms in the 
financial area already have underway, and to do all that they can to 
encourage compliance.
                            financial crime
    7. The fight against financial crime is one of the major challenges 
of our times. We emphasise that, as both financial services and crime 
become increasingly globalised, this challenge can only be met if all 
major financial centres work together. Effective co-operation between 
financial regulators and law enforcement authorities at the 
international level is an essential element of this. A G-7 expert group 
was set up by the Denver Summit to consider how this cooperation can be 
improved within our countries. We now agree to:

  --review our laws and procedures concerning information exchange 
        between financial regulators and law enforcement agencies 
        against a common list of key elements for effective 
        cooperation;
  --identify by October what modifications are desirable, consistent 
        with fundamental national and international legal principles, 
        to improve our systems and to implement such measures as 
        quickly as possible;
  --take forward a number of practical steps to improve cooperation;
  --disseminate a G-7 Reference Guide to Procedures and Contact Points 
        on Information Exchange to financial regulators and law 
        enforcement agencies in our countries and to expand this Guide 
        to cover all major financial centre countries.

    8. We have instructed the G-7 expert group to provide a report on 
progress on all these areas and any further recommendations in 
preparation for the Koln Summit.
    9. We also recognise that action must not be confined to G-7 
members and we emphasise that all countries should provide effective 
international administrative and judicial cooperation. In particular, 
we are concerned at the number of countries and territories, including 
some financial offshore centres, which continue to offer excessive 
banking secrecy and allow screencompanies to be used for illegal 
purposes. We recognise that the Financial Action Task Force (FATF) has 
already taken significant steps in this area and endorse FATF's efforts 
to support the Offshore Group of Banking Supervisors in its mutual 
evaluation process. We therefore call on the FATF to review the present 
position and make recommendations to Ministers by the Koln Summit on 
what can be done to rectify these abuses.
                      financial action task force
    10. We commend the work that the FATF has carried out since its 
creation in 1989 to develop and promote action against money 
laundering. Its Forty Recommendations remain the essential standard for 
effective countermeasures. However, although considerable progress has 
been made in the fight against money laundering, we agree with the FATF 
that much still remains to be done. We therefore endorse the decision 
of the FATF to continue its mandate for a further five years and the 
new strategy it has adopted.
    11. We agree that the major task during this period should be the 
establishment of a world-wide anti-money laundering network 
encompassing all continents and regions of the globe. We support FATF's 
intention to expand its own membership to a limited number of countries 
meeting the agreed criteria and to encourage the further development of 
regional anti-money laundering bodies. We call on other international 
organisations to work closely with the FATF in its mission. We also 
consider it essential that the FATF continues to monitor money 
laundering trends and techniques and to ensure that its Recommendations 
keep pace with new developments.
    12. We encourage FATF to implement its new strategy as quickly as 
possible and urge all countries to join in the fight against money 
laundering.
                            tax competition
    13. We warmly welcome the OECD agreement on action to tackle 
harmful tax competition. This provides a strong basis for co-ordinated 
international action to curb harmful tax competition through 
preferential tax regimes and tax havens. And we note the complementary 
development of the EU Code of Conduct.
    14. We strongly endorse the OECD recommendations, and we welcome 
the establishment of the OECD Forum on harmful tax practices. We will 
work through the Forum to secure effective implementation of the 
recommendations, and will actively support the proposed dialogue with 
non-OECD members to promote the agreed principles and recommendations 
on a global basis.
    15. We urge the OECD to give particular attention to the 
development of a comprehensive programme to improve the availability of 
information to tax authorities to curb international tax evasion and 
avoidance through tax havens, and through preferential tax regimes. 
This would involve developing further the proposals to improve exchange 
of tax information between OECD countries to address the problems 
caused by restricted access to banking information and to improve the 
supply of information from tax havens by the negotiation of effective 
information exchange arrangements.
    16. In addition we encourage international action to enhance the 
capacity of anti-money laundering systems to deal effectively with tax 
related crimes. Action here would both strengthen anti-money laundering 
systems and would also be an essential component of a coherent 
programme to increase the effectiveness of tax information exchange 
arrangements. Action could be based on furthering the following 
objectives:

          (a) Effective anti money laundering systems must ensure that 
        obligations to report transactions relating to suspected 
        criminal offences continue to apply even where such 
        transactions are thought to involve tax offences.
          (b) Money laundering authorities should be permitted to the 
        greatest extent possible to pass information to their tax 
        authorities to support the investigation of tax related crimes, 
        and such information should be communicated to other 
        jurisdictions in ways which would allow its use by their tax 
        authorities. Such information should be used in a way which 
        does not undermine the effectiveness of anti-money laundering 
        systems.

    17. We intend to pursue the development and implementation of these 
objectives with our OECD partners and in other appropriate fora 
including the FATF.
    18. We in G-7 commit ourselves to giving a lead by working to 
further the foregoing objectives in all territories and jurisdictions 
for which we have international responsibilities or over which we have 
influence. And we will follow closely the progress of further work on 
harmful tax competition which the OECD intends to undertake and the 
related work on tax related crimes.
                           customs procedures
    19. In Lyon we initiated an effort to standardize and simplify 
customs procedures. We welcome the further work undertaken since Denver 
which has produced a harmonised and simplified data set for import and 
export procedures, and urge our experts to reduce that data to a 
minimum consistent with customs responsibilities by the end of this 
year. We ask our experts to complete their work, including the 
development of standardised electronic declarations and to encompass 
the related import and export data requirements of other government 
departments and agencies. Our countries will, drawing on each others' 
experience, take all steps possible to establish customs prototypes or 
other procedures involving all the G-7 countries, which will use an 
agreed G-7 data set, by the Summit in the year 2000 if possible.
    20. We also welcome the significant progress made on the Action/
Defis programme of the World Customs Organisation to strengthen co-
operation between enforcement agencies and associations of 
international carriers. We encourage further development of this work.
                                 ageing
    21. We welcome the reports of the G10 and OECD on macroeconomic and 
financial implications of ageing populations. We ask the OECD to 
undertake further work looking at individual country ageing issues. We 
ask for a report from the OECD by the Summit in the Year 2000.

        Attachment 3.-- Joint Year 2000 Council Press Communique

                             19th may 1998
    On the occasion of the Round Table on the Year 2000 held at the 
Bank for International Settlements (BIS) on 8th April 1998, the 
committees sponsoring the event agreed to establish a Joint Year 2000 
Council. The Council is constituted by senior members of each 
committee, that is the Basle Committee on Banking Supervision (Basle 
Committee), the Committee on Payment and Settlement Systems (CPSS), the 
International Association of Insurance Supervisors (IAIS), and the 
International Organization of Securities Commissions (IOSCO). Mr. 
Ernest Patrikis, First Vice President, Federal Reserve Bank of New 
York, chairs the Council and its secretariat is provided by the BIS.
    The Council intends to meet regularly and has agreed on a range of 
initiatives to ensure a high level of attention on the Year 2000 
computer challenge within the global financial supervisory community, 
to share information on regulatory and supervisory strategies and 
approaches, to discuss possible contingency measures, and to serve as a 
point of contact with national and international private-sector 
initiatives.
    At their meeting in London in early May, the G-7 finance ministers 
called on the Council and its sponsoring committees to monitor the Year 
2000-related work in the financial industry worldwide and to take all 
possible steps to encourage readiness.
    A fact sheet presenting the Council's objectives and projects as 
well as its membership is attached. Information regarding the Council's 
ongoing activities will be posted on the BIS web site (www.bis.org).
                   joint year 2000 council fact sheet
    The mission of the Joint Year 2000 Council is:
  --to ensure a high level of attention on the Year 2000 computer 
        challenge within the global financial supervisory community,
  --to share information on regulatory and supervisory strategies and 
        approaches,
  --to discuss possible contingency measures, and
  --to serve as a point of contact with national and international 
        private-sector initiatives.

    The Joint Year 2000 Council is sponsored jointly by:

  --the Basle Committee on Banking Supervision,
  --the Committee on Payment and Settlement Systems (CPSS),
  --the International Association of Insurance Supervisors (IAIS), and
  --the International Organisation of Securities Commissions (IOSCO).

    The Secretariat for the Joint Year 2000 Council is provided by the 
Bank for International Settlements (BIS). Information from the Council 
will be made available on the BIS Web site (www.bis.org).
    The projects envisaged by the Joint Year 2000 Council include:

  --providing a forum for the disclosure of the status of global 
        financial market preparations for the Year 2000,
  --encouraging all payment and settlement systems, clearinghouses, 
        exchanges, and other parts of the global financial market 
        infrastructure to make publicly available information on their 
        preparatory efforts and testing programs,
  --meeting regularly with an external consultative committee composed 
        of organizations or associations with an international 
        perspective on Year 2000 preparations,
  --developing a global supervisory contact list for the Year 2000 
        challenge that includes a coordinating contact covering as many 
        countries as possible,
  --supporting, co-sponsoring, and providing assistance in planning 
        further conferences and roundtables on the Year 2000 challenge 
        in different regions of the world,
  --facilitating exchanges of information related to Year 2000 testing 
        programs within the international financial community,
  --encouraging coordinated cross-border testing to the maximum extent 
        possible,
  --developing a series of publicly-available working papers on 
        different aspects of the Year 2000 challenge,
  --facilitating the sharing of information on Year 2000 preparations 
        by core infrastructure providers such as telecommunications, 
        electric power, and government utilities, as they relate to 
        preparations by financial market participants,
  --sharing and developing ideas on contingency measures appropriate 
        for individual firms and domestic markets,
  --serving as a point of contact for the coordination of international 
        contingency efforts, and
  --encouraging the development of, and the global sharing of plans 
        for, market conventions and dispute resolution procedures 
        designed to mitigate the effect of Year 2000 transaction 
        failures.

                 Members of the Joint Year 2000 Council

Chairman: Mr. Ernest Patrikis, Federal Reserve Bank of New York
Representing the Basle Committee: Mr. Huw Evans, Bank of England (Mr. 
Martin Owen); Mr. Marcel Maes (Mr. Jos Meuleman), Banking & Finance 
Commission, Belgium; Mr. Jose Florencio Guzman, Instituciones 
Financieras de Chile (Mr. Jorge Cayazzo)
Representing the CPSS: Mr. Carlo Tresoldi, Banca d'Italia; Mr. Jammaz 
Al-Suhaimi, Saudi Arabian Monetary Agency (Mr. Taha Al-Kuwaiz and Mr. 
Ibrahim Al Hurabi); Dr. J. Tromp, South African Reserve Bank
Representing the IAIS: Mr. Tarmo Pukkila, Ministry of Social Affairs & 
Health, Finland; Mr. Bruno Bezard, Ministere de l'Economie et des 
Finances, France; Mr. Richard Smith, Insurance and Superannuation 
Commission, Australia
Representing IOSCO: Mr. Robert Colby, United States Securities and 
Exchange Commission; Mr. Masayuki Tamagawa, Securities Bureau of the 
Ministry of Finance, Japan; Dr. Munir-Majid, Malaysian Securities 
Commission
Ex officio: Mr. William McDonough, Chairman, Basle Committee on Banking 
Supervision, Chairman, Committee on Payment and Settlement Systems; Mr. 
Anthony Neoh, Chairman, International Organization of Securities 
Commission Technical Committee; Mr. John Thompson, Chairman, 
International Association of Insurance Supervisors
Secretariat (BIS): Mr. Paul Van den Bergh, Head of Secretariat; Miss 
Cheryl Gleason; Mr. Yves Carlier
Correspondents: Mrs. Daniele Nouy, Secretariat, Basle Committee on 
Banking Supervision; Mr. Eudald Canadell, Secretariat, IOSCO (Mr. Brian 
Z. Gelfand); Mr. Knut Hohlfeld, Secretariat, IAIS; Mr. Darryll 
Hendricks, Federal Reserve Bank of New York

    Please address inquiries to:
        Joint Year 2000 Council
        Secretariat
        Paul Van den Bergh
        Bank for International Settlements
        CH-4002 Basle
        SWITZERLAND
        Telephone number: +41 61 280 8432
        fax number: +41 61 280 9100
        e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdcddcc8d193cbdcd390d9d8d390dfd8cfdad5fddfd4ce93d2cfda">[email&#160;protected]</a>
                               __________

                 Prepared Statement of Howard A. Rubin

    Thank you for the opportunity to testify before the Special 
Committee on the Year 2000 Technology Problem. This is an issue that I 
have focused on for years in my work tracking and interpreting global 
technology trends and in my role as a consultant to some of the largest 
companies in the United States and the world. Based on the guidance 
provided in your invitation to me to testify today, I will confine my 
comments to the specific areas currently of interest to the Committee--
namely, the progress of foreign financial companies in managing the 
Year 2000 computer problem and the potential negative impact of 
failures abroad on the U.S. economy and ways in which the government 
and private sector can mitigate those risks.
    My fundamental position on this matter is that, in the global 
financial markets, no institution stands alone and is immune to the 
effects of the disruption of business transactions as they flow around 
the world. The source of such disruptions may be a result of Year 2000-
related problems in the financial sector itself or may also be caused 
by failures in the infrastructure that supplies power, water, 
communications, transportation, or any of the core social or business 
services. Furthermore, the Year 2000 computer problem has both direct 
and indirect economic consequences for society and business. The direct 
consequences have to do with the ability of businesses to conduct 
business itself as the millennium approaches and is eventually upon us, 
subject to the disruption sources previously mentioned. The indirect 
consequences are what might be considered ``second order'' effects--
these have to do with the impact on the business of the diversion of 
resources to work on the Year 2000 problem itself, in this era in which 
technology, business, and society are all tightly intertwined. 
Therefore, whether or not an organization believes Year 2000-related 
computer problems will impact it internally, it is imperative that, in 
the context of its own safety and that of the global financial network, 
it assess its Year 2000-related risks and act to abate any identified. 
However, because this problem is unique in computing/business history, 
organizations must be prepared to deal swiftly and decisively with 
three risk categories: the ``known knowns''--those things they know 
they must address about the problem; the ``known unknowns''--those 
things they know they don't know about the problem, but are prepared to 
face; and the ``unknown unknowns''--those issues that have not yet been 
identified as issues, but must be responded to when they arise.
    First, as a backdrop for discussing my view of the Year 2000 
picture for foreign financial companies, I'd like to provide you with a 
quick snapshot of some of the ``known knowns'' of the global Year 2000 
situation and the current U.S. status based on my survey results for 
1Q98 and 2Q98. I have been tracking Year 2000 trends on a quarterly 
basis for more that 4 years through my extensive data collection 
network.
    The table that follows provides an overview of estimated Year 2000 
repair cost impact, by country, across all industry groups, expressed 
as a percent of 1996 GDP for the countries for which I have been able 
to obtain data. (My friend and colleague Capers Jones, of Software 
Productivity Research, supplied some of the base cost data for my 
analysis.) This should provide the Committee with some insight into the 
magnitude of the diversion of resources that are likely to be deployed 
to deal with the problem--these same resources, under ``normal'' 
business conditions, would be focused on moving business and society 
forward. Now they are consumed by what some consider to be ``survival'' 
issues.

----------------------------------------------------------------------------------------------------------------
                                              Estimated Y2K
                            Estimated Y2K      total repair   Companies in  Percent  of systems   Robbins/Rubin
        Country           total repair cost  cost as percent     survey           ``work in        Y2K schedule
                                               of 1996 GDP                       progress''         indicator
----------------------------------------------------------------------------------------------------------------
United States..........    $187,921,430,000             2.5           108                  .83              .87
Japan..................     105,964,254,000             2.3            12                  .78              .85
Korea..................      22,614,322,500             4.7            30                  .68              .78
Germany................      60,544,165,000             2.5             4                  .79              .84
UK.....................      42,931,317,000             3.7             8                  .82              .85
France.................      42,379,656,000             2.8             7                  .78              .84
Italy..................      33,731,929,000             2.8             2                  .77              .79
Spain..................      17,328,201,000             3.0             3                  .72              .77
Netherlands............      10,199,431,000             2.6             4                  .77              .83
Belgium................       7,232,049,000             2.7             2                  .78              .84
Portugal...............       4,899,455,000             4.9             1                  .69              .79
Sweden.................       6,191,702,000             2.5             3                  .78              .86
Canada.................      18,129,243,000             3.1            22                  .81              .85
India..................       4,037,957,000             1.2             5                  .75              .84
Mexico.................      19,250,198,000             5.7             1                  .62              .76
Australia..............       9,894,632,000             2.5             5                  .73              .81
Argentina..............       8,292,548,000             2.8             2                  .58              .79
China..................       4,442,256,500             0.5             3                  .55              .78
Brazil.................      35,832,775,000             4.8             3                  .61              .78
Russia.................      32,246,348,750             7.3             5                  .58              .83
                        ----------------------------------------------------------------------------------------
      Averages.........      33,703,193,508             3.3                                .72              .82
                        ----------------------------------------------------------------------------------------
      Totals...........     674,063,87O,150                           230
----------------------------------------------------------------------------------------------------------------

    In terms of the direct GDP impact of Year 2000 problem risk, my 
colleagues at Cap Gemini have recently published a ``Millennium Index'' 
for the United States and European markets, which shows those at 
greatest risk to be Germany, Italy and the Netherlands, Finland, 
Belgium and the UK, the United States, Sweden, Denmark and Spain, 
Norway, and France. In addition, they have identified Germany, Finland, 
the Netherlands, Belgium, and the UK and Italy as the countries having 
the largest number of organizations that are running ``late.''
    One interpretation of these analyses is that, based on the data 
presented (progress measures and GDP diversion/impact), there is 
clearly a significant level of global risk. However, in my opinion, the 
presence of such risk does not automatically imply disaster, just a 
need for decisive risk management.
    The next two charts provide a similar snapshot of the U.S. industry 
position relative to schedule slippage and likelihood of project 
success, relying on a high-level Year 2000 risk assessment technique 
that I recently published (``Evaluating Success of a Y2000 Project,'' 
by Rubin and Robbins, published by Information Economics Press). In the 
context of this hearing, the single most important finding illustrated 
is that the financial services sector in the United States is among the 
top three groups in terms of schedule performance and controlling 
project risk. However, these points are no basis for complacency.
[GRAPHIC] [TIFF OMITTED] T6JL98G.001

[GRAPHIC] [TIFF OMITTED] T6JL98G.002

    Finally, 2Q98 U.S. survey data sampled from Fortune 500 companies 
as of June 28, 1998, indicates:

  --The trend to underestimate Year 2000 cost continues--87 percent of 
        those surveyed say their Year 2000 spending projections are too 
        low. Only 2 percent now say they are ``on target.'' A further 
        69 percent say they are unable to assess whether their 1999 
        projections will go up, go down, or stay the same.
  --A full-fledged Year 2000 strategy has begun in 86 percent of those 
        companies surveyed--up from 60 percent in March 1998.
  --The number of companies focusing on contingency planning has jumped 
        from 3 percent in March 1998 to 72 percent in June 1998--but 
        few real details of such plans have been worked out.
  --Year 2000 compliance is becoming a factor in business-to-business 
        relationships--55 percent of those surveyed indicate it is very 
        likely or potentially likely that they will not do business 
        with noncompliant suppliers and partners.
  --A small percentage of those surveyed, 3 percent, claim they may 
        sell off or reorganize parts of their business in response to 
        Year 2000 issues.
  --Staff working on Year 2000 projects are increasingly rating the 
        work as extremely ``boring''--up from 32 percent in March 1998 
        to 48 percent as of June 1998.
  --84 percent, up from 80 percent in March 1998, have had to change 
        their overall approach since starting their initiatives.
  --84 percent now say they are slipping milestones in their plans. 
        This is an increase from the 78 percent that said so in March 
        1998.
  --In terms of work activity, for the mainframe platform, the dominant 
        activities are conversion and initial testing, while the 
        desktop and distributed environments lag with a focus on 
        assessment and conversion.
  --The percentage of organizations expecting to have more than 50 
        percent of their systems compliant by 1/1/1999 has dropped from 
        85 percent in March 1998 to 81 percent.
  --40 percent of those surveyed claim to have had a Year 2000-related 
        failure. Primary impact areas are systems processing 
        disruption, financial miscalculation, supply chain/logistics 
        problems, and customer service.

    Now, I'd like to move on to the issue of the progress of foreign 
financial companies--this is an area of many ``known unknowns''.
    First, from my own work with leading U.S. corporations, the 
importance of effectively dealing with the Year 2000 problem on a 
global basis is well understood. This is evident in the details of 
their plans as they have moved toward international mobilization and 
coordination of their Year 2000 programs. In addition, inter-
organization activity has greatly increased and accelerated in terms of 
``buddy testing,'' ``street testing,'' and other self-initiated 
articulation activities. However, one of the biggest issues that I see 
arising between parties in this sector has to do with the ability of 
organizations to candidly and honestly exchange information--more on 
this later.
    In addition, level of concern about the Year 2000 problem and 
progress toward a solution vary around the world. The highest Year 2000 
problem visibility, in my opinion, is evident in the United States, UK, 
Canada, other European countries, and Australia. Eastern/Asian markets 
now appear to be increasing their level of concern, albeit somewhat 
late in the game as gauged against United States activity initiation.
    On a more quantitative basis, my observations about Year 2000 
projects in foreign financial companies are:

  --project starts appear to be late lagging behind U.S. peers by 3 to 
        12 months or more
  --spending estimates are typically lower than U.S. peer companies
  --spending rates are lower than experienced in U.S. peer companies by 
        about 50 percent
  --project priority is not quite as high as in U.S. peer companies

    In addition to using my own data sources, I typically try to 
compare my findings with other work published in the field. In this 
regard, the eBANKER results published by the Financial Times, developed 
from surveying the Year 2000 status of the top 1,000 banks in the 
world, shed additional light on the field. Again, posturing and 
positioning may somewhat taint the accuracy of their findings, but the 
high-level story shows:

  --496 respondents out of the 1,000 contacted claim they will be ready 
        for Year 2000
  --87 percent claim their projects are on schedule
  --The ``not on schedule category'' has a high number of institutions 
        in Japan and Germany
  --6 out of the 10 largest banks claim their critical systems will be 
        compliant by December 1998

    Again, as indicated by my own survey results, a significant level 
of risk is apparent, as demonstrated by the low response rate, the 
amount of slippage, and the concentration of those ``not on schedule'' 
in key market areas. A further contributor to the level of risk is the 
real lack of accurate data about the complete global picture. But 
again, risk does not automatically imply disaster--it does imply risk 
management, which is an issue that all the world's major financial 
institutions have significant experience with.
    Keeping in mind both the global cross-industry and the financial 
sector Year 2000 picture I just presented, I believe that successfully 
dealing with the Year 2000 problem requires a comprehensive risk 
management mindset. Reducing risk will decrease the probability of 
business disruption, but accurate information and open communication 
are the cornerstones of a successful risk management program. In 
addition, the risk management process is dependent on both quantitative 
and qualitative information--both of which are not generally available 
today or may be reported using misleading and easily misinterpreted 
measures.
    From a qualitative viewpoint, key indicators of a high potential 
for Year 2000 success that the Committee should be concerned about are:

  --Program management.--Having a well-defined project/program with 
        clear accountability.
  --Business impact management.--Having a clear business view of the 
        problem.
  --Scope of program.--Having a well-defined plan that links technical 
        and business priorities.
  --Control.--Having appropriate tracking and oversight in the context 
        of risk management.
  --Resource allocation.--Having the right (and adequate) technical and 
        business resources assigned to the project.
  --Program assurance.--Having the right testing procedures and 
        processes in place.
  --Contingency planning/event management.--Having contingencies 
        identified and contingency plans ready to be put into action.

    While many organizations are reporting ``progress measures,'' in 
terms of ``percent systems converted'' or ``percent partners 
contacted'' and the like, or are attempting to assess progress based on 
a universal Year 2000 progress ``timeline,'' this class of quantitative 
measures sheds little light on the probable success of a project. From 
a quantitative viewpoint, to truly understand the progress of an 
organization's Year 2000 efforts, the following two questions need to 
be answered in a concise and simple way:

  --Is the project proceeding, in all its dimensions--from technology, 
        to communication, to contingency planning--at the planned pace 
        in terms of work being performed to bring the organization 
        toward implementing a Year 2000 business environment?
  --Is the Year 2000 business environment becoming operational within 
        the required time frame?

    Please note that these are ``business'' and not solely 
``technical'' issues. It is clear that the time has come to escalate 
the management of the Year 2000 problem to the business side of the 
equation in all companies and insist on business accountability.
    I suggest this Committee adopt such a composite Year 2000 tracking 
and risk management viewpoint and move to enable and encourage, both 
nationally and globally, the following:

  --Mechanisms and communication channels for organizations to obtain 
        accurate and timely information about the state of 
        counterparties and those in its business transaction chain.
  --Mechanisms and communication channels for organizations to obtain 
        accurate and timely information about the state of its 
        environmental chain (utilities, telecommunications, public 
        safety, etc.).
  --Scenario analysis, driven from a business viewpoint, that will help 
        organizations (and countries) develop contingency plans that 
        deal with both single points or failure and multiple concurrent 
        points of failure.

    These suggestions point the way to new forms of information 
clearinghouses and perhaps even a national risk register. Success, to 
me, in dealing with the Year 2000 problem does not mean more rules and 
regulation regarding the methods or timelines that organizations must 
use in attacking the problem. Rather, success means enabling 
organizations to develop their own solutions and strategies internally 
while expanding the bandwidth and content of honest and open 
articulation between companies and across governments to minimize 
global risk.
    Perhaps more importantly, my final observation is contrary to the 
basic focus of this hearing--this is not a standalone company or 
industry issue; it is a network issue. The most difficult and critical 
of the Year 2000 risks are the ``unknown unknowns'' of cross-industry 
failures. We most likely will not know what these are ahead of time, so 
of utmost concern to this Committee should be seeing to it that 
organizations in all industries are prepared for rapid event 
management.
    Therefore I view the Year 2000 problem as a problem of ``choice''. 
The world's governments and companies have the ``choice'' to manage the 
risks by deploying technical and business resources to deal with the 
problem, they have the ``choice'' of focusing those resources on the 
most critical business and social areas where the impact will be felt, 
they have the ``choice'' to openly share information with each other 
and the public, and they have the ``choice'' to prepare for event and 
perhaps crisis management.
    Again, thank you for the opportunity to share my ideas with the 
Committee. I'll be glad to keep you informed as my global tracking and 
analysis activities continue.
                               __________

                 Prepared Statement of John Westergaard

    Good morning. My name is John Westergaard. I am founder, Editor and 
Publisher of Westergaard Online Systems, Inc., a publisher of Internet 
webzines which is cybertalk for magazines on the Internet. We also 
conduct investment conferences and have so for 21 years.
    We publish Westergaard Year 2000, a daily webzine providing 
information and analysis of the Year 2000 Millennium Bug which I will 
refer to here as simply ``Y2K''. Westergaard Year 2000 publishes 
several dozen expert columnists who regularly contribute commentary 
covering virtually all aspects of the Y2K problem.
    Westergaard Year 2000 is published as a not-for-profit public 
service under the editorship of Adam Kaplan and assistant editor John 
Yellig. Its Internet address is www.y2ktimebomb.com. It receives 
thousands of visitors daily from some 80 countries and is recommended 
as a Y2K resource by the World Bank and the Federal Reserve among 
others.
    I understand of course that the focus of this hearing is to be the 
international financial and economic aspects of the Y2K problem. I'll 
get to that. But first allow me to state some views with respect to the 
handling of Y2K compliance by the federal government from a perspective 
of having observed the issue develop at close hand for the past 2\1/2\ 
years.
    I do so because the main point I hope to impress upon this 
Committee is the need for the President, the Department of Defense, our 
United Nations representatives, and the Secretary of the Treasury, to 
exert leadership in alerting the world to the Y2K problem and to 
provide technological assistance in achieving date compliance.
    I fear historians will not treat the Clinton Administration well 
for its management of a crisis which promises to be the defining event 
of its second term. Congress will fare better thanks in main to 
Senators Bennett and Moynihan of this Special Committee who have played 
early leadership roles in sponsoring Y2K awareness, and to 
Congresspersons Steve Horn and Carolyn Maloney for the excellent 
hearings of their Committee on Government Reform and Oversight.
    On the executive side, the agencies testifying immediately 
following me here today--the Federal Reserve and the SEC--have been 
well ahead of the curve on this issue. The General Accounting Office 
(GAO) has done outstanding work.
    The Office of Management and Budget (OMB), on the other hand, 
appears to have focused on papering the problem over and has hampered 
Y2K remediation programs at the state level by projecting absurdly low 
federal estimates of remediation costs. This has caused supplemental 
budget requests of state officials to appear high in contrast, invoking 
thus the skepticism of state legislators.
    The most egregious Y2K compliance offender, considering the 
strategic importance of its mission and the vast resources and planning 
abilities available to it, has been the Department of Defense (DOD). As 
recently as last week the GAO issued a report sharply critical of the 
Navy's compliance status. The Army and Air Force are also in serious 
trouble over Y2K.
    As for the media, with exception of the Washington Post and the 
Financial Times of London, the general press here and abroad has failed 
miserably in addressing the crisis. As recently as November, for 
example, The Los Angeles Times was calling Y2K basically a hoax--
ironically at the very time that their internal operations people were 
struggling over allocating resources to meet compliance deadlines.
    The Wall Street Journal's coverage has been abysmal. I was told 
last year by a Journal reporter that his editors weren't interested in 
the Y2K story because it had already been told. That's the equivalent 
of reporting the attack on Pearl Harbor on Monday morning, December 8, 
1941 and then advising readers the next day: ``Oh, that story? We told 
you yesterday there's a war on.''
    Y2K may not be war but neither is it a one day story. It is an 
event that will encompass 6 years by my count from 1996 through 2002. 
Think of it as a plague, an ``electronic bubonic'' if you will.
    However extreme my comments may appear, let me assure the Committee 
that my view of Y2K is not apocalyptic. There will be a worldwide Y2K 
recession but there have been recessions in times past. The world has 
survived them and often been the better for the experience. I am in 
fact a congenital optimist and have great confidence as to the ability 
of the United States government, the business community, and the 
financial community to eventually work their way through Y2K.
    I foresee a period encompassing the first six month of 2000 as 
being equivalent to the first half of 1942--Pearl Harbor to the Battle 
of Midway--during which the U.S. mobilized for war. Enormous positive 
energy and creativity was unleashed then and I expect the same to 
happen this time.
    I come here today not as a computer expert by any means, but as an 
investment strategist who has a history of spotting financial and 
economic trends early. That's not because I'm smart. It's because I 
have published investment research on emerging small companies for 40 
years run by entrepreneurs typically engaged in promoting new business 
opportunities. I have thus tended to have an early look at new trends.
    It was just such an entrepreneur seeking research sponsorship and 
capital--Bob Gruder of Alydaar Corporation--who introduced me to Y2K in 
December 1995. I immediately took the matter to my friend of 40 years, 
Senator Pat Moynihan, who was incredulous as was everyone then (and as 
many still are). But in keeping with his academic discipline, the 
Senator requested that a study be prepared by the Congressional 
Research Service.
    CRS reported back within a few months substantiating in full the 
issues I had raised. As an aside, is it not curious that the two 
legislators who were first to recognize and take action on Y2K are 
former college professors: Senator Moynihan and Congressman Horn? 
Perhaps we should be electing more college professors to public office.
    Isn't it also curious that others in Washington who have quickly 
grasped the Y2K issue have backgrounds in business, to wit Senator 
Bennett and SEC Chairman Arthur Levitt? Perhaps we should be electing 
more business people as well.
    Senator Moynihan advised the President of Y2K by letter in July 
1996 and recommended appointment of a ``Manhattan Project'' style Y2K 
Czar to direct federal compliance. A perfunctory response was received 
in November, not directly from the President but from Frank Raines at 
OMB. The Senator then arranged a meeting with Secretary of the Treasury 
Bob Rubin and Assistant Secretary Larry Summers on December 14, 1996 in 
which I participated.
    Rubin and Summers were generally aware of the problem. We learned 
that Treasury was then budgeting circa $75 million for Y2K. According 
to a recent report, the figure in just 15 months has blossomed to $800 
million.
    The first public acknowledgment of Y2K by the White House occurred 
on August 15, 1997, a full year after the Moynihan letter, when the 
President stated at a press conference that Americans need not worry 
about the ``computer clock'' problem. The appointment of John Koskinen 
as Federal ``Y2K Czar'' in February of this year was the first sign 
that the White House is taking Y2K seriously.
    Senator Moynihan and I met with Mr. Koskinen at the end of March 
and I am pleased to say he left me, and I believe the Senator, with a 
comforting sense that an adult has been placed in charge. I believe Mr. 
Koskinen occupies the fourth most important position in America today 
after the President, Fed Chairman Greenspan, and Treasury Secretary 
Rubin.
    So what should the Senate be looking at and thinking about in 
respect to the Y2K problem as it relates to international economic and 
financial considerations? I will make a few predictions employing 
inferential analysis to create three ``what if'' scenarios. Given the 
speculative nature of Westergaard scenarios, they are as often wrong as 
they are right, but you can be sure they are never in doubt.
               scenario 1.--does y2k reflect god's will?
    At year 1000 Europe was engulfed with random violence and fear that 
the world would end. Out of this chaos emerged a new social order as 
Christianity spread through Northern Europe. Russia converted in 988 
followed by Poland, Norway, Iceland and Greenland in 999-1000. By way 
of background, I refer the Committee to James Reston, Jr.'s recently 
published ``The Last Apocalypse: Europe at the Year 1000 A.D.''
    Saddam Hussein will interpret Y2K as retribution from an almighty 
aimed at punishing technological infidels. He will interpret it as a 
call to attack Kuwait and Saudi Arabia. He will assume with good reason 
that Y2K will leave the U.S. military incapable of mounting a large 
scale military response.
    The financial and economic impact of a move south by Saddam will be 
chaos in the world petroleum market, sharply higher oil prices, 
inflationary pressures and consequent strains on international banking 
and industrial systems of unpredictable magnitude.
    Recommendation.--The DOD should be directed to prioritize Y2K 
compliance to mission critical systems needed to meet another Saddam 
challenge. It will be prudent to move troops into the region in late 
1999 to counter the risk that continuing Y2K complications following 
the Millennium turn would render impossible a timely response to 
Saddam.
                   scenario 2.--world recession 2000
    To understand business cycles, consider traffic backing up 20 miles 
on the New York State Thruway as drivers rubberneck even the most minor 
accidents. That is analogous to what will happen to the world economy 
in 2000. It will back up as transactions of every type--shipments of 
goods, travel, communications, payments, you name it--will slow down 
even if only fractionally. It is improbable that a worldwide recession 
can be avoided under such circumstances. The question isn't, ``Will 
there be a recession?'' It is, ``How bad will it be?''
    Recommendation.--A slowdown in healthcare reimbursement systems 
worldwide will leave hospitals and other care givers short of cash to 
pay employees of which there are some 10 million in the United States 
alone. Emergency funding will be required to provide systemic 
liquidity. Appropriate legislation needs to be prepared now for 
introduction in 1999 in the United States and worldwide.
    The United States, with the world's most advanced and respected 
health care system, should exercise leadership in alerting health care 
officials worldwide to the risk of slow payments and to potential Y2K 
related risks in the application of medical devices. Certain devices 
will be non-functional due to non-compliant software and non-functional 
chips.
    Upcoming confirmation hearings of Richard Holbrooke to the post of 
U.N. Ambassador will provide the Senate with a forum for recommending 
that an active role be taken by the United States delegation in 
alerting member states, the World Health Organization, and other U.N. 
agencies to Y2K issues.
                  scenario 3.--brownouts and blackouts
    There will be spot shortages worldwide of electrical power. Nuclear 
generating plants will be shut down to allay public fears of meltdowns. 
The French economy with its proportionately large 40 percent reliance 
on nuclear power will be hard hit.
    Recommendation.--Conventional power generating plants are less 
computerized than one might suspect but there will be at a minimum 
brownouts in the United States and worldwide in 2000. The nuclear issue 
will be resolved by shutting down nuclear plants over Millennium 
weekend and bringing them back on stream one by one to assure the 
public that plants are safe. The Department of Energy needs to take a 
leadership role promoting Y2K awareness of energy related Y2K issues 
domestically and abroad.
    These scenarios represent no more than a passing insight into the 
Y2K problem. I have not touched on Japan, the second largest economy, 
which remains in abject denial over Y2K, nor on China with the largest 
population. China on the one hand benefits from a proportionately low 
level of computer dependency but suffers from employing large amounts 
of pirated software leaving it without access to vendor assistance for 
remediating code.
    I could go on for the rest of the morning. More than 1,000 pages of 
information, research, analysis and commentary covering every aspect of 
the Y2K Problem can be found at our webzine, Westergaard Year 2000 
(www.Y2ktimebomb.com). I trust the Committee and its staff will employ 
this resource, register there for our free daily email alert service, 
and feel free to contact me and the editors via email or phone any 
hour, any day, anywhere.

    John Westergaard
    212-947-3853
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cb81a4a3a58bbcaeb8bfaeb9acaaaab9afe5a8a4a6">[email&#160;protected]</a>
                                 ______
                                 

                           [October 21, 1997]

        Good Show, Arthur, But What You Need to Do is Take it to

                            The White House

                         (By John Westerqaard)

    As a Williams College freshman in the fall of 1949, two individuals 
stood out for me in the sophomore class--George Steinbrenner and Arthur 
Levitt.
    Steinbrenner stood out because he was a big shot, a bully type, and 
a wannabe jock. Levitt stood out because his father was or was about to 
become Controller of New York State. (I can't quite recall which). In 
any event, unlike Steinbrenner, Levitt seemed like a nice fellow.
    I came to know Arthur when he joined Carter Berlind Weill and 
(subsequently) Levitt, the hotshot brokerage firm that eventually took 
over Hayden Stone. For a while the merged firm was called CBWL-Hayden 
Stone which Wall Street wags immediately christened ``Com Beef With 
Lox.'' Hmmm. Typically names become acronyms. This was an acronym that 
became a name (of sorts, admittedly).
    Arthur is a classy guy and congratulations to him for the work the 
SEC, which he now heads, is doing re the Year 2000 problem. In July, 
the SEC issued a report on the subject, and just last week, Arthur 
addressed the urgency of the Year 2000 Problem for the financial and 
investment community in a speech before a gathering of distinguished 
representatives from the International Federation of Stock Exchanges. 
He said that Y2K should be ``on the top of the list'' of all their 
outstanding IT issues. Way to go Arthur!
    There are two SEC documents readers should take a look at if you're 
in finance or if you're in anything having to do with public companies 
or mutual funds. The main document issued last summer is titled 
``Readiness of the United States Securities Industry and Public 
Companies to Meet the Information Processing Challenge of the Year 
2000''. The second document, was issued this past October 8. It reminds 
corporations and the mutual fund industry in no uncertain terms that 
they'd better be disclosing the extent of their Y2K problems in their 
10K's, 10Q's and via 8K's or they're going to find themselves in 
trouble.
    And meanwhile, Arthur, why don't you knock at the Oval Office and 
tell ``you know who'' that the Y2K Millennium Meltdown is taking him on 
a path to outdo Herbert Hoover as the worst President of the 20th 
Century, maybe the worst ever, for failing to address the problem, his 
August 15 ``don't worry about the computer clock problem'' statement 
notwithstanding.
    As for Steinbrenner, I ask of him: ``George, why don't you pull a 
Ross Perot and get the Florida Marlin's star pitcher Livan Hemandez' 
brother out of Cuba? Remember when Perot sent a private commando team 
into Iran to rescue his employees. There's a model for you, George.
    ``The brother is supposed to be better than Livan. Get him into 
your rotation next year. Now, that's box office, George, and probably a 
pennant to boot. Imagine the opening game of the 1998 World Series with 
the two brothers squaring off. Hmmm. Can't you just taste it?''
                                 ______
                                 

                          [November 11, 1997]

      Why Mixing Lawyers With Government Is Dangerous To Our Heath

                         (By John Westergaard)

    A pet game of mine is guessing whether politicians I'm hearing for 
the first time on TV talk shows are lawyers or not by listening 
carefully to their language. Lawyers use language that subtly in one 
way or another hedges their positions. It goes with being a good 
lawyer. They never speak from the shoulder. You can always spot them.
    Lawyers also tend to look back better than they look forward. 
That's because the nature of their profession is to be mostly concerned 
about covering their and their clients' backsides.
    Consider the Y2K problem as it is playing out in Washington. Note 
that only one of the eight players down there who seems to comprehend 
the dimensions of the problem is a lawyer by background. That's Senator 
Al D'Amato of NY. The rest come either out of academia--Senator Pat 
Moynihan (D-NY) and Representatives Steve Horn (R-CA) and Constance 
Morella (R-MD)--or out of business and industry: Senator Bennett (R-UT) 
(management consultant), Jim Leach, IA (propane gas), Arthur Levitt, 
SEC (publishing/Wall Street), and Carolyn Maloney (NY) (domestic 
engineer).
    Now do we understand why it is that the lawyers populating the 
White House and ubiquitous throughout the administration are not 
emotionally and intellectually equipped to comprehend the Y2K problem? 
Is it not obvious why the administration appointed Sally Katzen, a 
middle ranking regulatory lawyer with zero management credentials, as 
Y2K ``czar' responsible for the entire Federal Government's response to 
the Y2K crisis?
    Sally Katzen in charge of a crisis that will dwarf the S&L brouhaha 
of the 1980's? Can't one imagine the scene in the oval office, August 
1996, as Senator Moynihan's now famous letter arrived on the 
President's desk:
    Mr. ICKES: ``Mr. President, there's a letter from Moynihan. There 
seems to be some cockapithy problem called the Y2K Millennium Bug. 
Leave it to Moynihan to come up with something way out there I've never 
heard about.''
    Mr. PRESIDENT: ``A bug? Where? In the Lincoln bedroom? Call the 
exterminators for chrissake. What? Oh, oh that--the computer clock 
problem? Yeah, I heard about that. Better cover our ass. Be sure to put 
a lawyer in charge. Hillary has a friend over in OMB who needs 
visibility if she's going to get a serious job when we're out of here. 
Give it to her.''
    Hmmm.
    P.S. Some of my best friends are lawyers!
                                 ______
                                 

    The Washington Interpreter--Archive of Previous Interpretations

                                  1998
WI 26--Infrastructure and Interdependencies
WI 25--An Increase in Federal Y2K Awareness
WI 24--Congress Discusses Y2K
WI 23--Y2K Activity Heats Up in Washinoton
WI 22--Senate Establishes ``Special Committee on the Year 2000 
        Technology Problem''
WI 21--Y2K Issues and Recent Developments in Congress
WI 20--A Seminal Event: The President Acknowledges Moynihan As First to 
        Bring Him Y2K Problem
                                  1997
WI 19--Worried About Flying Millennium Weekend? Then Try This On For 
        Size: Any Idea How Close Americans Came to Not Being Able to 
        Fly Anywhere Over Thanksgiving?
WI 18--Congressman Horn's Quarterly Y2K Assessment Indicates that if 
        the Department of Transportation Has Its Way, Planes May Not Be 
        Flying Until 2010
WI 17--Note to the Fed Chairman: The Chips Don't Fit the Old 
        Motherboard and the Old Motherboard Doesn't Fit the Valves
WI 16--Dear Harold: How Can it Be That a Problem as Ubiquitous as the 
        Y2K Millennium Bug Doesn't Wend Its Way Into the Consciousness 
        of the Oval Office?
WI 15--Ultimate Irony: The President Is Advised To Tell Europeans What 
        To Do About the ``Millennium Timebomb?'' Hmmm * * *
WI 14--Can Any of Us Imagine the Vilification That Will Be Heaped Upon 
        This Administration and Congress If Social Security Is Unable 
        To Process Disability Payments Come Year 2000?
WI 13--Why Mixing Lawyers With Government Is Dangerous To Our Health
WI 12--Saddam Hussein Licks His Chops As Y2K Meltdown Draws Nigh
WI 11--Folly, Folly. That ``Filthy Haze Over Kuala Lumpur As Proxy For 
        The Millenium Meltdown
WI 10--Good Show Arthur, But What You Need to Do is Take it to The 
        White House
WI 9--In Which I Spend the Morning Downloading and Sorting Out REP # 
        TIRNO-98-R-00001
WI 8--Bring Back Gordon Macrae
WI 7--Y2K and the IRS: ``Could Be Catastrophic'' Says GAO
WI 6--Is McDonough Greenspan's Stalking Horse?
WI 5--Westergaard Year 2000 Fearlessly Presents and Explains Some 
        Provocative Predictions
WI 4--Moynihan Letter Highlights OMB/GAO Rift
WI 3--Worried About Y2K? It's O.K. Everybody--Big Daddy Says Don't 
        Worry!!!
WI 2--An Open Memorandum to FedEx CEO Frederick Smith
WI 1--The President Fiddles While Washington Smolders

              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD

                                 ______
                                 

          Statement of Treasury Deputy Secretary Larry Summers

    Mr. Chairman, and members of the Committee, the Department of the 
Treasury wishes to thank you for conducting this important hearing and 
supports your efforts to review the year 2000 problems and its 
ramifications on international banking and finance. Unless fixed, year 
2000 problems will pervade every aspect of our financial system, 
including the settlement of financial trades, the processing of routine 
financial transactions, and the dispensing of funds by ATM systems.
    All financial firms are potentially at risk. Even those entities 
which act responsibly to renovate their own systems can still be 
harmed, because of the intertwined nature of the financial system--a 
failure by a counterparty, supplier or vendor can have a negative 
impact on an otherwise solvent firm. If the failures are widespread, 
they can pose a threat to central markets such as an exchange or 
clearinghouse.
    Today's hearing on this issue comes at a propitious time. There has 
been a flurry of international action on the year 2000 matter over the 
past few months. Two weeks ago, the United Kingdom hosted a meeting of 
experts from the Foreign Ministries of the G-8 countries to discuss the 
year 2000 issue and trans-boundary issues. At that meeting, each 
country provided a brief overview of its domestic efforts, along with 
an analysis relating to progress in other countries. Other 
international fora, including the World Bank, OECD and regional 
organizations are also undertaking significant programs to help in the 
coordinate international activities in this area.
                        u.s. supervisory actions
    In the United States, financial regulators have taken steps to 
encourage firms to properly address the year 2000 issue.
    The U.S. Securities and Exchange Commission now requires public 
companies to disclose year 2000 problems in their corporate filings, 
which can help investors assess the impact of year 2000 on a firm's 
market value. Among other things, the SEC now requires a public company 
to disclose the fact that it has not made an assessment of its year 
2000 issues. In addition, a public company must describe material year 
2000 issues and disclose the nature and potential impact on the firm, 
including its general plans to address them. This disclosure, which is 
potentially a very powerful incentive-based approach, is designed to 
induce market pressure on public companies to take appropriate 
corrective measures.
    Similarly, U.S. bank regulators now routinely review year 2000 
issues when they conduct examinations of federally supervised banking 
institutions. The examinations are designed to:
  --determine whether the organization has an effective plan for 
        identifying, renovating, testing, and implementing a year 2000 
        solution;
  --assess the effect of year 2000 efforts on the bank's strategic and 
        operating plans;
  --determine whether the organization has effectively coordinated year 
        2000 processing capabilities with its customers, vendors, and 
        payment systems partners;
  --assess the adequacy of internal controls for the year 2000 process; 
        and
  --identify whether further corrective action may be necessary.
                   concerns outside the united states
    In the United States and elsewhere, the financial services industry 
appears to be ahead of other major industry sectors in addressing the 
year 2000 problem. Financial firms are working hard to renovate 
obsolete systems in such large financial centers of the United States 
such as New York and Chicago, as well as in other major market 
jurisdictions such as London and Frankfurt. Leading international 
financial firms have already started internal testing, and industry-
wide testing programs are scheduled for next year.
    However, it is very difficult to assess the effectiveness of the 
renovations programs currently under way in each country. Each country 
faces unique difficulties as it searches for an effective solution to 
the problem. In Europe, for example many countries in the European 
Union must handle conversion to the Euro currency simultaneously with 
the year 2000 problem. Japan is undertaking major changes to its 
financial system, which could also affect its year 2000 compliance 
effort. Other Asian countries must deal with more immediate threats to 
their economies.
    Outside the major financial centers, the problems caused by year 
2000 may be greater. In these countries, it may be more difficult to 
finance the cost of hiring programmers to fix the problem, or even to 
identify the systems which need renovation in the first place. On the 
other hand, the fact that many underdeveloped countries have not 
automated to the same extent as the United States means that there are 
not as many systems which can fail. Moreover, the systems which are in 
place in such poorer countries have often been purchased more 
recently--and are therefore more likely to be year 2000 compliant--than 
computer systems installed in many parts of the advanced industrial 
nations.
                  suggested steps for other countries
    Each country will have to implement its own solution to the year 
2000 problem, based on the particular circumstances, resources and 
problems relevant to it. However, there are some fundamental premises 
which many experts believe each country should keep in mind as it 
implements a year 2000 compliance effort. In particular, there are 
three fundamental issues--inventory/assessment, renovation, and 
testing.
    First, authorities in the computer area believe it is helpful for 
each country to assess its vulnerability to the year 2000 problem. This 
should include an inventory of all applications that require 
modification and an assessment of what renovation measures must be 
implemented. In the United Slates, the goal was to ensure that all such 
inventory and assessment review be completed by September, and 
regulators are monitoring those financial institutions which failed to 
meet this deadline.
    Second, experts agree that each country should follow assessment 
with a renovation phase, where individual software programs are 
modified to ensure year 2000 compliance. It is critical that firms 
prioritize their efforts so that the most critical applications receive 
priority attention, followed later by software programs which would 
have a more limited impact on the firm in the event of a year 2000 
failure. Most United States firms currently are undertaking their 
renovations programs, which should be largely completed by December 
1998.
    Third, and equally important in the eyes of virtually all 
professionals, is the testing phase, which individual countries should 
mandate for firms in their jurisdiction. The importance of such testing 
programs cannot be overemphasized, since even skilled programmers can 
overlook critical tasks. External testing should include tests with 
both single counterparties and multiple counterparties. In the United 
States, such testing is expected to begin no later than December 1998, 
but external testing necessarily requires the cooperation of 
governments and firms in other countries.
                    work in other international fora
    Because of our concern with respect to the progress that other 
nations are making in the year 2000 area, Treasury began a major effort 
to raise the profile of the issue and act as a catalyst for action in 
many countries. Treasury submitted a paper on the year 2000 issue in 
March 1998 to the G-7, which called on the G-7 countries to implement 
comprehensive year 2000 programs in each of their jurisdictions, and to 
help other countries as well. We have since worked with other countries 
to ensure that the year 2000 issue was placed on the Birmingham summit 
agenda. The May 8 G-7 Finance Ministers' conclusions called on the 
international regulatory bodies (i.e., the Basle Committee on Banking 
Supervision, the International Organization of Securities Commissions, 
the International Association of Insurance Supervisors, and the 
Committee on Payment Systems and Settlement) to ``monitor'' private 
sector efforts, and ``to do all that they can do to encourage 
compliance.'' As discussed below, these entities are taking up the year 
2000 challenge and are actively assessing and monitoring year 2000 
compliance efforts by financial firms in their respective industries, 
rather than merely ``raise awareness'' of the problem.
    Subsequently, on May 17, the G-7 Heads of State and Government met 
and called on countries to work together to solve the year 2000 issue, 
and expressly asked international organizations, including the World 
Bank and the Organization of Economic Cooperation and Development 
(OECD) to help solve the problem.
    Treasury also raised year 2000 in other international fora. In late 
May, Finance Ministers at the Asia Pacific Economic Cooperation forum 
(APEC) discussed with private sector representatives the importance of 
resolving year 2000 problems in APEC economies in a timely manner. They 
also urged the World Bank and the Asian Development Bank to help 
countries to address this issue, and domestic supervisory and 
regulatory authorities in the region work with the international 
regulatory bodies to implement measures to resolve this problem. The 
year 2000 issue was also included in the Joint Ministerial Statement of 
the Summit of the Americas Finance Ministers' meeting in Chile last 
December, and Treasury is continuing to encourage this regional 
grouping of North and South American finance ministries to work with 
its member countries in implementing effective solutions to the 
problem.
              work of the international regulatory bodies
    The international regulatory bodies have established the Global 
Year 2000 Council, and they are taking action to coordinate financial 
aspects of the year 2000 issue. The Year 2000 Council's efforts were 
kicked off in April, following a conference of world leaders on the 
Year 2000 problem held in Baste, Switzerland. That conference was 
helpful in further raising awareness of the year 2000 issue. We are in 
the process of designating a Treasury liaison to the Year 2000 Council 
to be kept informed of and promote their efforts to undertake an active 
program of monitoring and assessing the situation, and to develop 
appropriate remedial steps where it is apparent that a particular 
country or group of countries has fallen behind in its year 2000 
program.
    Other organizations, particularly the OECD, take part in the task 
of coordinating some of the most significant non-financial aspects of 
the year 2000 problem, such as telecommunications and power grids, 
where a disruption to communications or power grids could cause general 
economic harm.
                    role of the ifi's and the mdb's
    Treasury is paying increasing attention to the role which the World 
Bank and the International Monetary Fund, as well as regional 
multilateral development banks such as the Asian Development Bank, 
Inter-American Development Bank, and the European Bank for 
Reconstruction and Development, could play with respect to the year 
2000 issue. In our discussions with these entities, we are generally 
satisfied that they are taking reasonable measures to assess and 
renovate their own internal systems and we applaud their foresight in 
this regard. Among other things, it appears that all of these 
institutions have taken steps to assess their mission critical systems, 
and they are well under way with respect to renovating or replacing 
obsolete systems which will not be compliant.
    We are also actively encouraging the international financial 
institutions (IFI's) to consider a full range of policies which they 
could undertake in conjunction with their client countries. We hope to 
ensure that all projects and programs which these organizations finance 
are year 2000 compliant. On June 15, CIO's of all the IFI's met to 
share views and experiences on potential year 2000 computer problems 
and to explore ways to provide technical assistance to their member 
countries.
                               conclusion
    There is no easy cure for the year 2000 problem. Like many other 
issues, the year 2000 issue will require a great deal of diligence, 
planning, and plain hard work so that countries prevent critical 
systems from failing. Treasury is working in a range of international 
fora to help promote appropriate solutions.
    But while various international institutions, and the Treasury, can 
assist the year 2000 effort underway in various countries, at the end 
of the day each country will have to put in place its own solution to 
the problem and take responsibility for any failures. We must be 
realistic about the fact that the year 2000 problem is a novel event, 
and we cannot foresee all of the complications which might arise. 
Therefore, we cannot entirely rule out the possibility of disruptions 
to the financial system and other sectors of the economy, both in the 
United States and elsewhere. The key is to manage the risks, by 
prioritizing those systems which absolutely must be in working order 
while devoting lesser resources to other areas, and putting in place 
appropriate contingency arrangements to reduce the harm of any failures 
that do occur.
    We are well underway with this process in the United States, and we 
are hopeful that other countries are making similar progress with 
respect to renovating and testing their computer systems to take 
account of the year 2000 problem. This hearing is very useful to that 
process, as they can help raise awareness and ensure that all relevant 
entities employ their best efforts to solve the problem

                                <greek-d>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
